<html>
<title> - OPERATION ENDURING FREEDOM</title>
<body><pre>[Senate Hearing 107-801]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-801

                       OPERATION ENDURING FREEDOM

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                      FEBRUARY 7 AND JULY 31, 2002

                               __________

         Printed for the use of the Committee on Armed Services











                          U.S. GOVERNMENT PRINTING OFFICE
83-471 PDF                        WASHINGTON : 2002
----------------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001











                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN WARNER, Virginia
ROBERT C. BYRD, West Virginia        STROM THURMOND, South Carolina
JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
MAX CLELAND, Georgia                 BOB SMITH, New Hampshire
MARY L. LANDRIEU, Louisiana          JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              RICK SANTORUM, Pennsylvania
DANIEL K. AKAKA, Hawaii              PAT ROBERTS, Kansas
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
E. BENJAMIN NELSON, Nebraska         TIM HUTCHINSON, Arkansas
JEAN CARNAHAN, Missouri              JEFF SESSIONS, Alabama
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky

                     David S. Lyles, Staff Director
              Judith A. Ansley, Republican Staff Director

                                  (ii)






                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

                 Conduct of Operation Enduring Freedom

                            february 7, 2002

                                                                   Page

Franks, Gen. Tommy R., USA, Commander in Chief, United States 
  Central Command................................................     5

                       Operation Enduring Freedom

                             july 31, 2002

Rumsfeld, Hon. Donald H., Secretary of Defense...................    61
Franks, Gen. Tommy R., USA, Commander in Chief, United States 
  Central Command................................................    71

                                 (iii)


                 CONDUCT OF OPERATION ENDURING FREEDOM

                              ----------                              


                       THURSDAY, FEBRUARY 7, 2002

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:36 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Cleland, 
Landrieu, Akaka, Bill Nelson, Benjamin E. Nelson, Carnahan, 
Dayton, Warner, Inhofe, Roberts, Sessions, Collins, and 
Bunning.
    Committee staff members present: David S. Lyles, staff 
director; and Christine E. Cowart, chief clerk.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Richard D. DeBobes, counsel; Evelyn N. Farkas, 
professional staff member; Richard W. Fieldhouse, professional 
staff member; Jeremy L. Hekhuis, professional staff member; 
Maren Leed, professional staff member; and Terence P. Szuplat, 
professional staff member.
    Minority staff members present: Judith A. Ansley, 
Republican staff director; Charles W. Alsup, professional staff 
member; L. David Cherington, minority counsel; Edward H. Edens 
IV, professional staff member; Brian R. Green, professional 
staff member; Carolyn M. Hanna, professional staff member; Mary 
Alice A. Hayward, professional staff member; Ambrose R. Hock, 
professional staff member; George W. Lauffer, professional 
staff member; Patricia L. Lewis, professional staff member; 
Thomas L. MacKenzie, professional staff member; Joseph T. 
Sixeas, professional staff member; and Scott W. Stucky, 
minority counsel.
    Staff assistants present: Daniel K. Goldsmith, Thomas C. 
Moore, and Nicholas W. West.
    Committee members' assistants present: Erik Raven, 
assistant to Senator Byrd; Frederick M. Downey, assistant to 
Senator Lieberman; Andrew Vanlandingham, assistant to Senator 
Cleland; Marshall A. Hevron and Jeffrey S. Wiener, assistants 
to Senator Landrieu; Neil D. Campbell, assistant to Senator 
Reed; Davelyn Noelani Kalipi, assistant to Senator Akaka; 
William K. Sutey, assistant to Senator Bill Nelson; Eric 
Pierce, assistant to Senator Ben Nelson; Neal Orringer, 
assistant to Senator Carnahan; Benjamin L. Cassidy, assistant 
to Senator Warner; John A. Bonsell, assistant to Senator 
Inhofe; George M. Bernier III, assistant to Senator Santorum; 
Robert Alan McCurry, assistant to Senator Roberts; Douglas 
Flanders, assistant to Senator Allard; James P. Dohoney, Jr. 
assistant to Senator Hutchinson; Arch Galloway II, assistant to 
Senator Sessions; Kristine Fauser, assistant to Senator 
Collins; and Derek Maurer, assistant to Senator Bunning.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets this morning to receive testimony from General Tommy 
Franks, Commander in Chief, U.S. Central Command, on the 
conduct of Operation Enduring Freedom, the campaign against the 
al Qaeda terrorists and the Taliban regime that harbored them.
    Senator Warner and I traveled to the Afghan theater over 
Thanksgiving to visit our forces and to discuss the campaign 
with General Franks and his subordinate commanders. Other 
members of our committee have since traveled to the region. 
Everyone who has visited our forces comes away deeply impressed 
by their professionalism and commitment and also deeply 
impressed by the leader who joins us today.
    General Franks, thank you for your assistance during our 
visits. Thank you for your usual candor in our discussions, and 
I welcome you back to the committee to continue those 
discussions.
    Four months ago, America's Armed Forces and our coalition 
partners launched the first wave of Operation Enduring Freedom, 
and on the first day of the war General Franks sent the 
following message to our men and women in uniform: ``Today, the 
might of our coalition stands poised to strike at the heart of 
those who challenged our liberties and brought terror to our 
shores on September 11. Soon, you will enter into harm's way 
and strike the first blow in what will be a long and arduous 
campaign against terrorism. Our goal,'' General Franks said, 
``in this campaign is neither retaliation nor retribution, but 
victory. Today, the eyes of the world will be upon you. I know 
you will do your duty.''
    Well, for the past 4 months, the eyes of the world have, 
indeed, been on our forces as they have done their duty. Led by 
General Franks, they have used innovative techniques and 
revolutionary technologies to destroy the heart of the al Qaeda 
network, to topple the Taliban, and to liberate the Afghan 
people from tyranny. We have seen our Armed Forces conduct not 
only combat sorties but humanitarian food drops--reflecting 
America's compassion for the suffering Afghan people alongside 
our determination to bring terrorists to justice.
    We have seen small teams of special operations forces 
serving alongside Afghan opposition forces, 21st century 
warriors on horseback coordinating attacks and calling in 
precision air strikes against Taliban and al Qaeda targets. We 
have seen precision-guided munitions more often than ever 
before.
    The Chairman of the Joints Chiefs of Staff, General Richard 
Myers, told the committee Tuesday that nearly 60 percent of all 
munitions used in Afghanistan were precision-guided, compared 
to 10 percent during the Gulf War 10 years ago. We have seen 
unmanned aerial vehicles, Global Hawk and Predator, reveal the 
location of enemy forces and quickly relay that information to 
fighters and bombers overhead for precision air strikes, 
sometimes within minutes.
    We have seen an unprecedented level of cooperation between 
the military services: Marine helicopters ferrying Army 
soldiers from Navy ships into landing zones in Afghanistan that 
were secured by special operations forces, with air cover from 
the Navy and Air Force. That is joint operations at its very 
best. It is the foundation upon which the services need to 
continue building. The excellence and innovation of our forces 
in and around Afghanistan is a tribute to many factors: first 
and foremost the versatility of our brave men and women in 
uniform, the investments in planning over many years, and as 
General Myers testified, ``a good plan'' from General Tommy 
Franks.
    General Franks, the Nation is grateful for your leadership 
in this most important mission. Secretary of Defense Rumsfeld 
testified Tuesday that the Defense Department has already begun 
the process of assessing the lessons learned from our 
operations in Afghanistan. This committee will look carefully 
at those operations as we work with the Department to give our 
forces the support they need in, as General Franks put it, the 
``long and arduous campaign against terrorism,'' and as we work 
to shape our forces for the future. Today's hearing is an 
important step in that process.
    Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman. That was a very 
sincere, heartfelt statement you delivered. The chairman and I 
remember well our trip, General Franks, and it was made 
successful with your help and guidance. We thank you.
    The chairman and I have served in the Senate 24 years now. 
This is our 24th year. We have seen a lot of commanders, we 
have studied about many more, and you are going to take your 
place in a long line of distinguished senior combat commanders 
in American military history. If I may say, as I have come to 
know you very well in the past year or so, you carry out your 
responsibilities with an unusual sense of humility, and your 
hallmarks are taken from your name. You are frank, honest, and 
straightforward, and you ask nothing in return but the 
privilege to wear that uniform, serve your country, and be with 
your men and women of the Armed Services. Well done, sir.
    I want to also mention that we talked yesterday about the 
troops under your command. All too often, we overlook the fact 
that the Central Intelligence Agency served right alongside the 
individuals from the combat troops, along with other Federal 
civilians who served their role quietly and with great dignity. 
They, too, take their place in the historical annals of this 
combat situation.
    Senator Levin and I were also very moved when we met these 
teams because history is being written by the noncommissioned 
officer and petty officer--teams often composed of one 
commissioned officer and a dozen or more noncommissioned 
officers. They are really the fighting sergeants and petty 
officers. They, too, have written an extraordinary history. So 
it is a tribute to your leadership and the men and women under 
your command that we have achieved, in my judgment, many of the 
goals that our distinguished and courageous President laid down 
with clarity.
    Since this war began on October 7, al Qaeda has been 
severely fractured and its remaining members are on the run. 
Terrorist training camps in Afghanistan have been dismantled 
and destroyed. The Taliban regime has been defeated, and the 
nation of Afghanistan has been returned to its people to take 
up another great challenge, and that is to achieve some form of 
democracy. I want to talk a little bit about that.
    We did not go there, and our President made this very 
clear, with any timetable. As he said, we will take as long as 
it is necessary to achieve our goals. We are not going to be an 
occupation Army, and I want to repeat that. We are not there as 
an occupation Army. We, working together with our allies, are 
to ``turn that land over to its people.'' You mentioned to me 
yesterday when we visited that some 40 or 50 nations are making 
this possible.
    But now we have to, with some greater degree of clarity, 
explain first to the men and women in uniform and their 
families, and then to the American people, what we have 
achieved and what, in your professional judgment, remains to be 
done. We must determine how we very carefully begin to phase 
out of the combat operations and put those remaining units of 
the U.S. military in such support roles as necessary to enable 
the international organizations and other organizations and 
agencies of our Federal Government to go about the tough 
business of nation-building. We cannot do it all in a day, but 
our President said we will take whatever time is necessary.
    We have to make it very clear that, as the combat role 
phases down, this other challenge comes up, and it is a gray 
area, and that explanation is needed not only for our own 
people but the other people in the world. As our President has 
correctly said, we are going to defeat terrorism wherever it is 
in the world, and these forces now under your command who have 
performed so bravely and courageously may be needed tomorrow or 
the next day elsewhere to fight this global war on terrorism.
    You know that requires retraining, that requires the 
opportunity for them to rejoin their families and get ready for 
whatever the next operation may be, and the equipment itself 
has been under a lot of strain and needs to be reworked. So I 
hope that today, as the two of us discussed yesterday 
privately, we can lay down some of the guideposts as this 
transition takes place. It is not going to be a cut-and-run 
approach. No one would ever support that. Our President has 
repeatedly said we are going to be there as long as is 
necessary, but those roles are going to change.
    So we wish you well. We must always keep in mind September 
11. Yesterday I was visited by families who lost loved ones on 
that day. It was a tragic day for our country, and we will 
never forget it as our Nation rebuilds and moves forward from 
that day. It was a defining and unifying moment for our 
country, and out of it that tragedy grew a support for our 
President, and for those in uniform and others engaged in this 
battle, unlike any support since World War II.
    Now Congress, particularly this committee, is solidly 
behind you, and we are going to address the budget our 
President has sent to us a budget to provide for the 
enhancement of our military forces, and to better care for the 
men and women of those forces.
    So I thank you again, General, and those who are with you 
for your service.
    Chairman Levin. Thank you, Senator Warner. There is going 
to be a vote at 10:05, I believe, and we will try to work right 
through that vote as we did the other day.
    At this time, we are going to, of course, recognize General 
Franks for his opening remarks and we will then proceed to a 
first round of questions of 6 minutes for each Senator on the 
basis of the early bird rule, and then following that one round 
of questioning in open session the committee is going to go 
into a closed session with General Franks in Hart 219.
    General, welcome.

  STATEMENT OF GEN. TOMMY R. FRANKS, USA, COMMANDER IN CHIEF, 
                 UNITED STATES CENTRAL COMMAND

    General Franks. Chairman Levin, Senator Warner, first let 
me say that I am honored to appear on behalf of the coalition 
to discuss our role in Operation Enduring Freedom, America's 
global war on terrorism. I am privileged to command today more 
than 78,000 men and women, of them 14,000 coalition forces from 
17 nations in the theater as we speak today. I am proud of 
their commitment, their incredible competence, their success, 
and their sacrifices.
    Our Secretary directed on 12 September that we should 
prepare credible military options the day after one of the most 
horrific strikes on this country in our history. The concept of 
a plan and mission were proposed to President Bush on 21 
September. He approved and directed the continuation of 
planning. Planning was completed. Forces were beginning to 
stage by 30 September.
    The plan, including target sets, sequencing, force 
requirements, and command and control relationships, was 
briefed to Secretary Rumsfeld on 1 October in final form and 
briefed to and approved by President Bush on 2 October, when he 
issued an attack order to commence operations on 7 October. 
Forces were staged and ready by 6 October. Our forces began 
combat operations on the 7th, as directed, 26 days after the 
attacks on the World Trade Center and the Pentagon.
    I could not be more pleased with the professionalism of 
that decision-making process. It was absolutely first-rate, all 
the way from the principals I mentioned to their staffs to 
other agencies of the Government. The concept briefed and 
approved included coordination of basing, staging, and 
overflight requirements, the execution as well as what we have 
described as lines of operation conducted simultaneously rather 
than sequentially, including, to name but a few, the direct 
attack of al Qaeda and Taliban command and control, and also 
humanitarian assistance, as the chairman mentioned, for more 
than 26 million Afghan people.
    Another line of operation was operational fires, the 
delivery of kinetic munitions from air to ground: yet another, 
reconnaissance and direct action by special operating forces. 
Others included support to opposition forces on the ground in 
Afghanistan, information operations, and political military 
activities, including coalition-building. Those operations, as 
I mentioned, were conducted simultaneously. The very simple 
purpose was to build and maintain pressure inside Afghanistan, 
with the objective of the destruction of the al Qaeda terrorist 
network and the government of the Taliban.
    On 7 October, al Qaeda and the Taliban controlled more than 
80 percent of the country of Afghanistan, and terrorists were, 
in fact, harbored and sheltered in that country. On 22 
December, 76 days later, a new interim administration was 
established in Kabul, and all of us are familiar with Chairman 
Hamid Karzai, who gives Afghanistan a chance.
    Our activities today remain focused on gaining and 
exploiting intelligence in order to preempt and disrupt planned 
future terrorist acts, to positively confirm or deny all over 
Afghanistan the presence of Taliban or al Qaeda fighter 
pockets, to search through each possible location for evidence 
of weapons of mass destruction. We remain committed to the 
conduct of military operations to eliminate pockets of 
resistance to the interim administration of Afghanistan and to 
a long-term government.
    We work to support Afghan forces as required, and we 
continue to conduct and support civil military operations in an 
advisory capacity in the country of Afghanistan. As we speak, 
the coalition includes more than 50 nations, as mentioned by 
Senator Warner. Twenty seven of those nations have national 
liaison elements at our headquarters in Tampa, Florida. That 
team remains cohesive and, in fact, is continuing to grow.
    Our forces today operate from 15 nations, from within 30 
bases. The forces we see committed to this fight today 
originated from 267 bases and ports around the world, and have 
consistently overflown 46 nations. I am pleased with the 
progress, but much work remains to be done.
    The real story of Operation Enduring Freedom is a story of 
human spirit, U.S. coalition men and women in uniform and, as 
the Senator mentioned, civilian patriots. They come from many 
nations. They are united by a sense of duty and they evidence 
every day a great deal of selfless service. Our pride in these 
people is boundless, and our thanks is the same. They are the 
reason that this campaign will succeed.
    Mr. Chairman, in conclusion, let me simply say that the 
will and the support of the American people as they are 
represented, as those wishes are represented by Members of 
Congress and our Commander in Chief, have left nothing for this 
CINC to desire. The men and women of Central Command express 
their profound appreciation to the American people, to this 
body, and our President and Secretary of Defense, for 
continuing steadfast resolve, support, and leadership.
    Thank you, Mr. Chairman. I would ask that my prepared 
remarks be entered into the record, and I would be pleased to 
take your questions.
    [The prepared statement of General Franks follows:]
            Prepared Statement by Gen. Tommy R. Franks, USA
    Mr. Chairman, Senator Warner, members of the committee: I am 
honored to appear before you today to describe U.S. Central Command's 
role in America's Global War on Terrorism--a fight that involves every 
element of our national power and extends around the world. I am 
privileged to command a coalition force of more that 75,000 men and 
women at work today in the central region as part of Operation Enduring 
Freedom. I am so very proud of them--their professionalism, their 
commitment, their resolve, their successes, and their sacrifices. Our 
operations thus far represent the first steps in what we all know will 
be a long, difficult, and dangerous campaign. We have been very 
successful to this point, but much work remains to be done. I have 
visited Afghanistan several times since the campaign started and can 
attest to the dramatic changes coalition forces have brought to the 
lives of the Afghan people. Talented and dedicated men and women in 
uniform, side-by-side with diplomats, arm-in-arm with anti-Taliban 
Afghans, supported by the American people and the international 
community, executing an unconventional war--these are the 
characteristics of the fight we've seen.
    The events of 11 September have impressed upon all of us the 
vulnerability of a free and open society to those who do not value 
human life and, in fact, despise the principles for which America 
stands. The violence of the attacks on the World Trade Center and the 
Pentagon indicate the increasing lethality of terrorist networks with 
global reach. These attacks further define a pattern we have seen 
emerge over the past several years. At my confirmation hearing in June 
2000, I described the nature of the threat posed by a number of 
terrorist organizations, many of which are resident in Central 
Command's area of responsibility. This region has long been associated 
with some of the most dangerous terrorist organizations, including al 
Qaeda and Egyptian Islamic Jihad. Three of the seven nations on the 
State Department's list of states sponsoring terrorism are in our area. 
Over the past 7 years American interests have been attacked five times 
in countries within this region: the Office of Program Management for 
the Saudi Arabian National Guard, 1995; Khobar Towers, 1996; the 
American Embassies in Kenya and Tanzania in 1998; and the U.S.S. Cole 
in 2000. As I said last year in my remarks to this committee, ``These 
attacks demonstrate that our opponents are dedicated, determined, and 
resourceful.''
    On 11 September 2001, I was enroute to Pakistan, to meet with 
President Musharraf, to discuss a number of issues, among them, 
security cooperation and terrorism. The events of that day caused me to 
curtail my trip and return immediately to Tampa, Florida, where my 
staff was already working to ensure, what we refer to in the military 
as, ``command and control survivability'' while continuing to develop 
``situational awareness'' along with Defense and other government 
agencies. On 12 September the Secretary of Defense directed the 
preparation of ``credible military options'' to respond to 
international terrorism. For Central Command, that directive guided the 
preparation of the warplan we see unfolding in Afghanistan today. The 
concept, which I briefed to the President on 21 September proposed that 
``U.S. Central Command, as a part of America's Global War on Terrorism 
. . . would destroy the al Qaeda network inside Afghanistan along with 
the illegitimate Taliban regime which was harboring and protecting the 
terrorists. . .''
    When I returned to Tampa our headquarters and subordinate 
commanders were finalizing plans for combat operations. Planning 
involved not only the evaluation of the current enemy situation, but 
also the history of military operations in Afghanistan and the 
political and military situation across the region. This ``mission 
analysis'' resulted in my recommendation of a military course of action 
which was approved by Secretary Rumsfeld on 1 October. I briefed the 
concept to President Bush on 2 October, and he directed that combat 
operations should begin on 7 October--26 days after the attacks on New 
York and the Pentagon.
    Operations would involve the full weight of America's national 
power, and would include significant contributions from the 
international community. Coalition nations were already joining the 
fight against terrorism and many were sending military liaison teams to 
our headquarters in Tampa. The coalition has grown to more than 50 
nations, with 27 nations having representatives at our headquarters. Of 
our currently deployed strength of approximately 75,000 personnel, 
14,000 are coalition forces.
    With the cooperation and support of this coalition and the 
integration of virtually every agency of our Government, we have 
executed multiple ``Lines of Operation'', attacking simultaneously on 
several fronts. Our intention from the outset was to seize the 
initiative and reinforce success, while keeping in mind the lessons of 
previous campaigns in Afghanistan--avoid ``invading'', and work with 
(rather than against) the people. A critical enabler of the strategy 
was the coordination of basing, staging and over-flight. This 
political-military coordination set (and maintains) the conditions 
necessary to execute and support sustained combat. Among the lines of 
operation which characterize the campaign have been ``Direct Attack of 
the Leadership of al Qaeda and the Taliban'', and the provision of 
``Humanitarian Aid'' to the Afghan people. Another line has focused on 
``Destroying the Taliban Military,'' using unconventional warfare 
forces alongside Afghan opposition groups whose goals were consistent 
with our own. ``Operational Fires'' directed by horse-mounted Special 
Forces troopers have also proven to be unique and successful. 
Additionally, we have employed Special Operating Forces (SOF) in 
``Reconnaissance and Direct Action'' roles while maintaining the 
capability to introduce ``Operational Maneuver'' (conventional forces) 
if required. Through the course of the operation, more than 100 
``Sensitive Site'' exploitations have been conducted, seeking evidence 
of development or production of weapons of mass destruction. As forces 
have attacked ``Caves and Tunnels'' to deny enemy safe harbor, ``Radio 
Broadcast and Leaflet Programs'' have effectively informed the 
population of our goals and encouraged enemy forces to surrender.
    The success of these lines of operation, which have been applied 
simultaneously rather than sequentially, is a matter of record. On 7 
October, the Taliban controlled more than 80 percent of Afghanistan, 
and anti-Taliban forces were on the defensive. Al Qaeda was entrenched 
in camps and safe houses throughout the country. In fact, Afghanistan 
was a terrorist sponsored state. By October 20 we had destroyed 
virtually all Taliban air defenses and had conducted a highly 
successful direct action mission on the residence of Mullah Omar in the 
middle of the Taliban capital, Kandahar. During this time frame Special 
Forces detachments linked up with anti-Taliban leaders and coordinated 
operational fires and logistical support on multiple fronts. Twenty 
days later, the provincial capital of Mazar-e Sharif fell. In rapid 
succession, Herat, Kabul, and Jalalabad followed. By mid December, U.S. 
Marines had secured Kandahar Airport and the Taliban capital was in the 
hands of anti-Taliban forces. Within weeks the Taliban and al Qaeda 
were reduced to isolated pockets of fighters. On 22 December I traveled 
to Kabul to attend a moving ceremony marking the inauguration of the 
Afghan interim government--78 days after the beginning of combat 
operations.
    Today, the Taliban have been removed from power and the al Qaeda 
network in Afghanistan has been destroyed. We continue to exploit 
detainees and sensitive sites for their intelligence value in order to 
prevent future terrorist attacks and to further our understanding of al 
Qaeda--their plans, membership, structure, and intentions. We are 
investigating each site to confirm or deny the existence of research 
into, or production of chemical, biological, or radiological weapons. 
Coalition forces continue to locate and destroy remaining pockets of 
Taliban and al Qaeda fighters and to search for surviving leadership. 
The coalition continues to grow and remains committed to America's 
Global War on Terrorism.
    President Bush said last week in a joint statement with Chairman 
Hamid Karzai, that our two nations have committed to building ``a 
lasting permanent solution for Afghanistan security needs . . . based 
upon strengthening Afghanistan's own capacities. We will work with 
Afghanistan's friends in the international community to help 
Afghanistan stand up and train a national military and police force.'' 
We are working today with Afghanistan's interim authority to fulfill 
this promise. The standup of the International Security Assistance 
Force (ISAF) in Kabul is an example of progress to date. The ISAF's 
daily operations with local police are providing needed security and 
stability for the citizens of Kabul, and U.S. Central Command will 
continue to support these efforts. There is much work left to be done, 
and to quote the President again, ``It will take as long as it takes.''
    In the 149 days since 11 September, our forces have amassed a 
remarkable record of achievements. Following are but a few examples: 
All positioning and resupply of forces in the theater has been 
accomplished by air as a result of a remarkable effort by U.S. 
Transportation Command. In addition to providing the firepower and 
``staying power'' of two carrier battlegroups, the Navy steamed the 
U.S.S. Kitty Hawk 6,000 miles at flank speed to establish an afloat 
forward operating base for Special Operating Forces. In terms of 
operational fires, Navy, Marine Corps, and Air Force pilots have 
delivered in excess of 18,000 munitions, of which, more than 10,000 
were precision guided. During Operation Desert Storm we averaged 10 
aircraft per target; in Operation Enduring Freedom we have averaged 2 
targets per aircraft. Our airmen have flown the longest combat fighter 
mission in our Nation's history (more than 15 hours), and conducted the 
longest surveillance mission (26 hours). The extensive use of unmanned 
aerial vehicles has permitted around the clock surveillance of critical 
sites, facilities, and troop concentrations. Our psychological warfare 
operators have delivered more than 50 million leaflets, and transport 
crews have delivered 2.5 million humanitarian daily rations, 1,700 tons 
of wheat, and 328,200 blankets. More than 5,000 radios have been 
provided to the Afghan people, and our broadcast capabilities continue 
to bring music to people for the first time in more than 6 years. We 
also have made enormous improvements in our ability to bring firepower 
to bear rapidly. Through improved technology and training the Tomahawk 
targeting cycle has been reduced from 101 minutes during Operation 
Allied Force to 19 minutes during Operation Enduring Freedom, with half 
of our Tomahawks having been fired from submarines.
    We are now in the preliminary stages of capturing the lessons of 
this campaign. It is too early to draw final conclusions because the 
fight continues, but we do have some emerging insights:
    Combining the resources and capabilities of the Defense Department, 
Central Intelligence Agency, and other agencies of the Federal 
Government has produced results no single entity could have achieved. 
Similarly, the adoption of flexible coalition arrangements has enabled 
us to leverage individual national strengths. ``The mission has 
determined the coalition; the coalition has not determined the 
mission.''
    This operation continues to be commanded and controlled from Tampa, 
Florida with fielded technology that provides real time connectivity 
with air, ground, naval, and Special Operations Forces 7,000 miles 
away. Our forces which have deployed from over 267 bases; are operating 
from 30 locations in 15 nations; and over flying 46 nations in the 
course of operations; yet our ability to ``see'' the battlefield 
literally and figuratively at each location provides unprecedented 
situational awareness.
    Security cooperation, diplomacy, and military-to-military contacts 
have built personal relationships which have proven invaluable during 
the campaign. Humanitarian airdrops; economic and security assistance 
to coalition partners and regional allies; visits to the region by 
senior administration, congressional, and military officials; and a 
U.S. commitment to post-conflict reconstruction of Afghanistan have 
permitted us to build upon these essential relationships. Our 
investment in security cooperation has been repaid tenfold in access to 
basing, staging, and overflight rights with regional partners. We must 
not underestimate the worth of our commitment to these programs.
    Precision guided munitions are more than a force multiplier. They 
have reduced the numbers of air sorties required to destroy targets and 
have resulted in unprecedented low levels of collateral damage. From 
this perspective, precision guided munitions have had a strategic 
effect.
    As we have said in the past, the availability of strategic airlift 
is critical to the success of operations which require force 
projection. Our current airlift fleet requires strict management and 
innovative scheduling. This would seem to validate the testimony the 
committee received last year. We must continue to expand our strategic 
lift capabilities.
    The importance of combined and joint operations training and 
readiness has been revalidated. The power of a well-trained air-ground 
team has permitted the melding of 19th century Cavalry and 21st century 
precision guided munitions into an effective fighting force.
    A continuous, unimpeded flow of intelligence remains key to success 
on the battlefield. Human intelligence is essential when mission 
objectives include locating, identifying, and capturing or killing 
mobile targets. This requires people on the ground. Similarly, unmanned 
aerial vehicles have proven their worth in the skies over Afghanistan. 
We must continue to expand their use, develop their capabilities, and 
increase their numbers.
    Information Operations also have been vital to the success of 
Operation Enduring Freedom. Psychological operations, electronic 
warfare, and a number of special capabilities have proven their value 
and potential. To maintain information dominance, we must commit to 
improving our ability to influence target audiences and manipulate our 
adversary's information environment. Continued development of these 
capabilities is essential.
    Again, these are only glimpses of lessons we may take from the 
campaign in Afghanistan. Much study is required to separate ``useful 
truths'' as they may relate to the enduring nature of warfare, from 
observations which, while interesting, may not offer much as we prepare 
for an uncertain future.
    Our operations to this point represent a first step in what will be 
a long campaign to defeat terrorism. The terrorist attacks of 11 
September have impressed upon all of us the importance of taking the 
fight to the enemy and maintaining the initiative. Our Command remains 
``on the offensive''.
    The real story of Operation Enduring Freedom is a story of the 
human spirit--U.S. and coalition men and women in uniform and civilian 
patriots--those who serve and those who support, those who command and 
those under command. From Special Forces troopers representing nine 
nations in Kandahar to the ``Red Shirt'' ordnance handlers aboard our 
aircraft carriers, to Jordanian medics serving in a hospital in Mazar-e 
Sharif, new standards of excellence have been set. Our pilots and 
airlift specialists, intelligence analysts, staff specialists, those 
who stand sentinel, and members of government agencies whose bravery 
will likely never be known, have worked hand-in-hand toward a common 
goal, each of them serving tirelessly without complaint, many in harm's 
way and under extreme environmental conditions. They come from many 
nations, but are unified by their sense of duty and selfless service. 
Our pride in these people should be boundless, our thanks the same. 
They are the means by which we will defeat the scourge of terrorism.
    In a great work, ``On War,'' published in 1873, Baron Carl Von 
Clausewitz affirmed that successful war required the ``trinity'' of the 
people, the government, and the military . . . to enter into war 
without this support would be folly. Operation Enduring Freedom rests 
firmly upon the foundation of that trilogy. The will and support of the 
American people, represented by Members of Congress and our Commander 
in Chief, have left nothing to be desired. The men and women of Central 
Command express their profound appreciation to the American People, to 
this body, and to our Commander in Chief for continuing steadfast 
resolve.

    Chairman Levin. Thank you, General Franks. The statement 
will be incorporated into the record in its entirety.
    General, let me start off by asking you a question which 
was asked of the CIA yesterday, and that has to do with the 
damage that has been done to the al Qaeda network as a result 
of our operations in Afghanistan. Can you give us your 
assessment as to how much damage has been done to al Qaeda's 
ability to carry out terrorist operations worldwide, to their 
command and control structure and to their leadership 
structure?
    General Franks. Mr. Chairman, I would be pleased to do 
that. I will take it in reverse order of your presentation 
initially, which talked about the Taliban, this illegitimate 
government that initially sponsored and harbored al Qaeda. 
Obviously, the harboring is gone. There is no more Taliban 
government inside the country of Afghanistan, and so I believe 
that makes it difficult for al Qaeda to operate from the 
battlespace of Afghanistan.
    I believe that the command and control architecture of al 
Qaeda has been disrupted. There certainly are no longer cells 
of coordinated planning activity linked with, in some cases, 
state-of-the-art communications operating from within 
Afghanistan. So, Mr. Chairman, I would simply summarize by 
saying the harboring is no longer there, the networks are not 
free to operate on their own terms, and a great many of the 
terrorists themselves have been captured or killed.
    There are al Qaeda left inside Afghanistan, and they remain 
the subject of our ongoing military operations which, as 
Senator Warner said, will continue until we are finished. But I 
think, sir, that that is a summary of where we stand right now. 
The network does not operate as a network from inside 
Afghanistan.
    Chairman Levin. The Central Command is investigating the 
circumstances of the January raid by U.S. special forces in the 
village of Hazar Kadam. A media report suggests that 18 people 
were killed and 27 taken prisoner. Can you tell us what the 
status of that investigation is, and what you found out about 
that incident so far?
    General Franks. Mr. Chairman, I would be glad to.
    We had intelligence information that led up to a special 
operation on two compounds in the area of Hazar Kadam, as you 
mentioned. I, too, have read the reports in the media that you 
have outlined, and in a discussion with Chairman Hamid Karzai a 
few days after that incident in Kabul, when I visited him, he 
told me that he was not certain as to the circumstances of 
that, and that he believed there may well have been some 
friendlies associated with him in the general area of this 
contact.
    I told him that based on that I intended to conduct an 
investigation into the facts and circumstances surrounding the 
operation. That investigation is ongoing as we speak today. I 
suspect, as Secretary Rumsfeld said yesterday, that within 2 
weeks time that investigation will be completed. A 
determination that we made early on was that the 27 detainees 
that we took from these two sites in Afghanistan would be 
interrogated, and when a determination was made that they were 
neither Taliban nor al Qaeda, nor possessed any information 
that would permit us to do the mission that I described to you 
a minute ago, that we would turn them over to Afghan 
authorities.
    I have also read that the 27 detainees were released 
yesterday. In fact, the 27 detainees were given to Afghan 
authorities yesterday, and the suspicion at the point when we 
gave them, surrendered them to the Afghan authorities, is at 
least some number of them were criminals, and they were 
received by Afghan authorities as criminals.
    Chairman Levin. General, we have, as you pointed out, 
ongoing operations in Afghanistan, ongoing pockets of 
resistance, ongoing conflicts between warlords competing for 
control of territory, still chaos in places, threats in places. 
You said that interim President Karzai gives Afghanistan a 
chance, and I could not agree with you more.
    He has strongly urged that it may be necessary for the 
United States to participate at some level in the international 
security assistance force until there is a national army which 
is put in place, and trained. There has to be an international 
security assistance force. I think everyone agrees to that. The 
question is whether or not, if U.S. participation at some level 
proves to be necessary in that force, we would participate as 
the interim president suggests may be necessary. Can you give 
us the pros and cons of that, and has a final decision been 
made?
    General Franks. Senator Levin, I would not prejudge 
decisions that our President may take on that, and I would not 
really talk about our military-to-military and security 
cooperation relationship with either the interim or 
transitional or permanent government of Afghanistan, because we 
certainly will have a security cooperation relationship with 
Afghanistan as it continues to develop.
    An international security assistance force by a very narrow 
mandate from the United Nations provides for this capability, 
which the United Kingdom currently leads, by having set up 
police precincts and so forth inside the city of Kabul. There 
is no question that we will consider such things as the 
training and the support of Afghan forces as we work with them 
to create a national army for Afghanistan. There is no question 
about that, but the implication of that statement, at least in 
my mind, is not that we will pick up a substantial role within 
the international security assistance force.
    So we remain committed--based on the guidance that I have 
from the Secretary and from the President--to the assistance of 
this growing Afghan capability. We intend to help them form an 
Afghan national army, there is no question about that. We 
intend to remain engaged with this country for the foreseeable 
future.
    The specifics of the contribution by this country, our 
country, or the contributions by the international community, 
remain open. It is being discussed, and the specific 
relationship between assisting in the creation of a police 
capability within Afghanistan, and the assistance provided to 
create an Afghan national army, a lot of discussion is 
continuing to be done about that, but one should take that we 
will remain engaged in Afghanistan for the foreseeable future.
    Chairman Levin. Senator Warner.
    Senator Warner. I will pick up on that line of questioning 
in following my observations in my opening statement. It is not 
to be an occupation army, correct?
    General Franks. Correct.
    Senator Warner. Good, and the responsibilities of our 
service persons will not be those of policemen in the streets, 
once we can establish within the Afghan government structure 
the ability to do that, am I not correct on that?
    General Franks. Senator, I believe that is correct.
    Senator Warner. Good, but we have to explain the proper 
role of the U.S. military so that the families of our military 
people and the people here in this country realize our success. 
We may not yet have caught the leadership, bin Laden or Omar, 
but we are going to achieve that some day. Don't you agree?
    General Franks. Sir, there is no question about that.
    Senator Warner. The remarkable series of goals laid out by 
our President have now been achieved. We can now begin to look 
to transition and have other agencies of our Federal Government 
and international agencies come in to pick up those 
responsibilities, because you want your forces ready and 
positioned to pursue the terrorists elsewhere in the world if 
that be the decision of our President, and hopefully coalition 
members.
    General Franks. Senator Warner, as we said, our operations, 
as part of Operation Enduring Freedom, represent one piece of 
our national approach, our strategic approach to this global 
war on terrorism. So yes, sir, I would say that the way you 
described it is precisely correct.
    Senator Warner. There is a remarkable chapter in this 
conflict, and indeed your own role. One day you are a combat 
soldier, the next day you are a diplomat. You are dealing with 
not only the border nations but many others who come in, and 
then, if I may say with a little levity, politicians. Today's 
Washington Post carries a very interesting story about how 
allegations are arising that Iran is shipping in arms and 
support for one of the warlords, as they are referred to. How 
many warlords are there?
    General Franks. Sir, I could not tell you how many warlords 
there are, because I really do not use that term. There are a 
great many pockets of power within the country.
    Senator Warner. Pockets of power, that is again your 
diplomacy coming through. But again here it says, 
``unpredictable warlords could move out to destabilize the 
situation.'' This is remarkable.
    I had a great deal of respect for General Clark, our former 
NATO commander, and the operations in Kosovo, preceded by those 
in Bosnia. A great deal of his time was needed to reconcile the 
differences among the NATO nations as they sat around the 
councils deciding what authority would be given to him as the 
Commander in Chief of the forces. You have had a greater degree 
of authority and perhaps, maybe, a greater degree of 
cooperation from those countries that have stepped up to 
contribute in this effort. Is that a fair observation?
    General Franks. Sir, I do not know that I would say that 
the degree of authority I have had is any greater than that Wes 
Clark had during the campaign you mentioned. I would say that 
the remarkable clarity of guidance from the Defense Secretary 
and from our President, the degree of confidence which they 
have placed in our ability to direct this campaign, deserves 
note.
    One of the lessons to be taken from this at the strategic 
level is the value of what I just described, and so, sir, it is 
true that on a great many occasions I have traveled through the 
region. I have met with the leaders, and we have discussed the 
issues that needed to be resolved in order to ensure basing, 
staging, overflight.
    I would also point out that a great many diplomats, as well 
as our own Secretary, have traveled to the region. I would not 
need to remind the Chairman and you, Senator Warner, of the 
value of your trip into this region to meet with leaders. All 
of this served as an enabling approach to let the military 
operation be executed in the way we described it to our 
President, the way we wanted to go after the operation, and all 
the pieces and parts of that, sir, I would say came together in 
a way that produced an approach which has served our interest 
up to this point.
    Senator Warner. When I said I thought you had more 
authority I had a little bit of a foundation for that, and that 
is a statement made by the President in Crawford, Texas, when 
you stood by his side and he said, ``when Tommy Franks says 
`mission complete, Mr. President,' that is when we start moving 
troops out.'' Remember that?
    General Franks. Senator, I do.
    Senator Warner. That is an extraordinary statement of trust 
reposed in you by the Commander in Chief.
    General Franks. Yes, sir.
    Senator Warner. Can you give us some boundaries of the 
definition of mission complete, as you see it now and hope to 
achieve it?
    General Franks. Senator Warner, what we see inside 
Afghanistan, as I described in the first part of the hearing, 
has to do with Chairman Hamid Karzai and the people of 
Afghanistan having a chance. That is not to be confused with 
the operational construct of the mission of Operation Enduring 
Freedom which we see ongoing in Afghanistan today, and therein 
lies, sir, the issue with definition. I believe it is what our 
President had in mind when he said the mission is completed 
when the Commander in Chief says the mission is completed.
    Now, what that means is, if we take a look at the 
objectives that we had for this campaign from the day we 
started the destruction of the al Qaeda terrorist network 
inside Afghanistan, the destruction of this illegitimate 
government of the Taliban which was in place and harbored that 
network, sir, if you take only those two points, it is possible 
to determine the end state of the military operational mission 
inside Afghanistan.
    What does that involve? Well, we know that al Qaeda as an 
operating network, as I described it earlier, is not conducting 
operations within Afghanistan because the connectivity, the 
ability to plan and think inside Afghanistan has been taken 
away by the incredible work of the men and women who, sir, you 
described earlier, so that is where that is.
    So what remains to be done? Analysis of every piece of 
intelligence information with respect to where we may find 
potential weapons of mass destruction sites, where we have 
reason to believe that there may have been pursuit of such 
weapons. Senator, we have to go there with military forces to 
investigate these places, to gain intelligence information, to 
gain insight into the construct of the al Qaeda network.
    We have said more than 60 countries are influenced by this. 
What do those operations look like? We have benefitted by the 
exploitation of a great amount of information already taken 
from sensitive sites and potential weapons of mass destruction 
sites. We have not been through all of them in enough detail 
yet, and so, sir, this CINC will not tell my Secretary or our 
President we have reached the end of the military piece until 
we have been through all of them, until we have satisfied 
ourselves, sir.
    A second point. We will not reach a military operational 
end state in Afghanistan as long as there is any credible 
threat from puddles or pockets of al Qaeda or residual hardcore 
Taliban. Sir, those two issues relate to the operational 
construct that my forces see inside Afghanistan.
    The relationship between our forces in Operation Enduring 
Freedom and the international security assistance force 
currently operating under UN mandate inside Kabul is one that 
is designed to ensure that the operations of ISAF do not 
conflict with the operational considerations which I just 
described to you. The international security assistance force 
as it is set in Kabul has a liaison element from me, more than 
30 people. Every operation that we conduct, ISAF and Operation 
Enduring Freedom inside Afghanistan, is coordinated. When we 
reach the point where we have accomplished the objectives, 
Senator Warner, which I described, then I will go to the 
Secretary of Defense and say, Mr. Secretary, this is what we 
see, this is what we believe, and I believe it is okay for you 
to tell the President that the description he gave at Crawford, 
Texas, has been met.
    Senator Warner. Thank you, General. That is very helpful. 
My time is up.
    Chairman Levin. We expect a vote to start any minute, and 
again we hope to work through the vote. This is the order we 
have. Senator Landrieu, Senator Sessions, Senator Ben Nelson, 
and Senator Collins will be the next four.
    Senator Landrieu.
    Senator Landrieu. Thank you, Mr. Chairman, and thank you 
for calling this hearing. General Franks, let me take this 
opportunity to welcome you and to sincerely thank you for your 
outstanding commitment to all of the men and women in uniform 
that you so ably represent. Thank them for their extraordinary 
work and dedication, and tell them they have made us all very 
proud.
    I want also to commend you for the way you have conducted 
the humanitarian efforts which support our tactical efforts on 
the ground, because as you and I talked about earlier, before 
the hearing, those are equally critical to our long-term 
success as our military operations.
    Getting back to that statement in Crawford, Texas, before I 
get on to my questions, I think the President has put to you an 
extraordinary responsibility to help us determine when we have 
accomplished what we set out to do. Destroying the Taliban, 
destroying the immediate threat, is clearly something we can 
all agree to. The more difficult question becomes, how far 
should we go to minimize a threat that could be created by 
leaving an atmosphere where a similar regime could stand up?
    That is an extraordinarily difficult question, and I am 
confident that you and the men and women you serve with can 
provide us with good leadership, because we most certainly do 
not want to spend the time, the energy, the money, and the 
lives to leave the job undone and to cause there to be 
additional threats to our Nation, to innocent men and women 
here, or to our allies around the world, so I look forward to 
working with you in that regard.
    Let me ask if you could comment--and I know this will be a 
great joy for you to comment on--about the tremendous work that 
our special operations forces have done.
    It has been interesting, the sort of high tech/low tech 
dichotomy of how we have won this war, with some of the most 
extraordinary precision weapons and things that have come out 
of books that we could not even imagine used to win this war. 
But we have also seen our special forces riding on horses and 
donkeys, climbing into caves. Could you comment for our 
committee on the special work that our special operations 
forces have done, and share with us the three most important 
ways we can support them, strengthen them, and help them in the 
future?
    General Franks. Senator Landrieu, I would be pleased to do 
that. Let me make a quick comment about humanitarian 
assistance. I mentioned earlier the benefit which I think has 
accrued to the people of Afghanistan, and I mentioned the 
number of more than 26 million of them. As we started this 
operation, about 7 million people were believed to be at risk 
for loss of life as a result of conditions inside Afghanistan. 
What we find today is half a dozen airports opened, and we find 
the lines of communication opened from a variety of countries 
providing for the required amount of food to get into 
Afghanistan.
    Our specific operation resulted in these humanitarian daily 
rations which have been described and more than 2\1/2\ million 
of them brought in by air drop, 328,000 blankets delivered to 
people who needed them, 1,700 tons of wheat, hundreds and 
hundreds of sorties committed to this. Afghanistan remains a 
tough place.
    Just for a minute on our special forces, and special 
operations issues, one of the characteristics of this campaign 
was our linkage with opposition groups of Afghanistan. Many 
people have said we aligned ourselves with the Northern 
Alliance. In fact, it was opposition groups, some in the north 
and some in the south, and it was our special forces teams who 
linked with and worked with and assisted in training and 
provided logistics support to and leveraged operational fires 
during the course of this operation, hundreds of these men 
involved in activity, as you described it, some on horseback.
    The interesting point is that a great many of them on 
horseback were nonetheless equipped with some of the very best 
technology that our Nation has to offer, which gave them even 
though in small numbers the ability to work with these 
opposition groups in pursuit of objectives which were informed 
by our plan. With these people being in touch with us, 
incredibly brave people--I have spoken to a great many of them.
    I remember a medic I met one night in Mazar-e Sharif in 
October, a noncommissioned officer, and I asked him what had 
been his experience, and he described it to me like this. He 
said, ``well, when you are riding on horseback, and you have 
never ridden a horse before, on a mountain path with a few 
thousand feet above you on one side and a few thousand feet 
down on the other, it occurs to you to wonder whether your 
greatest preoccupation is with medicine or staying on the 
horse.'' I thought that was an appropriate comment.
    I said, ``well, what sorts of maladies have you treated?'' 
and he said, ``I have given a lot of aspirin, and I have also 
conducted some amputations.''
    That is a comment both to the professional excellence of 
these young people, as well as to their motivation. The 
activities that they have undertaken in Afghanistan are 
remarkable. They will be recorded in history, thought about, 
talked about for a long time into the future. They have 
included unconventional warfare activities and they have also 
included direct action operations, virtually nonstop since 19 
October.
    Senator Landrieu. My question is, in light of that, because 
they have played such a key role in our victories and our new 
strategies, and it is clear to us how successful they have 
been, what are the three things this committee or this 
administration could do to support their efforts to either give 
them more training, more equipment, more supplies, or change? 
Is there anything you can see already from lessons learned 
about the one or two things we could do for our special ops 
forces?
    General Franks. Ma'am, I think what we will find when we 
roll up the lessons of this is that the technologies with which 
we have equipped these special ops forces have been tremendous. 
I believe that everything from the science and technology work 
(S&T) that is included in this budget for 2003 to the 
procurement of some of the technologies that are used, that 
were used in Afghanistan by these people will pay us great 
dividends in the future.
    I think that in terms of structure considerations, whether 
we want more certain sorts of branches or services in our 
special forces will be the subject of analysis that will come 
out at the end of this. Some people have said we are not nearly 
large enough, and so we need to have more. I think we will all 
be in agreement with the value of special forces. I think what 
we will be careful of is to be sure that the standards for 
training--and this is a very long, very difficult training 
process, so these people are very highly qualified.
    We are going to want to retain that doctrine. We are going 
to want to retain that training, and to set some standards, but 
technologies as I have described it will be something that I 
think the lessons will bear out for us in the future, and we 
will also find some technologies that we want to apply to some 
of our air frames that we have identified high value in.
    Senator Landrieu. That leads me to my next question, and my 
time has almost expired, but giving the Members some time to 
come back, let me just ask my second question. That is about 
the unmanned aerial vehicles, the platforms you talked about. 
What is the next generation that you would perceive based on 
the lessons learned? Where can we be looking to the future? 
What is your vision for our unmanned aircraft?
    General Franks. Yes, ma'am. I think that the sense for over 
a year has been that unmanned aerial vehicles were of high 
interest to us. I think we have recognized that since before 
even we started operations in October last year. I think the 
first thing we will want to do, and I think it is reflected in 
the budget, is we are going to want procurement of some 
platforms and capability which we already know about, where we 
want to expand in terms of numbers.
    We also want to take some technologies which we have been 
able to identify which exist in part of our fleet and not in 
the other part of the fleet. We are going to want to increase 
the technologies, the technological capabilities on these 
platforms as we procure them. I think we are going to want to 
use S&T money over time to determine where we can move ahead to 
advanced technologies that we are not even quite sure of yet, 
but we are going to want to conduct that experimentation, and I 
believe that is reflected in this budget.
    Senator Landrieu. Thank you. My time has expired. Let me 
recognize Senator Inhofe next for questions.
    [The prepared statement of Senator Landrieu follows:]
             Prepared Statement by Senator Mary L. Landrieu
    Thank you Mr. Chairman:
    I would like to thank you for calling this hearing. I would also 
like to take this opportunity to welcome and thank General Franks for 
the outstanding commitment you and every uniformed man and woman 
assigned to Central Command, and across the globe, continue to bring to 
the war on terrorism.
    The prosecution of this war, under your watchful eye, is not only 
the first of its kind in the 21st century, but the first of its kind 
ever in the history of warfighting. No longer can we rely on the honor 
of sanctioned states fighting a war of symmetry. We now find ourselves 
thrust into a new era of rogue individuals and regimes who know no 
honor. They not only risk our lives, but the innocent lives of the men, 
women, and children in their own states.
    We have, from the beginning, fought a ``just'' war. We have fought 
with honor and special compassion for non-combatants. The women of 
Afghanistan can once again pursue their dreams of an education. The 
children can hold soccer games in the street and watch television 
without fear of reprisal or even death at the hands of the Taliban. I 
would like to commend the General for the humanitarian operations, 
which are just as critical to our long-term success and long-term 
security, as wiping out the asymmetric threats we face from within the 
states we aid.
    Now is the time to work together, unified in our determination to 
be ready. A ``ready'' fighting force is one which is ready physically--
with the proper clothing, weapons, and supplies. One which is ready 
mentally--to face brutal uncertainties and yet, deal compassionately 
with those who are innocents. One which is ready spiritually, for some, 
who should be given that opportunity whenever and wherever it is 
needed.
    Today's readiness definition is much more complex than the 
definition of a decade ago. The leaders responsible for maintaining it 
face even greater challenges than ever before. The end of the Cold War 
changed the security landscape for the foreseeable future.
    Today, we are not simply concerned about whether our forces are 
trained and equipped to respond to a major theater war, but rather our 
readiness for a wide range of small, and potentially destabilizing, 
local and regional conflicts.
    We must have a consensus about the nature and priority of threats 
the United States will most likely face and a consensus among military 
leaders about the steps that should be taken to counter them.
    I know that I speak in unison with my colleagues when I say that 
this committee and the American people remain extremely grateful to our 
men and women in uniform for their continued dedication and service and 
to leaders of the caliber of General Franks. Again, welcome General 
Franks, I have a couple of brief questions for you regarding the war on 
terrorism.

    Senator Inhofe. Thank you, Madam Chairman.
    First of all, I think you have quite a few members who got 
here a little late, General Franks, because of the prayer 
breakfast, which went off in a beautiful way, so it was very 
rewarding. I would say that our good Admiral did a great job, 
too.
    General Franks, because I was communicating with your 
office, I spent the last couple of weeks out in different 
places. I commented when we had our hearing a couple of days 
ago that back when Republicans were important I was the 
chairman of the Senate Armed Services Subcommittee on 
Readiness, and so I made a habit of getting out and really 
trying to see, at the level of where the troops are, what our 
readiness was. Of course we have gone through a real 
problematic time in every category, from modernization to 
quality of life to force structure.
    It is force structure that is of concern to me, because as 
the budget came down, as we told the Secretary, one of the two 
areas of weakness was force structure and the other was in 
military construction, because they were relatively flat in 
this budget. If you look at our force structure in terms of 
where we were in 1991 and where we are today as we start 
rebuilding up, we are really at about half the force strength 
that we were back during the Persian Gulf War in terms of Army 
divisions, tactical air wings, ships, and last week we were at 
a number of different installations: Ramstein, Aviano, Vicenza, 
Camp Darby. One thing that I noticed, and I would just love to 
make this a permanent thing, I have never seen such enthusiasm 
of our troops. I have never seen such commitment.
    I talked to a number of those who were injured in Lanstuhl. 
I know you have been over there, and two of them had gone down 
in a helicopter with the 101st. There was a heavy equipment 
accident in which Corporal Justin Ringle was severely injured.
    The one that touched me I guess more than anyone else was 
Latoya Stennis, ironically on U.S.S. Stennis, and she had been 
pulled overboard and fell 65, 70 feet, which would normally be 
to her death, and it did crush both of her lungs, but she sat 
there, a very small young lady. She said, I am just anxious to 
get back. Each one without exception, the ones I talked to in 
the hospital who had been injured, they all said they wanted a 
career, and a lot of them had not been that way before.
    Now, my concern is this, that we have, as I look at this 
map before us here, so many volatile areas. You have done just 
a miraculous job in Afghanistan, but I look at some other 
places where we could be all of a sudden having to deploy 
troops. I spent time at the 21st TACOM, or 21st TSC, I guess it 
is, that is responsible for the logistics, and certainly the 
commitment that they have in taking care of the Balkans, where 
I went up and looked there, too, is using that capacity.
    Now, if something should happen in the Persian Gulf, and as 
volatile as things are down there we have to consider that, it 
would be very difficult--in fact, I believe we would have to 
withdraw our troops from Bosnia and Kosovo to go through a 
retraining, and certainly severely limit what we would be doing 
in logistical support.
    We were told by a number of people in the field that if 
something like that happened we would be 100 percent dependent 
on Guard and Reserve. As you well know, right now our Guard and 
Reserve are in a critical situation. They are all dedicated, 
and they want to be there, but there are a lot of employers who 
just cannot handle that kind of deployment, and so we have a 
very high OPTEMPO of our regular services and all services over 
there. We have a crisis, certainly, with some MOSs in the Guard 
and Reserve, and I would like to have you address for just a 
minute the inadequacy or the adequacy of the number of troops 
on hand, and what we would do if another MTR should come 
forward, how we would handle it.
    It looks like I am the only one here, so we have all the 
time we want. You are used to that luxury. I am not.
    General Franks. Senator Inhofe, we could just have a long 
conversation here.
    Senator Inhofe. That is right.
    General Franks. I think both our technologies and our 
structure will be informed by the lessons of Afghanistan. I 
would not want to prejudge the specifics, as I mentioned to 
Senator Landrieu, of whether the structure, for example, of our 
special forces would grow or change in character. I think there 
is a double edged sword involved in it. I think were we not 
able to be informed by the lessons of Afghanistan, it may well 
be that we would have structured in a way that may have been 
inappropriate if we had increased the structure absent the 
information we have gained from Afghanistan. I think you are 
also correct that one size will not fit all, and certainly 
Afghanistan is one level of contingency and a major theater war 
is another.
    I think what we will try to do is take the lessons out of 
Afghanistan, take the ones that are enduring as they relate to 
capabilities we see in the future, and I think, sir, you will 
see in time adjustments to structure by MOS as will be 
warranted in order to do that.
    I agree with you on your comments, certainly, about the 
commitment and the selfless nature of these people, the ones in 
the hospital and also the ones on the ground, wherever it is 
that they may be, supporting combat search and rescue, or 
flying from aircraft carriers. They are incredible.
    I do identify with your point about the Guard and Reserve 
and employers, because I recall from previous service the need 
to talk to employers and not penalize people, our people who 
are coming on active duty, by putting them in a position where 
it was not good for them or their employer in terms of overall 
end strength and things like that.
    Senator Inhofe, I think I would leave that to the services 
to make their judgments on, but I do believe that the structure 
will be informed by some of the lessons we have taken out of 
Afghanistan.
    Senator Inhofe. When you talk about employers, there are 
employers who are just superpatriots and would like to do it, 
and we can talk to them, but also it is a competitive world out 
there and so there are some who just absolutely cannot do it. 
So the only choice then they have is to get out, and that is a 
sad thing. This has been a great concern to me.
    You mentioned Afghanistan. We do not know--I am sure that 
did affect the thoughts as we go forward with force structure 
changes and other things. We would not have had any idea 6 
months ago that we would be doing what we are doing. I can 
remember sitting at this very table in this very seat when the 
people were saying, well, we are no longer going to be needing 
ground troops, that is going to be a thing of the past. So it 
is a moving target, and we do not know here today but what 6 
months from now it might be a totally different type of 
conflict, and so we have to be ready for the totally 
unexpected, unfortunately.
    I am sure you are aware of it, even though it was thought 
to be more of a Navy and Marine Corps issue, that is the 
training on Vieques. It is really an all-services issue for a 
number of reasons. A couple of weeks ago I went out on the 
U.S.S. Wasp, the U.S.S. Mount Whitney, and the JFK, where they 
are doing training. Now, they were lucky enough to have inert 
training before the deployment. However, the Washington may not 
be that fortunate, and this is the concern I have, because you 
are receiving these trained troops over there.
    We want to be sure that they are trained to the ultimate, 
but I have to say this, as I went out and I talked to all of 
these elements that were training, they said three things. 
Number 1, you cannot do it all. It has to be unified in order 
to really train them to the degree to meet our expectations; 
number 2, that it is great that we have the training for the 
JFK, some of it was on Vieques where it could be unified, but 
it was inert; and number 3, it would have been better if we had 
been able to have live training.
    Do you have any thoughts about that, or any input on that 
issue? Keep one other thing in mind: if there is one thing that 
is more important than the level of training, it is the fact 
that if we allow this to happen, every range in the world is at 
risk, all of the ranges. With that in mind, what thoughts do 
you have?
    General Franks. Senator, the combatant commanders are 
blessed by receiving well-trained and equipped forces from the 
services, and as I would say to our great Navy, I would also 
say to the Army and to our Air Force that the things that 
provide for them and the things that support them in the 
training and the readiness levels for their formations I 
support, and all the unified commanders will support.
    The thing that I do not think the unified commanders are 
capable of doing honestly is trying to help them figure out--in 
the case of the Navy--whether it is Vieques or all of the other 
issues that have gone into that. We are blessed because the 
forces we have received in our theater up to this point have 
been well-trained, well-equipped, and extremely ready.
    I am very much aware of the issue that you brought forth, 
and I think we all have it as a concern. The solution, though, 
is not on the tip of my tongue.
    Senator Inhofe. It is a tough one. I talked to General 
Jones and he felt the level of training could be better if we 
had had that full, live opportunity as we have in the past.
    Lastly, and then my time will be up and Senator Nelson will 
be next, I just wanted to mention this. I have long, since 
1987, been one of the real advocates of the V-22 and that 
technology, using it not just for the Marines, not just for the 
Coast Guard, but for all the other applications.
    As you look at the effort that you have been running over 
in Afghanistan, if you had had that vehicle, how would that 
have affected you? What value would that have been to you?
    General Franks. Sir, I had a discussion with someone in the 
last few days about the V-22, and I am pleased, as a unified 
commander, to see the program move forward, but it made me 
think of exactly that question.
    The first place that we introduced our Marines into 
Afghanistan, you will recall, was forward operating base Rhino, 
much reported. Interestingly, the distance from the ships, the 
amphibious readiness group that was used for that, to forward 
operating base Rhino was 350 miles. In order for us to get in 
there just in this one particular case, some refueling was 
required in Pakistan, as a matter of fact.
    I started thinking about the 500-mile combat radius of the 
V-22, and I started thinking about the speed of it and its 
carrying capacity, and it became more clear to me, in the 
context of this operation in Afghanistan, whereas you know, we 
did not--Afghanistan is a land-locked country, yet we were 
doing a great deal of our work from the sea, and so that did 
occur to me, and I thought about that, and in this particular 
case that air frame or something like it would have been great 
for our operation.
    Senator Inhofe. Thank you very much, General Franks. Thank 
you for all you are doing over there.
    General Franks. Sir, thank you for your support and the 
visit.
    Senator Inhofe. Senator Nelson.
    Senator Ben Nelson. Thank you, Senator Inhofe.
    General Franks, on this 128th day of Operation Enduring 
Freedom, I would like to begin by thanking you for your 
efforts, and applaud your efforts, and the results of your 
command from the integrated joint and coalition missions. I 
would also congratulate you for your selection of forces and 
for your simultaneous supervision of Operations Southern Watch 
and Northern Watch and the deployed forces around the Horn of 
Africa, all well-executed with few casualties.
    You must be proud, as we are, of your marines, your 
sailors, your soldiers, and your airmen, and I simply want to 
thank you on behalf of the people of the State of Nebraska, and 
I know I speak for all Americans.
    I have a couple of questions regarding the mission in 
Afghanistan, the fiscal year 2003 defense budget, and a couple 
of members of the axis of evil that seem to be close under your 
command.
    First of all, with the objectives in Afghanistan to destroy 
the Taliban and al Qaeda, to be able to go through and analyze 
the materials and the information that is available and then 
eliminate the residual Taliban and al Qaeda operations, to what 
extent do you believe that we have destroyed the underground 
operating centers, or the tunnels and the caves we hear about 
in Afghanistan?
    Obviously, they have been struck on numerous occasions with 
heavy duty munitions, but are we certain that these facilities 
cannot be used again? Because if we are going to eliminate the 
residual areas, obviously, we have to degrade their capacity to 
be able to continue. That is my first question.
    General Franks. I think that it would not be accurate to 
say that each cave complex that exists in Afghanistan has been 
closed, because there literally are thousands of them. 
Interestingly, we even received some great assistance by the 
National Geologic Survey as we were determining which of these 
could support command and control of operations in size and 
depth and this sort of thing.
    In fact, Senator, as you said, hundreds of these complexes 
have been destroyed, some destroyed to the point where it was 
not worth our energy to go and completely dig them out. What 
was in there will remain in there for eternity.
    In a great many cases, we have reopened them and gone into 
them and then reclosed them, and so I will not even try to give 
you an answer that is directly objective in terms of no, there 
is no possibility. What we want to be sure of is that there is 
neither the capability of people to go back in them, nor the 
inclination of a state to support people who would go back in 
them such as al Qaeda did.
    Senator Ben Nelson. That would be one of the things that 
you would want to have accomplished before you told the 
Commander in Chief the mission is accomplished in Afghanistan?
    General Franks. Absolutely.
    Senator Ben Nelson. Then with respect to the 2003 Defense 
budget, I have reviewed a great deal of the budget and, of 
course, listened to General Myers yesterday say 60 percent of 
the weapons that were used were smart weapons, strategic 
weapons, and that the munitions are also in low supply, and we 
have to rebuild our supply. Are we going to be able to have 
enough conventional weapons to continue to do the kinds of 
things we need to do while we rebuild the smart munitions?
    General Franks. Senator, as best I can tell, we can do what 
we need to do. As you certainly know and as I think Dick Myers 
said, we expended something around 18,000 munitions in this and 
about 10,000 of those were precision munitions. Probably half 
of that 10,000 were these pieces of ordnance you described that 
we used also in cave closings, the JDAMs, and so I think there 
is a major effort being supported by this committee as well as 
the other body to move forward with procurement of additional 
munitions in the future.
    Whether we have enough to do anything we may ever have to 
do in the interim until all of that comes online, sir, I would 
not want to speculate, but we do still have substantial 
stockage levels.
    Senator Ben Nelson. Well, it is probably a question that if 
we were going to get into specifics, we had better raise it and 
answer it during the closed session, but for the benefit of the 
American people, we are not at that point where we cannot 
continue to do what we need to do.
    General Franks. That is right, Senator.
    Senator Ben Nelson. In terms of Iraq, do we think at the 
present time that it is a strategic threat to the United 
States? Obviously, there continue to be concerns that there are 
weapons of mass destruction being created and maintained there, 
and support, maybe, of some of the enemies that we are trying 
to rout out, but is it a strategic threat at the present time?
    General Franks. Sir, since the end of the Gulf War we have 
seen no evidence that Saddam Hussein was willing to undo his 
weapons of mass destruction program, so he had the interest and 
he continues to have the interest, and I believe, sir, were 
there no other reason to characterize Iraq as a strategic risk, 
I would do so on that basis. In my opinion this pursuit of 
weapons of mass destruction is a great threat to a great many 
nations on this planet, and so I would say yes, it does 
represent a strategic threat and, of course, remains on our 
list of states which sponsor terrorism, and I think I would 
probably leave it at that point, sir.
    Senator Ben Nelson. I believe my time is up. Thank you very 
much, General Franks, and continued good fortune in your 
endeavors. Thank you.
    The next Senator is Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    General Franks, congratulations on your leadership. I know 
you had some second-guessers there for a while, but you were a 
soldier's soldier. You developed a good plan that you believed 
would work, and you have been proven correct.
    We also need to celebrate and recognize the terrific 
courage displayed by our men and women in uniform who helped 
execute the plan that you developed, and we should not forget 
the loss of life, too, from my home State of Alabama, Michael 
Spann in the prison riot and Gunnery Sergeant Bryson in a 
helicopter crash.
    So we did lose some lives, but I have to tell you, I think 
at the beginning if it had been said that the loss would turn 
out to be as small as it is, people would not have believed it 
in light of what has happened. I think that is a tribute to you 
and to the strategies and tactics that you undertook.
    There are a couple of things that I have been concerned 
about. I will change the subject a little bit. I have been the 
ranking member on the Seapower Subcommittee, and you mentioned 
the demands that were placed on you with regard to bringing in 
supplies and munitions and transportation, and actually you 
requested, as I understood it, three carriers at the beginning.
    General Franks. That is correct, sir, and we now have them.
    Senator Sessions. The third was the Kitty Hawk.
    General Franks. Yes, sir, it was.
    Senator Sessions. That carrier, did it fulfill its 
responsibilities and requirements?
    General Franks. Yes, sir, it did.
    Senator Sessions. What use was made of the Kitty Hawk?
    General Franks. Sir, a general comment if I can, first. One 
of the great things about a naval carrier battle group is not 
only its fire power, which is there, to be sure, but also its 
staying power, and what we have seen in this campaign is both 
the fire power and the staying power of our Navy in the 
Northern Arabian Sea.
    The Kitty Hawk was used, sir, and I think, as has been 
well-advertised, as a forward operating base for special 
operations forces for a period of time. It was very effective 
in that role, and one wants to always consider the capabilities 
and the capacities of a carrier battle group.
    On the other hand, one always wants to think about the plug 
and play capabilities we have in our military, and during a 
given point in time, how can those be best used to accomplish 
the mission. I applaud not only the flexibility but the 
capability of the United States Navy to have been able to set 
conditions for the success of this campaign which, make no 
mistake about it, Senator, they certainly have done.
    Senator Sessions. Well, I think so, too. I visited the 
Kitty Hawk in Japan recently, and it is set for 
decommissioning, and it makes you wonder--it was in the region, 
it got there quickly and played a critical role, performed the 
mission completely, and it is painful for me to think that a 
ship with that much capability may not be with us much longer.
    General Franks. Sir, I understand the point, and I think 
that Admiral Vern Clark and the Secretary of the Navy are 
giving every possible consideration to the amounts of resources 
they want to commit to the readiness equation compared to the 
amount they want to commit to the modernization equation. Even 
though that really is not my business or my line of work, I do 
have great confidence that they will make the right decision 
about the Navy, and I think the decision they make will be 
supported by Secretary Rumsfeld.
    Senator Sessions. With regard to the prisoners that are at 
Guantanamo, it strikes me as quite plain that their conditions 
are superior to our troops in most areas in Afghanistan now, if 
not all of them. Is it not true that a lot of our troops are 
still not getting hot meals, and they have very temporary 
quarters at best?
    General Franks. Sir, that is true.
    Senator Sessions. Can you give us some of the hardships 
they are working under right now in the wintertime?
    General Franks. Sir, as we speak we have the forces I 
described earlier in 30, 40, 50 different areas in very small 
groups. They are essentially what I would have described years 
ago when I was first in Germany, they are living on the 
economy, so to speak. They are mobile, they are moving about 
from day to day, they are enduring environmental hardship, and 
they remain about as dedicated and motivated as any group of 
American military people I have ever seen.
    Senator Sessions. It is true, is it not, that they have to 
assume at any time they could be the target of some terrorist 
who may not have been captured?
    General Franks. Senator, that is exactly right.
    Senator Sessions. Well, we salute you, and each one of 
them, and I appreciate the service and contribution of all 
those men and women. We particularly are saddened by the loss 
of life that has occurred. I mentioned Gunnery Sergeant Steven 
Bryson. He was in the KC-130, and I know that in Guantanamo Bay 
there are people being held there who participated in the 
prison riot that resulted in the death of Michael Spann from 
Winfield, Alabama. It is just a personal thing to think that 
these matters are not all intellectual. Our people's lives are 
at stake.
    Thank you for your leadership.
    General Franks. Thank you.
    Chairman Levin. Thank you.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    General, I would join with my colleagues in paying my 
highest tribute to you for your leadership. As you say, all of 
the different elements came together. It has been an 
extraordinary success thus far.
    General Franks. Thank you, sir.
    Senator Dayton. I was one of a group that also went over 
last month to Afghanistan. In Uzbekistan, we were briefed by 
General Hackenbeck and at the special operations center in 
Bagram by General Harold. I was so impressed there with the 
quality and the professionalism of those men and their 
officers, and they described in detail as well, as you have 
described here today, the planning and the execution of that 
plan, and professionalism, and courage resolved in carrying it 
out.
    General Franks. Sir, they are wonderful.
    Senator Dayton. We had lunch at one place and dinner at 
another with some of the troops, and again I was just really 
impressed with how high their morale is. I want to qualify, 
Senator Sessions, that they are not getting hot meals, but they 
are getting warm meals, because the MREs can now, with modern 
technology, put it in a little warming pad there and it does 
not get hot, but it gets warm. Though I do know, with regret, 
that I did not see any Spam in any of those MREs, since that is 
produced in Austin, Minnesota. But some things must pass.
    General Franks. Sir, the CINC has no comment. [Laughter.]
    Senator Dayton. That was the response I got from the 
troops, too. [Laughter.]
    I think one of the most impressive aspects of this 
operation which you referred to earlier was the rapidity of our 
response. It is probably not exactly comparable, but as I 
recall the Operation Desert Storm build-up occurred over a 
period of 5 or 6 months before we engaged militarily, and you 
commenced the military engagement, as you said in your 
testimony, 7,000 miles away, only 26 days after the September 
11 attack. I think that is extraordinary.
    What are the key changes during that decade, or even not 
comparing it to Operation Desert Storm, what has enabled you to 
make that kind of rapid response?
    General Franks. Senator Dayton, I would just give two quick 
points. One, there is now a much different composition of 
force. I think 10 years ago what my predecessor had to grapple 
with was the same relative distance that we are working with, 
but he also had to grapple at that time with hundreds of 
thousands of people, whereas we have not had that footprint.
    Additionally, I think a great many lessons were taken from 
Operation Desert Storm, some of which had to do with 
positioning of assets, others with diplomatic efforts to build 
relationships in this region where one can coordinate some 
staging and basing and overflight opportunity.
    Sir, I guess the third point I would give would be the 
overwhelming international support of Operation Enduring 
Freedom. The world feels as though it was attacked on 11 
September, and any capital one goes to, at least the ones I 
have been to, that is very evident, and their willingness to 
support us has been and remains incredible.
    Senator Dayton. If you addressed this question when I was 
voting, I apologize for the redundancy, but in your full 
statement that is in the record you referred to some of these, 
again, very preliminary lessons that have been drawn from this 
experience, and you referred then to the very complex movement 
of troops and equipment and supplies and the like. I can attest 
to that, having tried to get into those two locations on C-
130s. It is amazing, at least the sophisticated movement of all 
of these factors.
    What are the choke points, particularly as they would 
relate to this committee's view of what needs to be 
replenished? What are we short of?
    General Franks. Sir, I think that the unified commands over 
the past years have talked on the need for strategic lift. Our 
lift capability is--I will leave others to describe all of the 
numbers associated with that, but one of the first things that 
a combatant commander will address is this business of how many 
tons can we move in a given period of time a long way away, and 
so I think, rather than creating a revelation, the experience 
in Afghanistan served as a reminder at least to me that we need 
to retain some focus on our strategic lift and our ability to 
move these forces around.
    I think we have taken a lesson out of Afghanistan. We have 
taken an awful lot of them, sir, that I will not waste the 
committee's time with, but we have learned the value of 
combined arms and joint training, having Army, Air Force, Navy 
people together. I mean, we have learned some lessons like that 
which have been of tremendous impact. We have learned lessons 
that have to do with the application of technology.
    As I have told many people before, my headquarters sat in 
Tampa, Florida, and commanded and controlled forces at work in 
the country of Afghanistan while we were moving international 
forces from more than 250 bases from around the world, from 30 
different countries. That was enabled by technology, by some 
foresight, some application of money over a period of time that 
set us up for success.
    I think we will take lessons from that and say, where are 
the places that we do not yet have enough? What technological 
lessons did we learn in command and control, for example, that 
we need to move forward with? I think those will be lessons 
that we will come out of this with.
    Senator Dayton. Thank you.
    There is always an intense media focus on the civilian and 
noncombatant casualties, which is necessary and is important. I 
think the 99-plus percent of missions that are carried out 
successfully without loss of noncombatant life do not get the 
same attention, and referencing some points some others have 
made, the relatively low loss of American men and women and 
casualties, given the scope of the operation, I think is 
commendable. Any loss is too much, but again, what are the key 
lessons we can draw from this experience? What are the factors 
in that?
    General Franks. Senator, I think I would join a great many 
people in saying any loss of innocent life is a shame. It is 
not something that anyone would be proud of, wearing the 
uniform on the ground, or as we sit here. I think at the same 
time, though, I would point out that the loss of thousands of 
lives--with a great many nations represented--in New York and 
Washington and Pennsylvania on 11 September set conditions 
where our Nation was ready to go to war, and war is terribly 
demanding. I think this committee recognizes that this decision 
was not taken lightly.
    My view is that this has been the most accurate war ever 
fought in this Nation's history. I believe that the precision 
of this effort has been incredible. When we have identified an 
error where we have put precision guided munitions in the wrong 
place, we have been very quick to say we did that, and, sir, we 
will continue to do that.
    The thing that I do not think we will do is be quick to 
rush to a judgment that takes as truth information that may be 
provided by sources who do not share the same value of human 
life that we share in this country, and sir, I have to leave it 
at that point. I am extremely proud of the professionalism and 
the performance of our people in this campaign. That does not 
say that mistakes have not been made. They surely have, and 
each time they have, we have worked hard to acknowledge it.
    Senator Dayton. My time is up, but I share your assessment, 
and I wanted to point out, as you said, I would agree that I 
think the degree of success and precision has been 
extraordinary, and also it is a fact of minimizing the loss of 
American life or casualties, too, so I salute you again.
    Thank you.
    Chairman Levin. Thank you, Senator Dayton.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    General Franks, let me begin by echoing the thanks of my 
colleagues for your outstanding service and leadership. We have 
had tremendous support from long-time allies like Turkey, as 
well as from newer friends such as Uzbekistan and Tajikistan in 
conducting the war against terrorism in Afghanistan.
    When I was in the region and met with Turkish officials, 
however, they expressed great concern about any expansion of 
our operations, particularly if we were to go into Iraq. They 
expressed concerns about what the impact would be on regional 
stability, on Turkey's economy, on a possible breakup of Iraq 
into a separate Kurdish state in the north. They were concerned 
about a flow of refugees similar to what Turkey experienced 
after the Gulf War. Could you comment on efforts that are being 
made as far as military leaders that you are discussing with in 
the region to maintain the strength of the coalition?
    General Franks. Yes, ma'am, I would be pleased to.
    One of the things I applaud is the fact that we have a 
magnificent Turkish officer on my staff in Tampa, and have had 
since the very beginning of this, along with, as I mentioned 
earlier, 26 other nations who have national representatives on 
our staff. The coordination that has made possible, to include, 
in fact, a lot of NATO countries, has been an enabler of this 
operation.
    I think that the focus of this coalition and the focus of 
this work is on Afghanistan. We have not had discussions, 
military-to-military, with other nations about Iraq or about 
any of the other countries in our region, so through my 
experience, I would say that whatever actions are deemed 
appropriate, there will be efforts if our operations expand, as 
they well may around the world, and not just in our area of 
responsibility. This will result in consultations by the 
leadership in our State Department and by our President with 
the people with whom they need to consult and discuss the 
concerns such as the ones you mentioned. That is really the 
best I can give you. We have had no military-to-military 
discussion of potential future operations in Iraq.
    Senator Collins. Have military leaders of Turkey and other 
countries in the coalition expressed concerns to you about 
expansion of military operations?
    General Franks. I would say, sort of. What we do is, and 
what we have done since we started Operation Enduring Freedom, 
is I meet with them every day at 9:00 in the morning and we 
will go around, and there will constantly be interest in any 
other planning that they may perceive is coming up, and they 
will ask a question. They will say, what do you have in your 
mind, General, about the next phase of the operation? We have 
very open and frank discussions about where we perceive 
problems, about what we believe potential solutions may be. So 
I cannot actually say that there is evidence of concern, but 
there is evidence of interest in each of the countries all of 
the time.
    Senator Collins. I want to turn now to a budget question. 
Earlier this week, General Myers in his testimony before this 
committee talked about the importance of operations in the 
information domain, and cited as an example the Navy and Air 
Force's intelligence surveillance and reconnaissance aircraft 
in guiding our special operations forces on ground strikes and 
for other purposes.
    With regard to this year's Defense budget, do you feel that 
our manned Navy and Air Force ISR platforms such as the P-3, 
the EP-3, and the RC-135 are funded sufficiently?
    General Franks. Ma'am, I am not dodging, but I simply do 
not know what the numbers look like in the submission for 2003, 
because I have not looked at the specific numbers for platforms 
like P-3 or RL, and so I really cannot give you a good answer.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    Senator Cleland.
    Senator Cleland. Thank you very much.
    General Franks, it is nice to see you again. We knew you 
when you were Third Army Commander in Atlanta, and you have a 
tremendous task on your hands, but you have acquitted yourself 
beautifully, you and all the people under your command, and we 
are all very proud of you. The country is united behind you, 
Congress is united behind you, and that has to give you a good 
feeling when you tackle the tremendous responsibilities you 
have.
    General Franks. Senator, thank you.
    Senator Cleland. Three issues: surveillance, intelligence, 
and reconnaissance. I have been discussing with the Secretary 
of the Air Force some ideas that he has put forward that maybe 
we can combine the JSTARS capability and the AWACS capability 
on one aircraft, maybe a 767.
    Currently, they are on two different aircraft, and knowing 
how much real-time battlefield intelligence means to commanders 
such as yourself, particularly in terms of targeting of 
precision weapons, is that something that might be useful to 
you in the experience you have had? That on one platform, say a 
Boeing 767, you have both the AWACS and the JSTARS capability 
there, over the battlefield, with long hang time, so to speak? 
Putting that together in one aircraft, would that be something 
that would be a plus in terms of your intelligence-gathering 
capabilities?
    General Franks. Senator Cleland, first, I certainly would 
not turn down anything. Any opportunity to use less fuel in 
order to accomplish the same mission, when in fact we have to 
bring the fuel, load the fuel, do the refueling, et cetera, is 
good, so my experience has been that the aggregation of 
technologies is generally useful.
    Now, that is my out-of-my-lane answer, sir. What I would 
say is that what we have, the results of AWACS and JSTARS in 
this particular operation in Afghanistan, have been terrific. 
What they have brought, despite the fact that they operate from 
two platforms, has been substantial, and I would say, certainly 
in the case of AWACS, we would have had a heck of a time 
accomplishing what our airmen have been able to accomplish 
without it.
    Senator Cleland. Now, can we move on to the use of 
precision weapons? General Clark, in discussing the Kosovo war, 
the Balkan war, said that this country had used precision 
weapons to a level hitherto unknown, and when I was in Aviano, 
Italy, about a year or so ago, it was made known to me that in 
the Gulf War in 1991 against Iraq a majority of our weapons 
were so-called dumb weapons, but by the time we got to the 
Balkan war a majority of the weapons were precision weapons. I 
gather here, in the war in Afghanistan, we have taken that even 
a step further.
    Your point about this being the most precise war we have 
ever fought in terms of attacking our targets, I gather we are 
still perfecting and continuing to escalate the use of 
precision weapons and fine-tune it.
    General Franks. Senator Cleland, one of the obvious 
characteristics of this campaign has been the accuracy that I 
described, 18,000 plus weapons having been delivered, 10,000 of 
those precision munitions, by far and away the greatest 
application of precision munitions in the history of our 
country at any point, at any place, at any time.
    I think someone told me the other day that in the Gulf War 
we averaged 10 aircraft per target. In this war we have 
averaged two targets per aircraft.
    Senator Cleland. That is quite amazing, and the use of 
special ops or special forces, Rangers, the special forces and 
Seals and other special operations forces, it does seem to me 
we have perfected in this war the use of those special 
operations forces to a very fine degree, and that has helped 
our precision, it has minimized our own casualties, and it has 
maximized the lethality of our attack. Is that your 
understanding?
    General Franks. Sir, that is my understanding. There is 
great advantage to precision-guided munitions in any context. 
One sees a factored or a geometric growth in the effectiveness, 
even of precision-guided munitions, when there are people on 
the ground physically in contact with the target, able to see a 
target. We have seen that, and I believe that is one of the 
characteristics of this particular campaign of which our Nation 
should be very proud. It is the bravery of the people on the 
ground and the competency of our technologies mated with one 
another to great effect.
    Senator Cleland. I had the pleasure of visiting with a 
couple or three special forces servicemen who had been right 
there on the ground, and so close to a 2,000-pound bomb that 
they themselves suffered some injuries. They were that close to 
the target, that engaged, and I think that is something we 
cannot forget, that young men and women are still putting their 
lives on the line for the rest of us.
    Thank you, General, for your service.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Cleland.
    Senator Bunning.
    Senator Bunning. Thank you, Mr. Chairman.
    I would like to also add my congratulations to General 
Franks for his unbelievable accomplishments in Afghanistan. I 
do have some questions that I hope that he does not take wrong, 
but if, in fact, our mission was to seek out and destroy the 
Taliban and al Qaeda, and to help free the Afghani people from 
the totalitarian government that was there, maybe you can help 
me out. Why were so many people able to flee Afghanistan that 
were al Qaeda and/or Taliban?
    I see in today's paper, The Washington Times, that we 
actually only have 324 people in custody in Afghanistan and 158 
at Guantanamo. That adds up to approximately 500 people.
    Now, I know there were an awful lot of people that were 
Taliban fighters. Do you have any idea of the percentage that 
were al Qaeda that you were in the process of attacking?
    General Franks. Sir, I do not know. I am not sure what the 
al Qaeda percentage of the Taliban was. I think you have asked 
a valid question. With a mission of the destruction of the al 
Qaeda network, the al Qaeda network inside Afghanistan, and an 
illegitimate government harboring them, with those as 
objectives, one will quickly say, well, this goes to the 
personality level of the people. I think the approach that has 
been taken, the destruction of the networks, has necessarily 
killed some, detained some, and fractured these organizations, 
and a lot of them have moved, as we say, into the hills, or are 
puddling in places inside Afghanistan, and some, as I have said 
before, have certainly left Afghanistan.
    So, sir, the description that I would give is, people who 
are anxious to not be caught, they are on the run. They are 
working hard to get away and are considering only one border, 
the border between Afghanistan and Pakistan, which is about 
1,500 miles long. At one point in time President Musharraf of 
Pakistan had about 100,000 people on that border in areas 
familiar to them providing assistance and, in fact, have 
delivered more than 100 of the people that they have detained 
coming across the border, have rendered them to us. So, sir, I 
think that is probably the best answer I can give you.
    Senator Bunning. Well, today's headline in The Washington 
Times on the CIA Director's report to the Intelligence 
Committee yesterday tells us a different story, tells us that 
most of the people have escaped through Iran into Iraq, and 
that they are regrouping and preparing to launch additional 
attacks on the United States, or what other place they choose 
to attack.
    The Secretary was here 2 days ago asking this committee to 
approve a budget of over $1 billion a day.
    General Franks. Yes, sir.
    Senator Bunning. $1 billion a day. That is $370-some 
billion. Are you telling us that we cannot do a better job of 
finding out who escaped, where they escaped to? I think you 
have done an unbelievable job in Afghanistan, as far as the 
replacement of an illegitimate government with a temporary one, 
and I think the Afghani people are legitimately pleased that 
that has happened. But I am not pleased, and I do not think any 
Americans are pleased, that we have not done a better job on al 
Qaeda, the terrorist group that attacked the World Trade Center 
and planned it, and did those things, so I think we are half-
way there.
    General Franks. Sir, I agree with you. I think we are half-
way there, and I think the characteristic of what we will see 
in the future will be the continuing relationship between 
Defense forces and those of George Tenet as all of us continue 
to work to finish the 50 percent that you describe, and so I 
would not argue with you a bit.
    Senator Bunning. Here is my real hangup, though. It looks 
like we are going to have to go it alone if we go into Iraq. I 
mean, there are unbelievable things in the newspaper today that 
really bother me. The average American is bothered by this.
    General Franks. I must confess, there are things in the 
media every day which bother me. [Laughter.]
    Senator Bunning. That goes without saying. I do not believe 
anything I read, and very few things that I am told about 
personally, but the fact of the matter is, we have had a 
coalition in Afghanistan. If, in fact, the brains and brawn of 
the al Qaeda concentrate their efforts, and we know they do 
this in Iraq, are we ready to do what we have to do?
    General Franks. Sir, I would leave that decision, 
certainly, with our Commander in Chief. I think that it 
behooves all of us to put ourselves in a position to answer the 
call of America if the decisions are made. I have been very 
confident in that leadership up to this point, certainly with 
Afghanistan, and sir, I guess I really would not speculate 
about what the future might hold.
    Senator Bunning. Well, I am not speculating, but if, in 
fact, we are in a war against terrorists, and the terrorists 
happen to be in a certain country preparing other attacks, then 
I would think that we would definitely take some action against 
that country.
    General Franks. Sir, I would agree with that, and I think 
we have been pretty clear about saying any time, any place. The 
fact is that this is a global war on terrorism. Our efforts in 
Afghanistan have represented the first part of it. It is going 
to take a long time.
    Senator Bunning, as I think Director George Tenet probably 
mentioned to the committee, there are more than 60 places 
around the world where we see the evidence of al Qaeda. I think 
he also mentioned, and I am not sure precisely the number, that 
perhaps 1,000 people from this organization have been arrested 
since 11 September. I can tell you that within my particular 
area of responsibility there have been something more than 500 
arrests since 11 September outside of Afghanistan, and not 
counting the ones we described before, because of the 
willingness of the nations of this world to reach out and 
continue to pursue these people until, in fact, we can reduce 
the threat to our own country and to theirs.
    But I will say that I do agree with Director Tenet when he 
said, this is dangerous. These people are committed. There are 
still a great many of them, and we have an awful lot of work to 
do.
    Senator Bunning. Well, if we are going to sell the budget, 
we had better sell the fact that we have still not finished the 
job.
    General Franks. Sir, we are going to do our part.
    Senator Bunning. Thank you.
    Chairman Levin. Thank you.
    Senator Carnahan.
    Senator Carnahan. Thank you, Mr. Chairman.
    General Franks, you have certainly distinguished yourself 
as an innovative tactician and an exceptional leader, and we 
commend you for that.
    Last month, I was standing in Bagram Air Force Base with a 
young soldier, and his comment to me was, we know why we are 
here, and we want to stay until we get the job done. So I think 
that level of morale certainly reveals the leadership that 
these young people are receiving.
    I understand that short-range fighters cannot easily reach 
deep inland into targets in Eastern, Central, or Southeastern 
Asia as well as Eastern Africa, so in the future, do you think 
that the American forces may grow increasingly reliant on, say, 
Navy fighter jets or long-range bombers? Would you describe the 
role that you think the long-range bombers and the fighter jets 
have played in the war in Afghanistan?
    General Franks. Ma'am, that is a good question. I took a 
look this morning to see where we were in what we call the 
sortie count, the number of flights that we do from bases and 
from naval assets and so forth, and the snapshot that I got 
from that was about 20,000 sorties, about half of those from 
carrier-based assets, some very long-range activity. We had 
global power involved in this, which we were flying from 
Whiteman Air Force Base here in the United States. These very 
long missions were performed by pilots who were willing to do 
an awful lot to go a long ways, an absolutely monumental 
performance by their effort.
    We also had some short-range assets operating over extended 
ranges, for example, an F-15 pilot who flew a 15-hour mission. 
We had the longest reconnaissance flight flown in our Nation's 
history, 26 hours, and those were by Air Force assets. We also 
had these being flown from the carrier decks at the same time, 
and so in my own mind I do not have a vision of precisely what 
that mix should be.
    I will say that I do see a need to continue in the future a 
balance of that mix because of the complementary capability 
that these airframes bring.
    Senator Carnahan. One other question. Certainly, the tempo 
of their operation has slowed down now, and much of what is 
left now is on the ground by our special forces, and these 
soldiers are having to rout out the enemy in villages and forts 
and caves. Can you describe the action of our special forces 
troops at this stage of the conflict, and what you think will 
be in weeks and months ahead.
    General Franks. Our special operations forces are engaged 
in many activities. One is to provide assistance and training 
to Afghan forces. We had been providing assistance, advice, 
training, and another of the jobs they perform over there is 
what we call assault, or direct action. We have capabilities to 
move our people around over there in the air and on the ground. 
We have very highly trained and capable special operating 
forces as of this morning, from eight different countries, 
inside Afghanistan. They are conducting strategic 
reconnaissance missions today.
    They may well conduct direct action missions within the 
next 24 hours. It is continuing activity, and that activity 
will continue until we have satisfied ourselves that there are 
not any more of the pockets that Senator Bunning mentioned a 
moment ago. We are going to run them all down, and that is what 
our special operators are doing now.
    Senator Carnahan. Thank you very much.
    Chairman Levin. Thank you, Senator Carnahan.
    Senator Roberts.
    Senator Roberts. Thank you, Mr. Chairman.
    Mr. Chairman, it was about 3 or 4 years ago that Senator 
Inouye, Senator Stevens, myself, and others were in South Korea 
meeting with a certain general who was the CG of the U.S. 
forces in Korea. We were going to North Korea with the first 
delegation allowed into North Korea, and we saw this tall drink 
of water from Oklahoma State with stars on his shoulders, and 
after the common sense briefing and our experience there, we 
knew that there were probably some greater things and greater 
missions to come for this man.
    I just want to say, General, you have really exceeded our 
expectations, not that they were not real high to begin with, 
and in terms of this Senator's confidence in you, I am going to 
stand behind you when you take the bows, and you are taking the 
bows now, and I will stand beside you when you take the boos, 
and I do not expect any.
    By the way, I would report to you that Eddie Sutton has a 
pretty good team at Oklahoma State. Not good enough to beat 
Kansas, but a pretty good team. [Laughter.]
    No objection there?
    General Franks. No objection. [Laughter.]
    Senator Roberts. On page 7 in your statement you indicated 
the mission has determined the coalition, the coalition has not 
determined the mission, and Senator Warner talked about that 
some. We are going to take into consideration the further 
enlargement of NATO. The specific countries to be added, all 
deserving, are still unknown, but I am going to ask you three 
questions and then see if I can get a response from you, 
because I am worried about NATO. I am worried about the 
strategic concept that was adopted 2 years ago this spring. I 
also worry about NATO in regards to Article 9 and their role in 
something which I think transcends most of this concept, and 
something they should be involved in, and one concern is from a 
combat capability perspective. What would be the impact on the 
war if we were to fight side by side with allies with 
significantly less technologically advanced weapons systems? I 
think we all know the answer to that.
    Additionally, what would be the impact on your efforts if 
the targeting was controlled or dictated from NATO 
headquarters, as it was with General Wes Clark? My concern is 
that we are going to enlarge NATO with nations with very 
limited military capability and exacerbate the capability that 
we all know exists.
    Now, Senator Lugar went over and talked to the folks there. 
You cannot find a stronger supporter than Senator Lugar for 
NATO. He said, what would happen if in fact al Qaeda had 
attacked the Brandenburg Gates, the Eiffel Tower, or God 
forbid, Big Ben in London, and what we would do, as a member of 
NATO, under Article 9, one for all, all for one?
    Now, NATO's strategic concept involves everything from 
ethnic cleansing and the environment to crime and drugs. I 
maintain that if every Senator knew what we were involved with 
in terms of obligations, I am not so sure they would have 
bought into that.
    So with your statement again on page 7, the mission 
determines the coalition, the coalition does not determine the 
mission, I remember when the Apache helicopters could not even 
land in a particular area because the French had a fuel dump in 
that area, and President Clinton had to call President Chirac 
to say, move the fuel dump so we can land Apache helicopters. 
That was a hell of a way to run a war, and so I am a little 
worried about the future of NATO and if they do not accept, 
they meaning all of the nations involved, this mission in 
regards to international terrorism as best we can, where are we 
headed here?
    General Franks. Senator Roberts, you know me, I am not 
going to say too much about NATO. What I will say is that we 
have a great many NATO nations operating with us in the 
Operation Enduring Freedom Task Force.
    Senator Roberts. So it is a coalition of the willing?
    General Franks. It is a coalition of the willing, and in 
that context, which is something I do know about and I can talk 
to, their contributions have been very powerful, they have been 
sustained. They certainly have been willing to do this, and so 
what I see of the nations represented down in Tampa is a very 
positive contribution.
    Now, technological variances, technological differences, 
the fact that our Armed Forces are well advanced beyond the 
capabilities brought by these nations, of course that is a 
consideration. Sir, you know this because you have seen it 
before, what happens to us is, ``plug and play'' these assets. 
We determine the work to be done, we take the very best asset 
available to do that, and since we are dealing with willing 
nations, they provide the asset we need, and we have had great 
success in doing that.
    In terms of command and control and this notion of the 
mission determining the coalition rather than the other way 
around, sir, I must tell you that since 11 September the 
willingness of nations to work side-by-side to go after 
terrorism is incredible, and so I am not sure what may have 
happened in a standing coalition arrangement like NATO, given 
the circumstances that you mentioned. But the point that I 
think we wanted to make, and the reason that we have used the 
term repeatedly, ``a coalition of the willing,'' a flexible 
coalition, and we talked about the mission determining the 
coalition, is to alert everyone, as the President has said, if 
you are in this, you are in this, if you are not, you are not. 
So we are not going to have negotiations of missions, and we 
are not going to negotiate the next target, the means of attack 
and so forth.
    As I said when we first started, Senator Roberts, we have 
about 50 nations, more than 50 nations involved in this now, 27 
of them with us in Tampa, and that is growing today, not 
shrinking.
    Senator Roberts. My time has expired. I just want to toss 
in one more. Do you have any concern that you are based out of 
Tampa? Every time I would hear a quote from you I would always 
think you were in theater. I guess you are in theater, except 
you are 7,000 miles away. That is unprecedented. It is amazing. 
Not amazing, but it shows you our capability.
    I heard some instant expert on TV last night, somebody way 
below your rank and that is retired, say that you should be in 
theater as opposed to being in Tampa. Any comment?
    General Franks. Sir, I welcome a chance to talk about that. 
I think 10 years ago--I think what our Nation's military wants 
and what we need is flexibility, and we need to be able to do 
what the mission, what the numbers of troops involved and our 
capabilities and situations direct. 10 years ago we did not 
have the capability to do that. Now we have the capability to 
track in real time the situation on the battlefield and, in 
fact, having brought our assets into this theater from 267 air 
bases and seaports in 30 countries, we have had situational 
awareness of this, as you said, Senator Roberts, which is 
unprecedented.
    I think the lesson we want to draw from this is not the 
lesson that we want to have offset command and control away 
from a theater for every subsequent operation, and so I do not 
totally disagree with those who say you want to be in the 
center of the campaign. I think what we want to do is look at 
the mission: we want to look at the enemy we are going to 
fight, the troops available, the terrain, and one thing that I 
would encourage everyone to remember is the time available in 
which to do the operation.
    The amount of time that is necessary to move a large, 
unified headquarters in some cases will fly in the face of a 
decision that says, let us just move it there, and so I do not 
think one size fits all. I think what we want is the ability to 
either be remote, or offset, or to be present in-theater. In 
this case, the judgment was we were best served to use the 
technologies this committee and our Nation has provided our 
military. I think they were used effectively, and the 
situational awareness, as well as I believe the touch with 
people on the ground has been very good in this effort.
    Senator Roberts. That also deals with access denial. Your 
point is well-taken.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    Senator Nelson.
    Senator Bill Nelson. Mr. Chairman, I want to follow up on 
that. I have had the privilege of visiting the headquarters 
twice, and I am amazed that you all have utilized the 
technology so well, so that everything is real-time from 
thousands of miles away. I think it is symbolic of this whole 
new kind of effort that the Secretary of Defense has come here 
and has spoken to us in saying that what is illustrative of 
this new kind of war is a special operations troop on horseback 
with the Northern Alliance calling in to pinpoint air strikes, 
and because of technology, and because of the space program, 
and because of the instant communication, you have been able to 
prosecute the war from there.
    Just to follow up Senator Roberts, General Schwartzkopf 
commanded 10 years before you. I would be curious as to the 
considerable ease that you have in directing the war compared 
to General Schwartzkopf from McGill Air Force Base in Tampa 10 
years before.
    General Franks. Sir, it does go to technology. It has to do 
with the doctrine that we use to structure the Armed Forces 
which have participated in this effort. We do not talk much 
about that, but there have been evolutions in our view over the 
past 10 years. There have been evolutions in our ability to 
train leaders and decisionmakers and staff people over the past 
10 years.
    When that is coupled with the ability to 
videoteleconference, which, Senator, as you have seen with 
literally all of the leaders involved in this, whether they may 
be at one of a half-dozen locations in Afghanistan or on a ship 
at sea, wherever they may be, bringing frontline states the 
ability to do that 24 hours a day has enabled us to do, or the 
leaders at all levels to do what we have talked about for 
years, and that is to be able to see the eye and to gain a 
sense of the appreciation of a particular campaign, a plan, a 
battlefield from a long ways away. It is not perfect, to be 
sure, but far, far beyond what I think we would be seeing had 
we looked at it 10 years ago.
    Senator Bill Nelson. Mr. Chairman, I was also struck, the 
last time I visited there, by the representatives of so many of 
these nations that have now joined us in the coalition who are 
directly represented there by military personnel at the CENTCOM 
headquarters. It was my privilege, with Senator Lieberman, to 
visit with them and to speak to them, and that is an 
interesting concept for a military headquarters, that you bring 
in all of your partners in their military to join with you.
    General Franks. Sir, it has been a great blessing in this 
effort. As I mentioned to Senator Roberts, the ability to 
coordinate these activities without a loss of a lot of fidelity 
across the nations doing all the hard work has been incredible. 
It is beyond any of my experience in more than 35 years.
    Senator Bill Nelson. Mr. Chairman, I have a number of 
questions if we are going into closed session, particularly 
with regard to some of the screening that is going on with the 
detainees, and I will defer until we are in closed session.
    Chairman Levin. That is fine. I will be, though, asking a 
question about that in open session, after we are done with 
Senator Akaka. I do not know if that changes your plan or not.
    Senator Bill Nelson. I will defer to the wisdom of my 
chairman's question.
    Chairman Levin. The question I have in mind is one that I 
think can and should be answered in open session, but since you 
raise that issue I wanted to alert you.
    Senator Bill Nelson. You sent me in a delegation from this 
committee down to Guantanamo as the first to visit, and my 
concern was not about the humanitarian treatment, because that 
was quickly apparent, that they were getting treated as well as 
our marines, but I did have a concern, which I expressed in 
this committee several days ago to the Secretary of Defense, 
about whether or not we are getting the information from those 
detainees, and so whatever is your pleasure.
    Chairman Levin. My question is a different question from 
that. Thank you very much.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
join my colleagues, General Franks, to express my gratitude for 
a job well done in Afghanistan. While no command is easy, the 
Central Command has had its share of challenges in recent 
years. I want you to know that I am comforted to know that our 
soldiers, sailors, airmen, and marines are in your capable 
command.
    General Franks. Thank you.
    Senator Akaka. General, one area of concern I have revolves 
around recent reports of military missions involving the 
capture and death of civilians who could be or have been 
determined not to be associated with terrorist organizations. 
According to articles in this morning's edition of The 
Washington Post and The New York Times, the incident involving 
the release of 27 individuals who have been determined not to 
be connected to either the Taliban or al Qaeda is under 
investigation. So my question is, what steps, if any, are being 
taken to ensure that innocent civilians are protected as we 
continue Operation Enduring Freedom?
    General Franks. Senator, that is a good question, and I am 
pleased to answer it. I think from each experience like this we 
learn lessons. Some of the lessons will come out when we have 
completed our investigation of this, as this has been described 
I think even by Chairman Karzai in the last few days. 
Afghanistan remains Afghanistan, and there is in fact a great 
deal of intrigue within this country, and there are pools and 
puddles and pockets of resistance in places within the country. 
In some cases there are Afghan forces who are close to or in 
these pockets. We may on a given day know or not know the 
locations of these people.
    What I want to do is see the results of the investigation, 
which I think we will have in 2 weeks time, and then we will 
adjust as we need to adjust in the event that we determine that 
mistakes were made.
    The one point that I would make, sir, is that I read the 
report you mentioned, and I would make only one correction for 
the committee, and that is the 27 you mentioned were not, in 
fact, released. The 27 were turned over to Afghan authorities. 
Again to be borne out during the course of the investigation, 
but I believe that among that number there were some criminals 
which were being sought by Afghan authorities. So as I said, 
there is a bit of intrigue in this, and there is enough 
information that led me to want this fully and factually 
investigated, and so as you would expect, sir, we will do that 
in due course, and then we will take the action that we need to 
take.
    Senator Akaka. I also want to commend you on what you just 
said, and your method of proceeding as you meet these 
intriguing problems, and you have done a good job in doing 
this, and I hope you will continue to do that. I happen to 
chair the Readiness Subcommittee here, and so with respect to 
readiness, do you feel that the fiscal year 2003 budget that 
was presented by Secretary of Defense Rumsfeld is adequate to 
support CENTCOM with respect to Operation Enduring Freedom?
    General Franks. Senator, I do. I have reviewed--and as I 
mentioned earlier, I have not reviewed in micro detail the 
insides of each of the service sorts of issues--but in terms of 
the Central Command and our ability to conduct our operations 
within our regions, sir, I agree and applaud the submission.
    Senator Akaka. Thank you very much, General.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Akaka. I have just one 
additional question for the open session. If anybody else has 
one question, perhaps we could do it that way.
    General Franks, you and I have spoken about the issue which 
I am going to ask you about here, and that is the question of 
the status of the Taliban detainees under the Geneva 
Conventions. Here I am referring to the ones that you have 
control over, because Guantanamo is not in your jurisdiction, 
but these 300 or 400 people are, and one of the important 
considerations in any decision as to their status as to whether 
they are prisoners of war or not is the precedent that would be 
set and its impact on our people who might be captured. That is 
our concern. We want our personnel who are captured, whether or 
not they are in uniform, to be treated pursuant to 
international law, and to be treated properly.
    The regulation, which is titled, ``Enemy Prisoners of War, 
Retained Personnel, Civilian Internees, and Other Detainees,'' 
requires that if there is any doubt--and that is the word of 
the regulation--as to whether or not a person, having committed 
a belligerent act and been taken into custody by U.S. Armed 
Forces, belongs to any of the categories enumerated in the 
Geneva Convention Relative to the Treatment of Prisoners of 
War, then a three-person tribunal needs to determine their 
status.
    Now, the tribunal that I am referring to here is not the 
military tribunal which is under consideration for trials of 
persons that might be charged for international war crimes. 
That is a different tribunal. The tribunal I am referring to 
here is the one we provide for in our own regulations for 
situations where people are detained and where there is a doubt 
about their status, which is apparently the case with at least 
the Taliban detainees.
    Has such a tribunal been convened in the case of any of 
these detainees, or has the decision been made to hold these 
tribunals according to our regulations?
    General Franks. Mr. Chairman, I think that is a valid 
question and, as you said, we discussed it yesterday. No 
tribunals have been conducted up to this point either in 
Guantanamo or inside Afghanistan, and in my personal view for a 
very good reason.
    That is not to say they will not be conducted, but they 
have not been. The reason is that this is based on, or will be 
based on, a determination of categories of what is to be a 
prisoner of war as opposed to what is to be an unlawful 
combatant. Careful review and study by the councils within our 
own country and within our own government so that we have 
precise definition in policy terms of this, so that if we have 
the tribunal that you mentioned, a decision to do so will be in 
accordance with our laws, and our guidance.
    So rather than having anyone try to prejudge the 
categorization, it is the intrigue of the Taliban as an 
illegitimate government and al Qaeda as a terrorist network, 
and rather than any prejudgment of that, I think the policy 
determination to date is that we will treat these detainees in 
a way consistent with our obligations and sir, that is the 
status as we speak.
    Chairman Levin. The language of the regulation says, if any 
doubt arises as to whether a person is in one category or 
another, then the tribunal is, by our regulation, to be 
appointed to make that status determination. I think we have to 
realize that this is not a prejudgment issue, this is a 
question as to who should make the judgment where there is a 
doubt, and I just hope that being a country of laws and very 
importantly wanting other countries to treat our people 
according to international law, that we will proceed with 
dispatch and with care under our own regulations.
    General Franks. Mr. Chairman, we certainly will.
    Chairman Levin. I happen to agree with those who say the 
issue here is not whether we are humanely treating the 
detainees, because I am convinced we are. We have had people go 
down to Guantanamo, and that is clearly not the issue. As 
people pointed out, they are being treated a lot better than 
our own soldiers. They have better food, frequently, than our 
people over in Afghanistan who are fighting, for instance, and 
so my concern is the capture of our people by others and the 
precedent that we want to set, that we should be very conscious 
of it, as I know you are.
    General Franks. Mr. Chairman, we will do it correctly.
    Chairman Levin. Senator Warner.
    Senator Warner. Mr. Chairman, I received a number of calls 
from active and retired servicemen about the concerns of future 
operations where our servicemembers may be incarcerated. We can 
get tangled up in too many of these regulations, how the world 
perceives we have treated the detainees is important. I think 
under the circumstances the Secretary of Defense has done the 
best he can, and I think he would be the first to admit that 
some of the early pictures did not accurately convey the 
attitude this country was taking towards those people.
    To close out with two questions regarding two nations. 
Saudi Arabia has been an integral part of our deterrence and 
base structure in the sense of the Prince Sultan Air Base and 
its integral role. Beginning with the Gulf War in 1991, 
throughout this conflict, and in the intervening years, they 
have been a valued ally in enabling the United States, together 
with other nations, to provide stability in that region.
    How do you foresee the continued relationships with regard 
to security between the United States and Saudi Arabia?
    General Franks. Senator Warner, thank you for the question.
    I remember some of the media commentary and some of the 
questioning from a week or 10 days ago, perhaps a bit longer, 
about whether in fact the Saudis had asked us to remove our 
assets. I said at that time, and sir, I will say again today, 
that if that has happened that certainly has not happened 
within the frame of my knowledge, and it is my forces which are 
located in Saudi Arabia. I am not sure what the future will 
hold, but I am sure that whatever decisions are taken with 
regard to the placement of my forces, our forces, will be done 
in consultation with the government of Saudi Arabia.
    I think the ongoing dialogue, which recognizes the 
contributions the Saudis have made to this effort and to 
efforts that go back in history, must be maintained. We need to 
recognize what has been done. That should not prejudge whether 
or not we may adjust forces, but what I do believe is that if 
we should choose to adjust forces, it will be done in 
consultation with the government of Saudi Arabia.
    Senator Warner. I do not doubt that, and we have resolved 
that somewhat unfortunate situation.
    With regards to the female officers and enlisted personnel, 
we have overcome that. I think the Saudis have played an 
integral role and, as I look at the region, they have a very 
large border on Yemen which is figuring more and more in our 
future plans with regard to deterring terrorism. Is that not a 
critical role?
    General Franks. That is true, yes, sir.
    Senator Warner. They have been very helpful in that.
    Shifting then to Iran, in the beginning of this operation 
we received reports here in the committee--indeed, many of them 
were expressed in the open press--that they had a role in 
facilitating the operation in the sense that the U.S. and 
allied nations could first transit food and other supplies, and 
second there was some overture to the effect that if you have 
to go in and perform a rescue operation, perhaps some 
assistance could be given in that venue.
    However, in the ensuing weeks and months now, our President 
has sounded a warning. Has that relationship lessened with 
regard to their assistance? As I mentioned earlier today, I 
cannot establish the veracity of that at this point in time, 
but nevertheless, it is reported responsibly in the press here 
as far as I can determine. Has there been a lessening of their 
assistance role?
    General Franks. Sir, I would not want to oversell the 
assistance offered.
    Senator Warner. But it was offered at one time?
    General Franks. It was offered at one time. I will support 
the comment that Director Tenet made where he said there are 
reasons for us to be concerned about activities that go on 
inside Iran with respect to our efforts in Afghanistan even, 
and so we are very simply watchful, and we heard what our 
President said.
    Senator Warner. As did I. I just was puzzled. Have you had 
an opportunity to read this particular article?
    General Franks. Sir, which one is that?
    Senator Warner. This is today's Washington Post, Thursday, 
February 7, in which they say, ``Iran has begun funneling money 
and weapons to one of Afghanistan's most unpredictable 
warlords, a move that could further destabilize a country where 
order remains fragile at best, according to Government 
authorities here in the Afghan capital.''
    Dostrum, the man who rules the strategic northern city of 
Mazar-e Sharif, has been provided cars, trucks, firearms, 
ammunition, cash for his soldiers, two senior intelligence 
officials in Afghanistan's interim central government, things 
of this nature.
    General Franks. Senator Warner, as a matter of fact, I did 
read that, and I cannot comment as to the veracity of that 
particular piece, but I do know from my experience in 
Afghanistan that Afghanistan is faced with, among others, two 
direct problems.
    One is the frictions that exist between the various 
ethnicities, tribes, and so forth inside Afghanistan; and a 
second issue is the support of certain opposition leaders 
inside Afghanistan by outside states. So without being able to 
talk about whether Iran has provided these specifics to Dostrum 
in Mazar-e Sharif, because I am not sure of that, but we are 
very much aware, and have been for a period of time, of a 
number of governments with relationships with these opposition 
group leaders. So I would say, Senator, that the information is 
not surprising, although I cannot verify the veracity of it.
    Senator Warner. Would their motive be to contribute to 
instability, or thwart what we are trying to bring about by way 
of a new government?
    General Franks. I do not know that I would characterize 
their motive. I would say that on our side we are watching 
these activities very carefully.
    Senator Warner. Turning to Pakistan, we should not finish 
this hearing without recognizing the very important role of 
that nation and, indeed, the courage of its president.
    General Franks. Sir, my experience in dealing with 
President Musharraf over a period of time is that he has 
evidenced in reality a desire to be a member of the global war 
on terrorism. I believe that his efforts have been very 
supportive of us. I have great respect for what President 
Musharraf has done in support of our efforts in Afghanistan. We 
all recognize what his objectives are with respect to his own 
country, his own economy. I believe he has taken risk in order 
to support us, and I believe we respect it.
    Senator Warner. Likewise Oman. That government has been 
very helpful in their usual, quiet manner.
    General Franks. Sir, that is exactly correct. We have had 
support from nations across our region for this operation, Oman 
certainly among them.
    Senator Warner. I thank you, General.
    Chairman Levin. Senator Sessions, did you have a question?
    Senator Sessions. Yes, one question. You emphasized on the 
request of what choke points and bottlenecks were that lift was 
important to you being able to transport materials there. Let 
me ask you, what kind of airlift did you find most valuable, 
and what do you think we would need more of in a conflict that 
required a more rapid transport and more items to transport?
    General Franks. Sir, I think I am a fan of the C-17. I 
believe that the airframe bore out tremendous capability in 
this campaign. I am also a fan of the life extension programs 
that we work in the C-5 fleet, because it is there, it is 
available.
    What we look for as unified commanders is the ability to 
get what we call the big gray tails, the larger airframes in 
and out of an area, and our ability to have the C-17, the C-130 
size airframe, and things like the C-5 are very important to us 
as we move forward.
    Senator Sessions. You have been through a conflict that had 
to transport a lot of materials quickly. Assuming we could be 
involved in an even larger one in the future, are we 
sufficiently capable in airlift, and do we need more strength 
there in your opinion?
    General Franks. Senator, in my opinion we do need more 
strength in our strategic lift capability. I looked at the 
numbers of what we have flown in the Afghanistan operation, and 
we have flown C-17s on more than 1,500 strategic lifts, C-130s 
I think on a tremendous number, more than 3,000 inside the 
theater. We have relied on the C-5 with almost 600 strategic 
lifts, and the list goes on and on and on.
    So one of the first things that will come to the mind, 
Senator, of any combatant commander is our ability to move 
quickly and in an agile way into a theater of operations, and 
so it will remain an issue with us. My view is that the effort 
we put into strategic lift and mobility is effort well-spent.
    Senator Sessions. Thank you.
    Chairman Levin. Thank you. We will move now immediately to 
a closed session in Hart 219. Thank you all. We will stand 
adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
         geneva convention privileges not accorded to detainees
    1. Senator Levin. General Franks, if it is finally decided that the 
detainees taken into custody in Afghanistan by forces under your 
control are not entitled to prisoner of war status under the Geneva 
Conventions, what are the specific privileges that they will not 
receive that they would have received if they were determined to be 
prisoners of war?
    General Franks. The President and Secretary of Defense have 
determined that al Qaeda and Taliban detainees under Department of 
Defense control are not entitled to enemy prisoner of war (EPW) status. 
U.S. Forces are treating the detainees humanely and, to the extent 
appropriate and consistent with military necessity, in a manner 
consistent with the principles of the Geneva Convention.
    The practical effect of this determination and its application to 
detainees held at the short-term detention facility and collection 
points in Afghanistan has been, and will continue to be negligible. We 
are ensuring the safety of the detainees and providing them necessary 
food, shelter, clothing, and medical care. We are working closely with 
representatives of the International Committee of the Red Cross, 
providing them access to our facilities and the detainees. In fact, the 
detainees are being provided most of the rights and privileges normally 
reserved to EPW. However, as the detainees are not EPW, certain 
privileges of EPW are not being provided (establish canteens, pay EPW 
stipend, receive musical instruments, scientific equipment, sports 
outfits, etc.). I am confident that we are satisfying our obligations 
under international law.

               implementation of multi-service regulation
    2. Senator Levin. General Franks, the Multi-Service Regulation 
(Army Regulation 190-8, OPNAVINST 3461.6, AFJI 31-304, MCO 3461.1) 
titled ``Enemy Prisoners of War Retained Personnel, Civilian Internees, 
and Other Detainees,'' provides in paragraph 1-6a that ``if any doubt 
arises as to whether a person, having committed a belligerent act and 
been taken into custody by U.S. Armed Forces, belongs to any of the 
categories enumerated in Article 4, GPW, such persons shall enjoy the 
protection of the present Convention until such time as their status 
has been determined by a competent tribunal.''
    Additionally, paragraph 1-4g of the Multi-Service Regulation 
provides that ``Combatant Commanders, Task Force Commanders, and Joint 
Task Force Commanders have the overall responsibility for the EPW, CI, 
and RP program, operations, and contingency plans in the theater of 
operations involved to ensure compliance with international laws of 
war.''
    Why haven't you implemented the Multi-Service Regulation by holding 
the three-officer tribunals called for by paragraph 1-6a and spelled 
out in paragraphs 1-6b through g of that regulation?
    General Franks. The President has concluded ``there is no doubt'' 
as to the status of the detainees. Consequently, there is no 
requirement for USCENTCOM to conduct Article 5 tribunals in 
Afghanistan. We are treating detainees in accordance with the 
requirements of the Multi-Service Regulation as applied to detainees 
that are not entitled to enemy prisoner of war (EPW) status, consistent 
with the President's decision.
    Within the Department of Defense, the Multi-Service Regulation 
implements the Geneva Conventions Relative to the Treatment of 
Prisoners of War (GPW) and other aspects of international law relating 
to captured/detained persons. As such, we use this regulation as the 
basis for the treatment of the detainees held in Afghanistan, and, as 
noted previously, the detainees are being provided most of the rights 
and privileges normally reserved to EPW.
    Under the GPW and the Multi-Service Regulation, any person who has 
committed a belligerent act and thereafter comes into the power of 
another must, if there is any doubt as to status, be treated as a 
prisoner of war unless a competent tribunal determines that the person 
is not entitled to protected status under Article 5, GPW.
    Prior to initiation of Operation Enduring Freedom and based on the 
unique character of the conflict and the opposing forces, we requested 
guidance regarding the appropriate status of any captured/detained 
persons who might come into U.S. custody. Pending this guidance, on 17 
October 2001, we initiated planning for Article 5 tribunals to 
determine the legal status of individuals captured or detained by U.S. 
Forces. However, the subsequent determination that al Qaeda and Taliban 
individuals under the control of the Department of Defense are not 
entitled to EPW status obviated the need for any such tribunals.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
                                 b-52s
    3. Senator Landrieu. General Franks, Louisiana has a rich military 
heritage, with all services being prominently represented in the state. 
Many of our men and women serving under United States Central Command 
(CENTCOM) and in other areas are assigned to units in Louisiana. I am 
proud of Louisiana's contributions to all areas of this war. In 
planning the air attacks and ground support missions, the B-52 was 
engaged daily in many of these missions. Would you explain the 
different payloads for the different missions?
    General Franks. The B-52, like all combat aircraft, is capable of 
supporting various air-to-ground missions with standard weapons 
payloads. This allows maximum flexibility to re-task the aircraft after 
takeoff as the battle evolves. To explain the relationship between 
aircraft payload and mission, it is useful to briefly summarize the 
process involved. In general, combat aircraft are scheduled to attack 
specific pre-planned targets in accordance with current command 
guidance. During this process however, air planners evaluate the 
potential for airborne re-tasking and determine the specific weapons 
payload best suited to meet both primary and alternate mission 
requirements. The operational art associated with choosing the 
appropriate payload, strikes a balance between optimal weapons effects 
and mission flexibility. In certain situations, air commanders may 
elect to sacrifice specific weapons effects provided by more 
specialized weapons for the flexibility to execute a variety of 
missions with general-purpose weapons.
    Within the above context, specific B-52 payloads are better suited 
for specific mission conditions and target types. For example, Joint 
Direct Attack Munitions (JDAM), satellite guided weapons recently 
discussed in the press, are heavy-weight general-purpose warheads 
designed to achieve adequate effects against a wide variety of targets: 
Recent combat operations in Afghanistan highlighted the diversity of 
these satellite-guided weapons by enabling B-52 aircraft to employ 
ordnance in close proximity to friendly forces. This mission, known as 
CAS, or close air support, is historically reserved for fighter type 
aircraft capable of visually acquiring both friendly and enemy forces 
before weapons release. There are two current versions of the satellite 
guided JDAM including a warhead capable of penetrating reinforced 
concrete or bedrock. These weapons are particularly well-suited for 
attacking caves and other underground facilities used to protect enemy 
forces and equipment from non-penetrating weapons. Satellite-guided 
weapons may be employed in any type of weather. This flexibility is 
extremely valuable to commanders, but the large warhead often presents 
significant collateral damage concerns. Additionally, JDAM are not 
quite as accurate as those weapons guided by Light Amplification by 
Stimulated Emission of Radiation (LASER) energy or video data link. 
Strikes against discrete mobile targets in urban areas often require 
smaller, more precise warheads to minimize unintended damage to 
civilians and infrastructure in close proximity to these targets. In 
these situations, the B-52 may be tasked to employ the AGM-142, which 
is an extremely precise video guided weapon with a much smaller 
warhead. In addition to point targets and infrastructure targets, the 
B-52 may be employed with an assortment of anti-armor and anti-
personnel cluster munitions capable of being dispersed over a fairly 
wide area. These weapons can also be effective against enemy 
concentrations in support of friendly ground forces. Recent 
technological advancements are dramatically improving the accuracy of 
both the cluster munitions dispenser as well as the individual sub-
munitions. Finally, when robust enemy air defenses call for strikes 
from long range, the B-52 is capable of employing cruise missiles. The 
Conventional Air Launched Cruise Missile can reach targets located 
hundreds of miles from the launch area in order to keep the B-52 out of 
harms way.
    Perhaps the most valuable B-52 capability is the diversity and size 
of its payload. Like the B-2 and B-1 heavy bombers, the B-52 can be 
tasked against multiple targets per sortie. The B-52 may employ 
precision weapons against several high value point targets, followed by 
unguided weapons or leaflets before returning to its takeoff base.

    4. Senator Landrieu. General Franks, in your statement, you refer 
to moving from ``10 sorties per target to 2 targets per sortie.'' Would 
you say the B-52, even at its current age, has repackaged itself as a 
premiere carriage of Precision Guided Munitions (PGMs)?
    General Franks. Yes. The B-52 is now entering its 50th year of 
active duty (41 years for the H model) and it is still the forefront of 
this Nation's military capabilities. Its recent use in this theater 
highlights the B-52's transformational capabilities. The B-52 maintains 
the capability to slug it out in a full-scale conventional conflict 
while adapting to carry out pinpoint strikes in support of special 
operations. The B-52 should not be looked at as a legacy system, but 
rather as an updated and transforming weapon system remaining at the 
front lines of service to this Nation that continues to deliver each 
and every time it is called to war--any kind of war.
    The B-52 is one of the platforms we have counted on during 
Operation Enduring Freedom. It can service multiple targets on one 
sortie, and has the endurance and flexibility to remain on station for 
extended periods with mixed weapons loads. The B-52 also carries the 
AGM-142 and the Conventional Air Launched Cruise Missile, both long 
range precision weapons that hold an even greater variety of targets at 
risk. Finally, the B-52 is certified to carry Laser Guided Bombs, 
although it requires a fighter or a ground party to ``spot the target'' 
with laser energy to deliver this variety of PGM.

                           special operations
    5. Senator Landrieu. General Franks, we have all witnessed and been 
truly impressed by the effectiveness of special operations forces 
working under your command. Yet, it is my understanding that there are 
no special operations units permanently assigned to your area of 
responsibility. When I met with General Tagney, the Deputy Commander in 
Chief of Special Operations Command (SOCOM), a few months ago, he 
stated that the jury was still out on whether the special operations 
forces structure is sufficient. In your estimation, is the current 
system--where SOCOM supports with available units--optimal? Or are you 
in favor of increasing the number of special operations forces and 
dedicating units to the CENTCOM area?
    General Franks. Senator Landrieu, I am definitely in support of 
increasing the number of special operations forces oriented to our 
theater. Furthermore, I believe that there should be a special 
operations presence permanently assigned in the CENTCOM Area of 
Responsibility.
    General Charlie Holland, the Commander of the Special Operations 
Command, has done a spectacular job of ensuring the forces assigned to 
him are thoroughly trained to accomplish tasked missions. I applaud his 
efforts and personally thank him.
    However, the CENTCOM Area of Responsibility is distant from the 
United States. Just the sheer time it takes to mobilize, transport, and 
off-load from aircraft once troops arrive in theater can cause delays 
upwards of 24-36 hours. While this may seem a relatively short amount 
of time, it can be significant when dealing with the threat in our 
region.
    Additionally, in the war against terrorism the Department of 
Defense must work within an inter-agency environment to seek out 
individuals intent on harming Americans. The U.S. military must be 
prepared to operate in a preemptive manner to disrupt these actions in 
order to protect American interests everywhere.
    Lastly, our friends and allies in the CENTCOM Area of 
Responsibility have provided superb support to the United States 
efforts recently. By increasing the permanently assigned forces in the 
CENTCOM region, we send a signal that we are committed to the mutual 
defense of our allies.
                                 ______
                                 
               Questions Submitted by Senator Ben Nelson
      destruction of underground operating centers in afghanistan
    6. Senator Ben Nelson. General Franks, to what extent have we 
destroyed underground operating centers and tunnels in Afghanistan? Are 
we certain that these facilities cannot be used again, possibly during 
peacekeeping operations?
    General Franks. [Deleted]. We have by no means destroyed every 
underground facility in Afghanistan, given its centuries' old history 
of cave usage; however, we have identified and destroyed a great many 
underground facilities that had been used as Taliban/al Qaeda safe-
havens and/or strongholds, thus denying the opportunity for their 
future use. We have a great deal of work remaining to be done in 
Afghanistan. We will continue to locate and destroy underground 
facilities in the months ahead.

                          offensive operations
    7. Senator Ben Nelson. General Franks, how much longer do you 
predict we will be engaged in offensive operations before we begin the 
transition into peacekeeping operations?
    General Franks. Senator, our offensive operations are event-driven 
vice time-driven so I would not venture a prediction on how much longer 
we will be engaged in offensive operations. As long as there are known 
or suspected pockets of al Qaeda in Afghanistan, we will continue to 
seek them out and kill or capture them.
    [Deleted].

                    fiscal year 2003 defense budget
    8. Senator Ben Nelson. General Franks, as I reviewed the defense 
budget for next year and read General Myers' statements on the posture 
of our Department of Defense, I learned that our inventory of laser 
guided and precision guided munitions is low. In regards to the 
efficient use of these munitions, after we eliminate critical targets 
such as enemy anti-air defenses, are we employing less expensive 
conventional munitions in order to preserve our low density/high demand 
munitions?
    General Franks. [Deleted].

    9. Senator Ben Nelson. General Franks, I would like to know if 
there is anything, equipment, munitions, expertise, or any other type 
of support that we can provide your command in order to make our 
operation even more successful?
    General Franks. Given our mission, ongoing operations, the need for 
continued security cooperation and the concerns stated above, our key 
requirements, as reflected in my integrated priority list, focus on 
deploying, building combat power, and executing combat operations. The 
diverse and volatile nature of the region requires military 
capabilities that are versatile as well as agile.

        <bullet> Strategic Lift--One of the critical enablers in the 
        execution of current operations. With few permanently stationed 
        forces in the region, our power projection capability depends 
        upon strategic lift and robust land- and sea-based 
        prepositioned assets. Our ability to deploy forces and 
        equipment quickly remains the linchpin for responding to 
        contingencies in USCENTCOM's Area of Responsibility.
          Continued procurement of the C-17, modernization of the C-5, 
        and support of the Civil Reserve Air Fleet Program is critical 
        to meeting major theater war deployment timelines. Our 
        requirements for strategic and intra-theater airlift are 
        addressed adequately in Mobility Requirements Study 05. We 
        support expanding the C-17 aircraft buy, and funding for the C-
        5 Aircraft Reliability Enhancements and Re-engining Program.
          The procurement of large, medium speed, roll-on/roll-off 
        ships is on track and will significantly enhance our lift 
        capability. Under the current procurement plan, we will meet 
        USCENTCOM force and sustainment deployment timelines with these 
        vessels and Ready Reserve Fleet assets by the end of fiscal 
        year 2003.
        <bullet> Command, Control, Communications, and Computers--
        Robust C\4\ is imperative for situational awareness and to 
        ensure real-time command and control. We are developing a 
        deployable command and control headquarters that will provide 
        the necessary flexibility to direct operations throughout our 
        Area of Responsibility.
          The complex strategic environment in our area requires a 
        reliable and secure command, control, communications, and 
        computers infrastructure. Additionally, intelligence, 
        operations, and support systems increasingly rely on assured 
        communications bandwidth. We have made progress in enhancing 
        our theater systems and have been successful in getting 
        critical information directly to the warfighters; however, 
        there is still work to be done.
          We are concerned with the lack of available satellite 
        bandwidth as the current military satellite infrastructure is 
        saturated. The Predator and Global Hawk unmanned aerial 
        vehicles demand large bandwidths and currently use nearly 25 
        percent of that which is available from commercial satellites. 
        As we look toward the future, we need a secure, joint theater 
        infrastructure that takes advantage of fiber optic cable and 
        commercial satellite services now available in the Gulf States, 
        and must also consider approaches to support forces in the 
        Central Asian States.
          The Coalition Coordination Center, located at our 
        Headquarters in Tampa, now supports national liaison teams from 
        27 nations. This poses an increasing demand on our 
        infrastructure. We must factor in these requirements and ensure 
        our ability to expand to meet coalition requirements in the 
        future.
        <bullet> Full Dimensional Protection--The goal of our force 
        protection program is to protect our personnel, family members 
        residing overseas, and infrastructure from acts of terrorism. 
        Over the past year, several improvements have been made to our 
        program. We have revised our Antiterrorism Operating 
        Procedures, incorporated policy changes, and streamlined our 
        terrorism threat assessment and force protection condition 
        implementation process.
          As part of this process improvement, our vulnerability 
        assessment teams have taken a country-wide approach to identify 
        and eliminate potential `seams' and `gaps' in our force 
        protection coverage. We have expanded our assessments from a 
        focus on the physical security of sites to a more comprehensive 
        look at vulnerabilities and patterns that could be exploited by 
        terrorists. These include travel routes, lodging sites, and air 
        and seaports of debarkation. Our objective is to harden these 
        areas and mitigate risk.
          To combat the ever-changing terrorist threat, we must 
        continue to take advantage of technological solutions to force 
        protection challenges. Physical security systems are needed to 
        improve our ability to screen personnel and vehicles and to 
        detect the presence of explosives. Additionally, perimeter 
        surveillance systems are needed to enhance our ability to 
        detect intruders. Critical manpower increases are also required 
        in order to provide our component commanders with the manning 
        necessary to accomplish their antiterrorism responsibilities.
          Since the attacks of 11 September 2001, USCENTCOM has 
        challenged all previous assumptions concerning terrorism, as 
        well as the methods for prevention of terrorist attacks. Our 
        goal is to provide the right level of protection and response 
        capabilities for all U.S. assets.
        <bullet> Intelligence, Surveillance, and Reconnaissance--This 
        tiered-system approach enables our forces to react rapidly and 
        decisively to changes on the battlefield. Predator and Global 
        Hawk unmanned aerial vehicles have been proven to be invaluble 
        in providing long dwell surveillance, tracking, positive 
        identification, and collateral and strike damage assessment. 
        Global Hawk, for example, flew sorties approaching 30 hours in 
        duration and imaged over 600 targets during a single mission 
        over Afghanistan.
          Our intelligence, surveillance, and reconnaissance strategy 
        is sound but is constrained by the scarcity of assets--both 
        platforms and trained linguists and analysts. The necessity of 
        maintaining 24-hour focus on disparate targets amplifies the 
        effects of critical shortages in key surveillance platforms and 
        crews. We are forced to choose between applying resources to 
        competing high-value targets in different locations. Continued 
        congressional support is essential to these vital intelligence 
        programs, which are central to our ability to provide force 
        protection and actionable intelligence to our combat forces.
        <bullet> Security Cooperation--The importance of continued 
        investment in security cooperation cannot be overstated. It is 
        not a ``one size fits all'' program; it must be tailored to our 
        interests in each country. We have designed our program to 
        assure regional allies, friends, and partners of our long-term 
        commitment. Because of the great diversity seen in this region, 
        we make use of a wide range of funding options. Overseas 
        humanitarian disaster and civic aid programs enable us to 
        conduct demining and humanitarian assistance actions, which are 
        vital tools for maintaining our influence in many of the 
        economically challenged nations in the region. The Warsaw 
        Initiative, Traditional CINC Activities, and Cooperative Threat 
        Reduction funding enable participation in exercises, symposia, 
        officer and noncommissioned officers exchanges, and small unit 
        training.
          The Joint Chiefs of Staff Exercise Program must continue to 
        be funded robustly. This program tests our doctrine, command 
        and control arrangements, and tactics during command post and 
        field-level training to confirm the feasibility of our planning 
        efforts. These exercises include participants and 
        representatives from numerous nations as observers.
          As noted earlier, IMET is a valuable cooperative education 
        program that has paid the U.S. dividends for decades. 
        Similarly, Foreign Military Financing continues to be a vital 
        tool to enhance cooperative security and pursue U.S. interests 
        in our region. We are advocates of this program for Afghanistan 
        so that we can fund the very important work of helping that 
        country build a viable, professional military, subordinate to 
        legitimate civilian authority.
          We will continue to pursue cooperative security opportunities 
        throughout the region. The most effective way to do this is by 
        putting U.S. boots on the ground, U.S. ships in ports, and U.S. 
        aircraft in the skies alongside the forces of our regional 
        partners.
        <bullet> Prepositioning and Forward Presence--Prepositioning 
        military assets in the region helps mitigate our time-distance 
        challenge, ensures access, demonstrates our commitment to the 
        region, and facilitates sustainment of deployed forces.
          The Navy and Marine Corps Maritime Prepositioning Force 
        program, comprised of Maritime Prepositioned Ship Squadrons 1, 
        2, and 3, maintains a high materiel readiness rate. When fully 
        fielded the Maritime Prepositioning Force Enhancement Program 
        will provide each squadron a fleet hospital, a Navy mobile 
        construction battalion, an expeditionary airfield, and 
        additional warfighting equipment. The Squadron-1 and -2 
        Enhancement ships are already on station.
          The Army's prepositioning program is advancing on schedule 
        with a goal of placing a heavy division of equipment in the 
        region. The brigade set in Kuwait maintains high operational 
        readiness and is exercised regularly. The prepositioned site in 
        Qatar (Camp As Sallyah) houses the second brigade set and a 
        division base set is estimated to be completed before the end 
        of fiscal year 2003. Challenges in this area remain in reaching 
        our end state objectives for equipment on hand, modernization, 
        and filling our sustainment stockage levels. The afloat combat 
        brigade, APS-3, is complete, and combat ready. A second afloat 
        combat brigade will augment APS-3 and should be in place by 
        August 2002. Current plans are to fill 83 percent of the 
        equipment requirement in the near term. We support 100 percent 
        fill of this requirement.
          The Air Force Harvest Falcon bare-base materiel program is 
        vital to USCENTCOM. These assets support the rapid generation 
        of temporary bases and have been employed effectively to 
        facilitate key bases in Operation Enduring Freedom. Failure to 
        preposition these bare-base sets would result in further over 
        tasking of critical strategic lift assets at the start of a 
        conflict. Over the past decade, the demand for Harvest Falcon 
        assets by all CINCs has been extremely keen. [Deleted]
        <bullet> Combat Systems and Combat Systems Support--We depend 
        on Combat Systems and Combat Systems Support to project power 
        rapidly, maintain full spectrum information dominance, and 
        prevent deterioration of equipment and capabilities. While 
        various Service programs provide a wide variety of capabilities 
        to our assigned forces, we have identified several systems of 
        particular interest to the Command.
          Operation Enduring Freedom demonstrated the effectiveness of 
        precision guided munitions in improving target effects, 
        lowering collateral damage, and allowing a single aircraft to 
        attack multiple targets. Funding for these systems must remain 
        a priority effort.
          Amphibious lift is critical to execution of our presence 
        mission, overcoming access challenges, and projecting power as 
        part of USCENTCOM's contingency operations. The ability to 
        shape the battlefield in high-threat environments requires a 
        fully funded, next-generation Amphibious Transport Dock 
        program.
          We look to the Army for sustained funding and the fielding of 
        additional AH-64D Apache Longbow Helicopters and for the Family 
        of Medium Tactical Vehicles.
          The capabilities inherent in the V-22 Osprey are invaluable 
        to both Special Forces and conventional forces in the USCENTCOM 
        theater.

                         iraqi strategic threat
    10. Senator Ben Nelson. General Franks, is Iraq, at this time, a 
strategic threat to the United States?
    General Franks. Saddam Hussein's quest for weapons of mass 
destruction (WMD) has been well documented and since inspectors have 
not been allowed in Iraq since 1998, Saddam Hussein has had time to 
rebuild his WMD capability [deleted].

                       nature of iraqi resistance
    11. Senator Ben Nelson. General Franks, some have said that the 
formula we used in Afghanistan is a model that could transfer to Iraq. 
The consensus is lining up behind three possible steps the U.S. could 
take against Iraq: (1) arm the Iraqi resistance; (2) air strikes on key 
weapon of mass destruction sites; and (3) a full scale land invasion.
    I am aware that over the last 10 years the Iraqi resistance has 
tried unsuccessfully (and without U.S. military support) to topple 
Saddam Hussein. Can you analyze the Iraqi resistance and compare their 
capability to that of the Northern or Eastern Alliances?
    General Franks. There has been a great deal of speculation 
following the Gulf War that various Iraqi opposition groups would unite 
and overthrow the Saddam Hussein regime. We could compare and contrast 
the Iraqi opposition with the Northern and Eastern Alliances, but it 
may be more useful to examine the Saddam Hussein regime and how it has 
successfully kept opposition in check.
    First, unlike Afghanistan, Iraq has a well-developed government and 
a substantial military. Saddam has been in power for over two decades. 
[Deleted] Second, despite UN sanctions, Saddam has comparatively more 
resources at his disposal than the Taliban had. [Deleted].
    Although there are many groups in Iraq who want to overthrow 
Saddam, he has much greater power over these groups than the Taliban 
had over the Northern and Eastern Alliances.

          regional support for u.s. removal of saddam hussein
    12. Senator Ben Nelson. General Franks, the fear of breaking up the 
Arab coalition against global terrorism is cited, so far, as the chief 
reason why the U.S. may be leery of putting Saddam Hussein in the 
crosshairs. Much emphasis has been placed on a potential cease-fire in 
Israel and the Palestinian terrorists to continue Arab support for U.S. 
efforts against terrorism. What support would we have from Arab leaders 
in the region to remove Saddam Hussein from power once and for all?
    General Franks. [Deleted].

                            iraqi diplomacy
    13. Senator Ben Nelson. General Franks, what do you make of Iraq's 
recent overture towards diplomacy as mentioned in the Washington Post 
yesterday?
    General Franks. Saddam's current round of diplomacy has been aptly 
call a ``charm offensive.'' Since 11 September, and more recently since 
President Bush's inclusion of Iraq in the ``axis of evil,'' Iraq has 
sought to bolster its diplomatic standing. But no one will be fooled at 
Saddam's attempt to seek friends in the region and throughout the world 
at a time when he is being scrutinized for his regime's wrongdoing.
    Iraq's neighbors are sympathetic to the suffering of the Iraqi 
people under Saddam's regime. For that reason, and for commercial 
reasons, some of Iraq's neighbors have been cautiously receptive to 
improving ties with Iraq. [Deleted].

             iranian training al qaeda and taliban fighters
    14. Senator Ben Nelson. General Franks, there are reports that 
there is Iranian influence in western Afghanistan, particularly in 
Herat and Mazar-e Sharif. Are the Iranians training pockets of al Qaeda 
and Taliban fighters? If so, have we targeted those areas? If not, why?
    General Franks. [Deleted].

                            osama bin laden
    15. Senator Ben Nelson. General Franks, yesterday The Christian 
Science Monitor reported that a former chief of Osama bin Laden is now 
saying that the terrorist has escaped into Iran. When our offensive 
began in Afghanistan, Iran stated that its border would be controlled 
and that fleeing al Qaeda and Taliban fighters would be denied entry 
into Iran. Is this statement consistent with what our intelligence 
sources have provided you?
    General Franks. [Deleted].

    16. Senator Ben Nelson. General Franks, to the best of your 
knowledge, is bin Laden alive?
    General Franks. [Deleted].

    17. Senator Ben Nelson. General Franks, what is the last known 
location we have for bin Laden?
    General Franks. [Deleted].

    18. Senator Ben Nelson. General Franks, does your intelligence 
indicate that Osama bin Laden is now in Iran?
    General Franks. [Deleted].

    19. Senator Ben Nelson. Is it possible that Osama bin Laden is in 
Iran?
    General Franks. [Deleted].

                        iranian strategic threat
    20. Senator Ben Nelson. General Franks, is Iran a strategic threat 
to the United States?
    General Franks. [Deleted].
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond
                     forward deployed headquarters
    21. Senator Thurmond. General Franks, according to recent press 
reports both you and General Hailston, the Commander of the Marines in 
the Pacific, have established forward command posts in Southwest Asia 
to facilitate the operations in the region. I understand that there 
have been discussions of maintaining such command posts in the region 
permanently. What has prevented us from establishing a permanent 
forward CENTCOM headquarters in the region? What are your views on the 
matter?
    General Franks. Senator Thurmond, at present all of the component 
headquarters of United States Central Command are in the Gulf region in 
support of our operations to combat terrorism. This includes Army 
Forces Central Command, Naval Forces Central Command, Air Forces 
Central Command, Marine Forces Central Command, and Special Operations 
Command Central. Of these, only Naval Forces Central Command is 
permanently stationed in the region. We are making plans for Special 
Operations Command Central to have a relatively small forward 
headquarters in Qatar. The others will remain in the region as long as 
required to complete our mission, then will redeploy to their home 
bases. My headquarters, however, has thus far remained in Tampa. I have 
chosen to keep my headquarters in Tampa because of the unprecedented 
ability to capture the situational awareness needed to command and 
control operations. The technological advances of the past 10 years 
provide me and my staff with capabilities far beyond those that existed 
previously. Additionally, the time necessary to move a large, unified 
headquarters along with the coalition staff that is so integral to our 
operations made staying in Tampa, at least so far, the best choice. 
Every headquarters, however, must possess the capability to be remote, 
offset, or in the theater. With regard to establishing a Central 
Command Headquarters in the region, I am exploring that option. There 
are certain operational benefits to being in the region, but there are 
also implications which must be considered. The situation in the region 
continues to change and thus we must continue to evaluate our options.

                      russia's role in afghanistan
    22. Senator Thurmond. General Franks, what role is Russia playing 
in Afghanistan and what interaction have you had with Russian 
officials?
    General Franks. The Russian involvement in Afghanistan has been 
largely in the humanitarian assistance arena. They have between 200 to 
300 personnel in Afghanistan located primarily in the northeast region 
between Takhar and Kabul. They have an engineer unit involved in 
reopening the Salang tunnel. In November 2001 they opened a hospital in 
Kabul that treated over 5,200 patients before the Russians turned it 
over to the Afghanis in, by their reporting, January 2002. Russian aide 
shipments have come through EMERCON, and to date have delivered tons of 
food stuffs; tons of medical supplies; 15,282 beds; 11,000 blankets; 
1,200 heaters; and 780 tents. They also had a search and rescue 
detachment at Dushanbe, Tajikistan, which has since redeployed. 
[Deleted].

                  role of u.s. forces in the republics
    23. Senator Thurmond. General Franks, it is well known that we have 
hundreds of troops deployed to the former Soviet Republics bordering 
Afghanistan. What are their specific roles? What compensation is the 
United States paying for allowing our forces to operate out of the 
republics?
    General Franks. The role of U.S. and coalition troops deployed to 
the ``Stans'' is in support of the campaign in Afghanistan. We have a 
base in Karshi-Khanabad in Uzbekistan that continues to function as an 
operational and logistics sustainment base for Operation Enduring 
Freedom. We hope to remain engaged at this base for the foreseeable 
future. In Manas, Kyrgystan we are engaged with the government to 
develop a coalition logistics hub for operations in Afghanistan. Manas 
also has potential for use in the future for contingency forward 
basing.

        Kyrgyz Republic: [Deleted]
        Uzbekistan: [Deleted]
        Turkmenistan: [Deleted]
        Tajikistan: [Deleted]
        Kazakhstan: [Deleted]

                           reserve components
    24. Senator Thurmond. General Franks, the fight against terrorism, 
both at home and overseas, has again demonstrated our reliance on the 
Reserve components. I know you agree with me that without the support 
of our citizen soldiers, the battle against the Taliban would have been 
longer. Based on your experience with the Reserve components units 
deployed in your theater, what improvements should be made regarding 
their training and equipment?
    General Franks. Senator Thurmond, you are right on target 
highlighting the magnificent contribution our Reserve men and women 
have made to this operation. The Reserve Forces and individual 
augmentees we have received fill critical roles. Their training should 
continue to be focused on maintaining the same standards their active 
duty counterparts train to and their equipment should be of the same 
quality as what the active force trains with. I would have to defer to 
the Service Chiefs, for how they envision training and equipping the 
Reserves as an integral part of the Total Force.

                              no-fly zones
    25. Senator Thurmond. General Franks, although we are all focused 
on Afghanistan, we must not forget that our forces are still engaged in 
maintaining the no-fly zones over Iraq. Although the news that our 
forces bombed an Iraqi radar site or a missile site periodically 
reminds us of this mission, the danger and importance of this mission 
are fading from the Nation's memory. What is the scope of the current 
effort to enforce the no-fly zone, and how has the effort against the 
Taliban impacted this mission? What allies are actively contributing 
forces to this effort?
    General Franks. The scope and mission of our Operation Southern 
Watch (OSW) has not changed because of Afghanistan. The Combined Forces 
Air Component Commander (CFACC) has worked diligently to ensure 
enforcement of the southern no-fly zone in Iraq. [Deleted] We are 
looking at new and better ways to maintain our vigilance without 
depleting resources.

                     military cooperation with iran
    26. Senator Thurmond. General Franks, President Bush has identified 
Iran as one of the so-called axis of evil states. Although I agree with 
the President that Iran has a history of support for terrorism, I have 
read articles in which there are implications that Iran supported our 
effort in Afghanistan. At the CENTCOM level, have you had any contact 
with Iranian military or civilian leadership? What, if any, interaction 
was there between the coalition and Iran in defeating the Taliban?
    General Franks. [Deleted].

                            force structure
    27. Senator Thurmond. General Franks, no doubt the strikes against 
terrorism have stressed our personnel, equipment, and resources. 
Although you have successfully carried out the mission, I am confident 
that the task would have been easier with better and more resources. 
What specific type of military specialty skills and equipment were not 
available to you because of shortfalls in the inventory?
    General Franks. I am extremely proud of the efforts and 
achievements of our forces in this operation. All the services have 
readily provided everything, from troops to equipment, I have asked 
for. Because of this, I have not felt constrained in the execution of 
my mission.
    There are items that, if available in greater quantities, would 
have given me greater operational freedom. We do need more strength in 
our strategic lift capability. For Operation Enduring Freedom we have 
flown the C-17s in more than 1,500 strategic lifts, have relied on the 
C-5 for almost 600 strategic lifts, and have also flown more than 3,000 
C-130 sorties inside the theater. Our ability to move quickly and in an 
agile way into a theater of operations is critical to mission success 
and so I support any effort to increase our mobility and strategic lift 
capability.
    Additionally, our intelligence, surveillance, and reconnaissance 
strategy is sound but is constrained by the scarcity of assets--both 
platforms and trained linguists and analysts. The necessity of 
maintaining 24-hour focus on disparate targets amplifies the effects of 
critical shortages in key surveillance platforms and crews. We are 
forced to choose between applying resources to competing high-value 
targets in different locations. Continued congressional support is 
essential to these vital intelligence programs, which are central to 
our ability to provide force protection and actionable intelligence to 
our combat forces.

                             civil affairs
    28. Senator Thurmond. General Franks, the Marine Corps Capstone 
Concept is Expeditionary Maneuver from the Sea. The Corps also talks 
about scalability, the ability to tailor their Marine Air Ground Task 
Forces (MAGTF) to meet the mission. The Marine Expeditionary Unit 
Special Operations Capable (MEUSOC), which you employed in Afghanistan 
with great success, is advertised as a presence and engagement force 
which promotes peace and stability. In your estimate does the MEUSOC 
have the ability to plan and conduct civil military operations and 
deploy with organic Civil Affairs assets, or is it necessary for them 
to reach back for this capability or link to other U.S. Forces such as 
U.S. Special Operations Command assets in theater?
    General Franks. The MEUSOC does not have organic civil affairs 
assets to plan and conduct civil-military operations (CMO). If CMO 
planning is necessary, the MEUSOC requests civil affairs support. A 
Marine Corps civil affairs group (CAG) normally provides this support. 
The Marine Corps has two CAGs, both are in the Reserve component. U.S. 
Army civil affairs forces can also provide this support with a civil 
affairs battalion substituting for a CAG. The U.S. Army currently has 
one active component civil affairs battalion and 25 Reserve component 
battalions.
                                 ______
                                 
                Questions Submitted by Senator Bob Smith
                               linguists
    29. Senator Smith. General Franks, I have seen press accounts 
indicating that we did not have sufficient numbers of linguists trained 
in the languages spoken in Afghanistan, such as Dahri and Pashto, to 
communicate with the locals as quickly as we would have liked. Did you 
have enough foreign language speakers in the appropriate language 
skills to provide the essential link between your forces and the native 
population? Would you have liked to have more, and do we need more 
language training programs?
    General Franks. [Deleted].

                       night vision capabilities
    30. Senator Smith. General Franks, it has been reported in the 
press that the Marine Corps has assessed that they need improvement in 
their night target designation capability. Has this shortfall been an 
obstacle to planning operations, and would it be beneficial for you to 
have improved night vision capabilities?
    General Franks. Senator Smith, from my perspective, the Marine 
Corps has done a magnificent job in Afghanistan. However, the 
Commandant of the Marine Corps obviously desires the best equipment for 
our marines, and I would defer any questions as to shortfalls to him.

                 intelligence gathering in afghanistan
    31. Senator Smith. General Franks, clandestine direct-action 
operations, particularly those aimed at capturing or killing specific 
individuals or groups, depend on having timely, high-quality 
intelligence about the targets in question. Are U.S. intelligence-
gathering capabilities against targets in Afghanistan sufficient to 
provide special operations forces with high quality intelligence on a 
timely basis?
    General Franks. Your question of ``sufficiency'' of intelligence 
gathering to support special operations forces (SOF) operations ``on a 
timely basis'' is best answered in light of the operational environment 
in Afghanistan. The Intelligence Community overall has been very 
responsive to the unique and often demanding needs of the SOF for 
mission planning and execution. [Deleted]
    We may never have all of the intelligence fidelity we want, but we 
must have a robust ``base-force'' of HUMINT/SIGINT/IMINT capability 
from which to draw.
                                 ______
                                 
              Questions Submitted by Senator Rick Santorum
              interim brigade combat teams in afghanistan
    32. Senator Santorum. General Franks, the Army is already forming 
two Interim Brigade Combat Teams (IBCTs), the 3rd Brigade of the 2nd 
Infantry Division (Medium) and 1st Brigade of the 25th Infantry 
Division (Light), at Fort Lewis, Washington. Yet when it came time this 
past November to insert ground forces into Afghanistan, it was the 
Marines that were tasked the responsibility of taking control of a base 
near Kandahar. Some have commented that these Marine forces combine 
more tactical maneuver capability and more firepower to sustain 
themselves than the Army's comparable rapid-deployment forces. Why were 
the two IBCTs--currently using surrogate equipment similar to the 
Marines Corps' equipment--not deployed to Afghanistan? Since we have 
heard that ``transformation'' is more than just new equipment, wouldn't 
a deployment to Afghanistan offer the perfect opportunity to 
demonstrate the training, tactics, and doctrine that are inherent to 
the IBCTs?
    General Franks. That is a very good question, but to answer it 
properly I would like to focus on those weeks immediately after 
September 11. During that time we were aggressively seeking country 
clearances for over-flight and basing of our forces in the area of 
operations. We were also rapidly flowing special operations and air 
forces, and their supporting equipment into theater. Movement of these 
forces required a Herculean strategic airlift effort. The utility of 
the Marine Expeditionary Unit (Special Operations Capable), already 
forward deployed aboard ships and, thus, not affected by country 
clearances, made them a force of choice. Of equal importance, the 
Marine Expeditionary Units have their own inherent logistic support. 
The fact that the Navy and Marine Team could quickly sail into position 
and assume a multitude of missions meant that there was no immediate 
need to deploy an IBCT like unit. Depending on geographic 
considerations the IBCT may well be the force of choice for future 
operations.

                          precision munitions
    33. Senator Santorum. General Franks, as we saw with the air war in 
Kosovo, the services have increasingly relied heavily on the use of 
preferred or precision munitions in the execution of military 
operations. Reports are that 10,000 of the 18,000 munitions used in the 
conflict in Afghanistan have been precision munitions. Do we currently 
have an adequate inventory of precision munitions to press the war on 
terrorism to another theater and still conduct military operations in 
Afghanistan?
    General Franks. Senator Santorum, many of the precision munitions 
used in Afghanistan were Joint Direct Attack Munitions (JDAMs). The 
high demand for these relatively inexpensive but very effective weapons 
will require us to ensure adequate inventory is maintained. [Deleted].

                          precision munitions
    34. Senator Santorum. General Franks, with respect to laser-guided 
bombs (LGBs), would the Department prefer to procure these munitions on 
a sole-source or competitive basis?
    General Franks. [Deleted].

                     role of pakistani intelligence
    35. Senator Santorum. General Franks, there is evidence linking the 
Taliban with elements of Pakistan's intelligence service, the Inter-
Services Intelligence Directorate (ISID). The ISID is tasked with the 
collection of foreign and domestic intelligence; coordination of 
intelligence functions of the three military services; surveillance 
over its cadre, foreigners, the media, politically active segments of 
Pakistani society, diplomats of other countries accredited to Pakistan 
and Pakistani diplomats serving outside the country; the interception 
and monitoring of communications; and the conduct of covert offensive 
operations. Has Pakistan's ISID been helpful in providing timely and 
accurate information?
    General Franks. [Deleted].

           pakistan's inter-services intelligence directorate
    36. Senator Santorum. General Franks, what changes has General 
Pervez Musharraf taken with respect to leadership within the ISI? Has 
the ISI demonstrated a bias in favor of the Taliban?
    General Franks. [Deleted].

                  central command and cyber safeguards
    37. Senator Santorum. General Franks, in response to a question 
raised by Senator Pat Roberts of Kansas, you noted that Operation 
Enduring Freedom was being coordinated from U.S. Central Command 
headquarters at MacDill Air Force Base in Tampa, Florida as opposed to 
in theater. In your response to Senator Roberts, you indicated that 
technological advances since the Persian Gulf War had enabled U.S. 
Central Command to accomplish this task. Do you have adequate 
safeguards and security in place to protect against a cyber-attack or 
cyber-intrusion made by a hostile or malicious entity?
    General Franks. Command and Control of Operation Enduring Freedom 
is primarily conducted over secure Department of Defense networks that 
use National Security Agency approved encryption for communications. We 
have also deployed intrusion detection systems at every classified and 
unclassified connection to the Defense Information Systems Network to 
actively block hostile activity. Additionally, U.S. Central Command has 
updated its information assurance policies to defend against emerging 
technologies and more sophisticated hacker attacks. Standard firewall 
and router configurations have been implemented to reduce exposure of 
U.S. Central Command's networks to unauthorized users. Assessments are 
performed both remotely and on site using automated tools to detect and 
correct known vulnerabilities. We have seen an increase in probing and 
intrusion attempts over the last 6 months but our implemented defense 
mechanisms have prevented unauthorized access.
                                 ______
                                 
               Question Submitted by Senator Wayne Allard
                      space systems in afghanistan
    38. Senator Allard. General Franks, the early budget materials 
we've had an opportunity to review suggest that space-based 
capabilities are receiving greater priority than they have in the past. 
What is your view on the role that military and commercial space 
systems have played in the Afghan campaign, the contributions they have 
made, and any shortfalls you may have identified?
    General Franks. Senator Allard, with regard to U.S. military 
satellites, we have taken full advantage of all of our space systems 
and maximized their contributions to combat operations: [deleted].

    [Whereupon, at 12:06 p.m., the committee adjourned.]

 
                       OPERATION ENDURING FREEDOM

                              ----------                              


                        WEDNESDAY, JULY 31, 2002

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3:05 p.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, 
Cleland, Landrieu, Reed, E. Benjamin Nelson, Carnahan, Dayton, 
Warner, McCain, Inhofe, Roberts, Allard, Sessions, Collins, and 
Bunning.
    Committee staff members present: David S. Lyles, staff 
director; Christine E. Cowart, chief clerk; Gabriella Eisen, 
nominations clerk; Gary J. Howard, systems administrator; and 
Bridget M. Whalan, special assistant.
    Majority staff members present: Richard D. DeBobes, 
counsel; Evelyn N. Farkas, professional staff member; Richard 
W. Fieldhouse, professional staff member; Gerald J. Leeling, 
counsel; Peter K. Levine, general counsel; and Michael J. 
McCord, professional staff member.
    Minority staff members present: Judith A. Ansley, 
Republican staff director; Charles W. Alsup, professional staff 
member; L. David Cherington, minority counsel; George W. 
Lauffer, professional staff member; Thomas L. MacKenzie, 
professional staff member; Joseph T. Sixeas, professional staff 
member; Scott W. Stucky, minority counsel; and Richard F. 
Walsh, minority counsel.
    Staff assistants present: Daniel K. Goldsmith, Andrew Kent, 
and Nicholas W. West.
    Committee members' assistants present: Barry Gene (B.G.) 
Wright, assistant to Senator Byrd; Frederick M. Downey, 
assistant to Senator Lieberman; Elizabeth King, assistant to 
Senator Reed; William K. Sutey, assistant to Senator Bill 
Nelson; Eric Pierce, assistant to Senator Ben Nelson; Neal 
Orringer, assistant to Senator Carnahan; Benjamin L. Cassidy, 
assistant to Senator Warner; Dan Twining, assistant to Senator 
McCain; John A. Bonsell, assistant to Senator Inhofe; Robert 
Alan McCurry, assistant to Senator Roberts; Douglas Flanders 
and Lance Landry, assistants to Senator Allard; Arch Galloway 
II, assistant to Senator Sessions; Michael Bopp, assistant to 
Senator Collins; and Derek Maurer, assistant to Senator 
Bunning.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good afternoon, everybody. Our committee 
meets this afternoon to receive testimony from Secretary of 
Defense Donald Rumsfeld and from General Tommy Franks, 
Commander in Chief, U.S. Central Command. The subject is 
Operation Enduring Freedom, the campaign against the al Qaeda 
terrorists and the Taliban regime that harbored them. We 
welcome both of our witnesses to the committee this afternoon. 
We thank you again for your great service to our Nation.
    General Franks testified before the committee on February 
7, 4 months after the commencement of Operation Enduring 
Freedom. We are now more than 9 months into the operation and 
significant changes have taken place on the ground in 
Afghanistan. U.S. and coalition military successes have created 
a situation in which much good has taken place, both for the 
fight against terrorism and for the people of Afghanistan. The 
Taliban has been removed from power. Al Qaeda has lost its safe 
haven. The U.N.-authorized International Security Assistance 
Force has brought a more secure environment to Kabul and 
enabled the meeting there of the emergency Loya Jirga in June, 
which elected President Karzai and a Transitional Authority to 
govern Afghanistan.
    Over 1 million refugees and hundreds of thousands of 
internally displaced persons have returned. Over 3 million 
children have returned to primary school. A poppy eradication 
program is underway with substantial assistance from Great 
Britain. A nationwide vaccination campaign has been launched.
    U.S. and French soldiers have complementary training 
programs for an Afghan army and the first ethnically mixed 
class of 350 enlisted men and 36 officers graduated last week. 
The Germans are training an Afghan police force.
    Despite the battlefield successes and in some cases because 
of them, numerous challenges and problems remain. Remaining 
Taliban and al Qaeda forces have learned to avoid massing their 
forces and now operate in smaller guerrilla-like groups that 
are harder to track and defeat. They also avoid open areas and 
operate out of and intermingle with civilians in towns and 
villages.
    Security outside of Kabul and its environs is lacking, with 
factional fighting between forces loyal to various warlords and 
banditry in rural areas taking their toll on civilians and aid 
agencies. The absence of central government control from these 
areas is discouraging international donors from making badly 
needed investments. Promised aid from the international 
community is slow to arrive and little has been pledged for 
reconstruction.
    Regional warlords are refusing to send customs and taxes 
that they collect to Kabul. The Afghan Vice President for 
transitional assistance has been assassinated and President 
Karzai has dismissed his Afghan bodyguards and replaced them 
with American soldiers. A severe drought continues and, with 
refugees returning in record numbers, a humanitarian crisis may 
be looming this coming winter.
    Finally, there have been several instances in which U.S. 
military action has mistakenly resulted in civilian casualties. 
Various polls and anecdotal evidence point to a resultant loss 
of Afghan public support for U.S. military efforts in 
Afghanistan and an accompanying loss of confidence in the 
government of President Karzai.
    This background raises a number of issues that I hope we 
will be able to explore this afternoon. For example, should we 
heed the advice of U.N. Secretary General Kofi Annan, who 
believes that ``a limited expansion of the International 
Security Assistance Force to areas outside of Kabul would make 
a huge contribution to the consolidation of peace?''
    Should U.S. forces in Afghanistan make a special effort to 
support the government of President Karzai and assist it in 
spreading its control throughout the country?
    Should a method be found, perhaps through the Agency for 
International Development, to provide development assistance to 
those communities that have mistakenly suffered casualties from 
U.S. or coalition military action?
    We all look forward to the testimony of our witnesses this 
afternoon as we seek to explore these issues and other issues 
relating to the road ahead in Afghanistan. We will have a 
closed session immediately following this session in our main 
hearing room, Russell 222. Before we hear, of course, from our 
witnesses, I will turn to Senator Warner for any comments that 
he may wish to make.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman. I join you in 
welcoming these witnesses.
    As you recall, Mr. Chairman, on July 9 of this year, I 
wrote a formal letter to you requesting that this committee 
have this hearing we are now holding today prior to our August 
recess. I ask unanimous consent that my letter be made a part 
of the record.
    Chairman Levin. It will be made part of the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Warner. It has been a number of months, 6 in total, 
since the committee has conducted a hearing on Operation 
Enduring Freedom and operations in and around the AOR of 
Afghanistan. Almost 10 months have passed since our U.S. troops 
and coalition partners began military operations against the 
Taliban and al Qaeda in Afghanistan. I, for one, remain amazed 
at our initial successes in Afghanistan. It is a great credit 
to the leadership given by our President, by our Secretary of 
Defense, by the Chairman of the Joint Chiefs and yourself, 
General, and, most particularly, the men and women of the Armed 
Forces that carried out your orders.
    The American people are very proud of what has been done 
and there is justification for that pride. It has been earned 
through hard work and indeed tragic losses of life and limb. 
Our thoughts and our prayers are with the families of those who 
have suffered, as always has been, the brunt of warfare.
    Mr. Secretary, you were quite prophetic when you warned us 
early that despite the initial successes, this war was far from 
over. Afghanistan remains a very dangerous place. We see the 
manifestation of that warning almost every day. As active 
military operations have become less frequent and peacekeeping 
and nation building efforts have moved to the forefront, it 
becomes more important than ever for Congress and the American 
people to fully understand the military missions and diplomatic 
tasks that remain to be done.
    Again, it is a tribute to the President, to all of you, and 
our men and women in uniform that so much has been accomplished 
in such a short period. The Taliban regime has been defeated 
and dismantled. The al Qaeda terrorist network in Afghanistan 
has been effectively disrupted and its remaining elements are 
on the run. Yet today, we receive reports that there is some 
coalescing of those forces and possibly a designation of new 
leaders. I hope you will touch on that point. A level of peace 
and security is being established that allows humanitarian aid, 
as the Chairman said, to flow.
    By any measure, these operations have been successful. 
However, we must be mindful that much remains to be done. 
Pockets of the Taliban and the al Qaeda resistance continue to 
pose targets and must be rooted out. That is tedious, 
dangerous, and risky work for the U.S. and our allied forces.
    Our allied forces have played a major role in this war, and 
the coalition has been very successful. However, warlords 
continue to menace the countryside outside of Kabul. I still 
call them warlords. Mr. Secretary, you have another name for 
them that you use in your formal statement. But as yet, they 
are not fully committed to the concepts of central government 
and democracy, and that poses a challenge.
    Afghanistan, yes, is now on a path toward democracy with 
the beginnings of a central government. But what military 
missions remain for the United States and the coalition troops? 
Our coalition partners, particularly the Turks, are leading an 
International Security Assistance Force to help maintain order 
and security in and around Kabul. The mandate for this force 
will expire in December of this year. What is the future role 
and scope of this force and, most particularly, U.S. 
responsibilities?
    Our President has committed to help Afghanistan organize 
and train a national police force and an army to ensure 
internal stability and security. That is a good and sound 
decision. But what is the status of this endeavor? What role 
are our coalition partners playing to share the burdens?
    Al Qaeda appears to be on the run from Afghanistan, but 
other nations in the region have harbored or condoned similar 
activities in the past. What is the next step in this global 
war on terrorism?
    The attacks of September 11 introduced this Nation to a new 
era and a new kind of conflict, not against nations with 
standing Armed Forces, but against a worldwide network of 
terrorists who do not observe the commonly accepted laws and 
conventions of the civilized world. Unconventional war, 
asymmetric war, has become the norm. This new era demands 
capabilities that can defend, defeat, and deter both expected 
and unexpected threats.
    All of us have learned many lessons from this conflict. 
General Franks, we look forward to you to talk specifically 
about the lessons learned for today and tomorrow's military.
    Secretary Rumsfeld and President Bush have made it clear 
that transforming our forces to defend America from current and 
emerging threats is their highest priority. This committee has 
worked with you on that. We have a bill in conference now which 
goes a long way to achieve many of those goals. Clearly, 
however, we must continue to learn from these experiences and 
build on our capabilities that have served us as well in this 
operation.
    As our Nation rebuilds and moves forward from that tragic 
day of September 11, it will be remembered as a unifying 
moment. Our Nation is united as I perceive it today in purpose 
and determination as seldom before in our history, perhaps not 
as strongly as since the closing days of World War II. We are 
behind the President, and we are behind the soldiers, the 
sailors, the airmen, and the marines in the front lines.
    As the military effort evolves, we in Congress will do 
everything we can to provide our Armed Forces the resources and 
capabilities they need to win this war and to continue to wage 
the fight on terrorism wherever it is.
    I thank you both for coming today and I look forward to 
hearing your testimony.
    Chairman Levin. Thank you, Senator Warner.
    Before we turn to Secretary Rumsfeld for his opening 
statement, at this time, I insert for the record, without 
objection, the prepared statement of Senator Thurmond. Also at 
this time, the committee will take a brief recess and will 
reconvene shortly.
    [The prepared statement of Senator Thurmond follows:]
              Prepared Statement by Senator Strom Thurmond
    Mr. Chairman, I want to express my appreciation to you and to 
Senator Warner, our Ranking Member, for scheduling this hearing on 
Operation Enduring Freedom. Although the Armed Services Committee has 
received numerous closed briefings on these operations, this is the 
first hearing totally dedicated to our activities in Afghanistan. I 
believe it is important that we air this matter in a public forum and 
that the American people have the opportunity to hear from the most 
senior officials in the Department of Defense in a forum other than the 
daily press briefings.
    Our Nation is blessed to have the most professional soldiers, 
sailors, airmen, and marines in the world. They have displayed that 
professionalism during the past months under the most arduous 
conditions and with great sacrifice. In that regard, I again want to 
express my condolences to the families and friends of the soldiers, 
sailors, and airmen who have been killed or wounded in the war against 
the terrorist forces in Afghanistan and the Philippines. I want them 
all to know how proud I am of their service and sacrifice.
    Mr. Chairman, as President Bush told the Nation, the war against 
terrorism will be long and challenging. It will be fought by small 
special units and out of the glare of the headlines. The past months 
have lived up to that prediction. After the first important victories, 
our forces are now hunting down the terrorist forces on a ``one by 
one'' basis, a process that is trying some of our countrymen's 
patience. I anticipate that the hunt for the terrorist will take longer 
than any of us anticipated and we may not have the absolute victory 
that we all seek. Although defeating terrorism must be our ultimate 
goal, concurrently we must provide an environment in Afghanistan that 
will permit this war torn nation to rebuild its political and economic 
base. If we can dedicate the resources and time to rebuild Bosnia and 
Kosovo, we must be willing to do the same for Afghanistan. I hope that 
both Secretary Rumsfeld and General Franks will focus on this issue 
during their testimony. We have sacrificed too many lives and resources 
in Afghanistan to let the country and its people revert to chaos and 
anarchy.
    Secretary Rumsfeld and General Franks, I look forward to your 
testimony and want to express my appreciation for the job you both are 
doing in leading our forces in this war against terrorism.
    Thank you, Mr. Chairman.

    [Whereupon, at 3:12 p.m., the hearing recessed and the 
committee proceeded to other business; the hearing reconvened 
at 3:20 p.m.]
    Chairman Levin. Mr. Secretary, we turn to you.

   STATEMENT OF HON. DONALD H. RUMSFELD, SECRETARY OF DEFENSE

    Secretary Rumsfeld. Thank you, Mr. Chairman and members of 
the committee. I thank you for this opportunity to update the 
committee on our progress in the war on terrorism. Certainly 
since September 11, when you and Senator Warner arrived at the 
Pentagon, this committee has given its full support to the 
global war on terror, for which we express our appreciation.
    I am very pleased to be here with the combatant commander 
of the U.S. Central Command, General Tommy Franks. He is an 
outstanding soldier, an able leader, and is doing a superb job 
for our country.
    General Franks and I had the pleasure of spending some 
portion of this morning with another outstanding officer who is 
sitting behind General Franks, who was also front and center in 
Afghanistan for a good period. His name is Colonel John 
Mulholland, United States Army, the Fifth Special Forces Group. 
He has been in Washington to brief on lessons learned from the 
activities in which he was involved in Afghanistan and is 
currently stationed back in his home base at Fort Campbell, 
Kentucky.
    Mr. Chairman, I would like to make some brief remarks and 
then have my full remarks put in the record.
    Chairman Levin. They will be made part of the record.
    Secretary Rumsfeld. While we have made good progress, as 
each of you has indicated, in a relatively short period of 
time, it is also true that this war is far from over. We face 
very determined adversaries. They have demonstrated ingenuity, 
a callous disregard for innocent human life, and victory will 
not come easily or quickly. It will require patience of the 
American people at home and the courage of our service men and 
women abroad. Fortunately, patience and courage are virtues 
that our Nation has in abundance, and I have no doubt that we 
will prevail.
    Last fall when President Bush announced the start of the 
war on terrorism, he made clear his determination that 
terrorists that threaten us will find no safe haven, no 
sanctuary, and that their state sponsors will be held 
accountable and made to understand that there is a price to be 
paid for financing, harboring, and otherwise supporting 
terrorists. He issued a worldwide call to arms, inviting all 
freedom-loving nations to join in this fight.
    Mr. Chairman, in the intervening months, the world has 
responded to the President's call. The global coalition that 
President Bush and Secretary Powell assembled comprises today 
some 70 countries. Each is making important contributions to 
the global war on terror. We are now roughly 9 months into the 
war, still closer to the beginning than the end. But while much 
difficult work remains before us, it is worth taking a moment 
to reflect and take stock on just how much U.S. and coalition 
forces have accomplished thus far in reversing the tide of 
terrorism.
    At this time last year, Afghanistan was a pariah state. The 
Taliban regime was in power and brutally repressing the Afghan 
people. Afghanistan was a sanctuary for thousands of foreign 
terrorists who had free range to train, plan, organize, and 
finance attacks on innocent civilians across the globe. A 
humanitarian crisis of considerable proportions loomed. 
Assistance was disrupted, famine was pervasive, and refugees 
were fleeing their country by literally hundreds of thousands.
    Consider just some of the human rights reports which 
detailed conditions in Afghanistan before the arrival of 
coalition forces. Amnesty International's 2001 Human Rights 
Report declared that Afghans suffered pervasive human rights 
abuses, including arbitrary detention and torture. The Taliban 
continued to impose harsh restrictions on personal conduct and 
behavior as a means of enforcing their particular 
interpretation of Islamic law. Young women living in areas 
captured by the Taliban were reportedly abducted by guards and 
taken against their will to Taliban commanders.
    Human Rights Watch's report of 2001 described a situation 
where Taliban forces subjected local civilians to a ruthless 
and systematic policy of collective punishment. There was 
systematic discrimination against women. Violations of a dress 
code could result in public beatings and lashings by the 
religious police, who wield leather batons reinforced with 
metal studs.
    Women were not permitted to work outside the home except in 
health care, and girls over 8 years old were not permitted to 
attend school. All of this was enforced by the so-called 
Ministry for the Promotion of Virtue and Prevention of Vice.
    Mr. Chairman, what a difference a year makes. Today, thanks 
to the coalition efforts and the remarkable courage of our men 
and women in uniform, the Taliban have been driven from power, 
al Qaeda is on the run, and Afghanistan is no longer a base for 
terrorist operations or a breeding ground for radical Islamic 
militancy. The beatings by religious police and executions in 
soccer stadiums have stopped. The humanitarian crisis has been 
averted, international workers are no longer held hostage, aid 
is once again flowing, and the Afghan people have been 
liberated.
    Through the recent Loya Jirga process, the Afghan people 
have exercised their right of self-determination. A new 
president has been selected, a new cabinet has been sworn in, 
and a transitional government representative of the people has 
been established to lead the nation for the next 2 years until 
a constitutional Loya Jirga is held.
    We are working with the new Afghan government to lay the 
foundations for longer term stability and to reverse the 
conditions that allowed terrorist regimes to take root in the 
first place. The U.S. and others are helping to train a new 
Afghan National Army, a force committed not to one group or one 
faction, but to the defense of the entire nation, which we hope 
will allow Afghans to take responsibility for their own 
security rather than relying on foreign forces.
    Last week, the first battalion of more than 300 soldiers 
graduated and there are an additional 600 Afghan soldiers being 
trained in two battalions.
    We also have helped avert a humanitarian catastrophe. The 
U.S. and coalition partners have delivered some 500,000 metric 
tons of food since the start of the war--enough to feed almost 
7 million needy Afghans. Thanks to those efforts, the grim 
predictions of starvation last winter did not come to pass.
    U.S. military-civil affairs teams have dug wells, built 
hospitals, repaired roads, bridges, and irrigation canals. They 
have rebuilt 49 schools in 8 different regions. Thanks to those 
efforts, some 30,000 boys and girls--the hope and future of the 
country--are back in school. One civil affairs team has even 
introduced Afghan children to Little League baseball. Last 
Friday, they held their first game.
    De-mining teams from Norway, Britain, Poland, and Jordan 
have helped clear land mines from hundreds of thousands of 
square meters of terrain. Jordan built a hospital in Mazar-e 
Sharif that has now treated more than 92,000 patients, 
including 22,000 children. Spain and Korea have also built 
hospitals. Japan has pledged $500 million to rehabilitate 
Afghanistan. Russia has cleared out and rebuilt the Salang 
Tunnel, the main artery linking Kabul with the north, allowing 
transportation of thousands of tons of food and medicine and 
supplies.
    With the cooperation of over 80 countries across the globe, 
some 2,400 individuals around the world have been detained and 
interrogated, and over 500 enemy combatants are currently under 
DOD control. I think the number currently is something like 
650. They are being interrogated and they are yielding 
information that is helping to prevent further violence and 
bloodshed.
    For example, with the help of our Pakistani allies, we have 
captured a senior al Qaeda leader who in turn provided 
information that led to the capture of still other senior al 
Qaeda leaders. For every terrorist plot we discover and every 
terrorist cell that is disrupted, there are dozens of others in 
the works. Al Qaeda operated not only in Afghanistan, but in 
more than 60 countries, including the U.S. They have trained 
literally thousands of terrorists who are now at large across 
the globe.
    Moreover, al Qaeda is not the only global network, and 
other terrorist networks have growing relationships with 
terrorist states that harbor and finance them, and may one day 
share weapons of mass destruction with them.
    Our goal in Afghanistan is to ensure that that country does 
not again become a training ground for terrorists. That work 
is, of course, not complete. Taliban and al Qaeda fugitives are 
still at large. Some are in Afghanistan. Others are just across 
the borders, waiting for an opportunity to return. They 
continue to pose a threat.
    These are real challenges, but the security situation, 
while not ideal, is significantly improved from what we found 
on our arrival 9 months ago. The best measure of progress is 
the flow of people. Since January, hundreds of thousands of 
Afghan refugees and internally displaced persons have returned 
to their homes. That is a ringing vote of confidence in the 
progress that is being made in Afghanistan. These people are 
voting with their feet. They are concluding that life is better 
in Afghanistan than it was where they were, and I suspect that 
they are right.
    By making clear from the beginning that this was not a war 
against Islam, by keeping our footprint modest, by partnering 
with Afghan forces that oppose the Taliban and al Qaeda, and by 
demonstrating our concern for the welfare of the Afghan people 
through the delivery of humanitarian relief from the very first 
days of the war, we showed the Afghan people that we were 
coming as a force of liberation, not a force of occupation. In 
most of the country, coalition forces have been welcomed as 
liberators.
    Understandably, our military mission has changed and 
evolved. Some forces are now rotating out of Afghanistan. This 
should not be taken as a sign that the effort in Afghanistan is 
wrapping up. It is not. To the contrary, in recent weeks, 
Turkey has increased its Afghan presence by sending over 1,300 
troops to Kabul to assume leadership of the International 
Security Assistance Force. Norway, Denmark, and the Netherlands 
will soon deploy F-16 fighters to Kyrgystan--that is 
Kyrgystan--which it was misquoted the other day and caused a 
little stir in Kurdistan--and they are going to be there for 
air operations.
    Romania has deployed an infantry battalion to Afghanistan 
and has offered an infantry mountain company, a nuclear, 
biological, and chemical weapons response company, and four 
MiG-21 fighters. Slovakia will soon deploy an engineering unit. 
Special operations forces from Canada, Germany, Australia, and 
other nations continue to work with U.S. Special Forces teams 
on the ground, combing through caves searching for Taliban and 
al Qaeda fugitives, and gathering critical intelligence 
information. They are also creating a presence with the 
regional political leaders, or warlords as some people call 
them, which is contributing to a considerably more stable 
situation in that country because of their presence.
    Moreover, our hunt for terrorist networks is not limited to 
Afghanistan. The war on terrorism is a global campaign against 
a global adversary--indeed, adversaries, plural. We learned on 
September 11 that in a world of international finance, 
communication, and transportation, even relatively isolated 
individuals and organizations can have global reach and the 
ability to bring unprecedented destruction on innocent 
civilians.
    The challenge for us is to find a way to live in that 21st 
century world as free people. Let there be no doubt we can do 
so, but it requires new ways of thinking, new ways of fighting, 
and new strategies for defending our people and our way of 
life.
    The war on terrorism began in Afghanistan, to be sure, but 
it will not end there. It will not end until terrorist networks 
have been rooted out. It will not end until the state sponsors 
of terror are made to understand that aiding, abetting, and 
harboring terrorists has deadly consequences for those who do 
so. It will not end until those developing nuclear, chemical, 
and biological weapons end their threats to innocent men, 
women, and children. It will not end until our people and the 
people of the world's free nations can once again live in 
peace, free from fear.
    Mr. Chairman, that completes my statement. I would like to 
submit my written statement and these maps for the record.
    [The prepared statement of Secretary Rumsfeld follows:]
             Prepared Statement by Hon. Donald H. Rumsfeld
    Mr. Chairman, members of the committee. I apologize for the 
distraction of having to hold my hand in the air, but the surgeon tells 
me that I need to keep it above my heart for several more weeks.
    Thank you for this opportunity to update the committee on our 
progress in the war on terror.
    While we have made good progress in a relatively short period of 
time, let there be no doubt: this war is far from over. The road ahead 
will be difficult and dangerous. We face determined adversaries. They 
have demonstrated ingenuity and a callous disregard for innocent human 
life. Victory will not come easily or quickly--it will require patience 
from Americans at home, and the courage of our service men and women 
abroad. Fortunately, patience and courage are virtues our Nation has in 
abundance. I have no doubt that we will prevail.
    Last fall, when President Bush announced the start of the war on 
terrorism, he declared war not just on the perpetrators of the deadly 
attacks of September 11, but against all terrorists of global reach, 
their organizations and sponsors.
    He made clear his determination that terrorists that threaten us 
will find no safe haven, no sanctuary, anywhere--and that their state 
sponsors will be held accountable and made to understand there is a 
heavy price to be paid for financing, harboring, or otherwise 
supporting terrorists. He issued a worldwide call to arms, inviting all 
freedom-loving nations to join us in this fight.
    Mr. Chairman, in the intervening months, the world has responded to 
the President's call. The global coalition President Bush assembled 
comprises some 70 nations. They are helping in many different ways. 
Most are sharing intelligence. Many are seizing terrorist assets or 
breaking up terrorist cells on their territory. Others are providing 
airlift, basing, over-flight and refueling, or are contributing air, 
sea and ground forces, combat air patrols, mine clearing, and special 
operations. Some are helping quietly, others openly. But each is making 
important contributions to the global war on terror.
    We are now roughly 9 months into this war, still closer to the 
beginning than to the end. But while much difficult work remains before 
us, it is worth taking a moment to reflect and take stock of just how 
much U.S. and coalition forces have accomplished thus far in reversing 
the tide of terrorism.
    At this time last year, Afghanistan was a pariah state. The Taliban 
regime was in power and brutally repressed the Afghan people. The 
country was a sanctuary for thousands of foreign terrorists, who had 
free range to train, plan and organize attacks on innocent civilians 
across the globe. There was harsh repressive rule. The economy and 
banking sector were in a state of collapse, and the country was 
financially dependent on terrorist networks and overseas Islamic 
extremist elements. A humanitarian crisis of considerable proportions 
loomed. Humanitarian assistance was disrupted, famine was pervasive, 
and refugees were fleeing the country by the hundreds of thousands.
    Consider just some of the human rights reports which detailed 
conditions in Afghanistan before the arrival of coalition forces:
    According to the State Department's February 2001 Human Rights 
Report, ``The Taliban continued to commit numerous, serious and 
systemic abuses. Citizens were unable to change their government or 
choose their leaders peacefully. The Taliban carried out summary 
justice . . . and . . . were responsible for political and other extra-
judicial killings, including targeted killings, summary executions, and 
deaths in custody. . . . Women and girls were subjected to rape, 
kidnapping, and forced marriage.''
    Amnesty International's 2001 Human Rights Report declared that 
Afghans suffered pervasive ``human rights abuses, including arbitrary 
detention and torture. . . . The Taliban continued to impose harsh 
restrictions on personal conduct and behavior as a means of enforcing 
their particular interpretation of Islamic law. . . . Young women 
living in areas captured by the Taliban . . . were reportedly abducted 
by guards and taken against their will as `wives' for Taliban 
commanders.''
    Human Rights Watch's report for 2001 described a situation where 
``Taliban forces subjected local civilians to a ruthless and systematic 
policy of collective punishment. Summary executions, the deliberate 
destruction of homes, and confiscation of farmland were recurrent 
practices in these campaigns.'' There was ``systematic discrimination 
against women. . . . Violations of the dress code . . . could result in 
public beatings and lashing by the Religious Police, who wielded 
leather batons reinforced with metal studs. Women were not permitted to 
work outside the home except in the area of health care, and girls over 
8 years old were not permitted to attend school. The decrees 
contributed to an illiteracy level for women of over 90 percent.'' All 
of this enforced by the so-called Minister for the Promotion of Virtue 
and the Prevention of Vice.
    Human Right Watch also reported widespread ``harassment of 
international aid agency staff,'' who were in some cases taken hostage. 
According to the State Department report, in August 2001 ``the Taliban 
arrested eight foreign aid workers affiliated with an NGO on charges of 
proselytizing. An estimated 48 Afghan employees of the NGO also were 
arrested and reportedly also charged with apostasy. . . . The Taliban 
reportedly stated that 59 children who had been taught by the arrested 
workers were sent to a correctional facility.''
    Mr. Chairman, what a difference a year makes.
    Today, thanks to coalition efforts--and the remarkable courage of 
our men and women in uniform--the Taliban have been driven from power, 
al Qaeda is on the run, Afghanistan is no longer a base of global 
terrorist operations or a breeding ground for radical Islamic 
militancy, the beatings by religious police and executions in soccer 
stadiums have stopped, the humanitarian crisis has been averted, 
international workers are no longer held hostage, aid is once again 
flowing, and the Afghan people have been liberated. Afghanistan is a 
free nation, where aid workers can provide humanitarian aid, girls can 
study, women can work, the people can choose their leaders peacefully 
and refugees can return.
    Through the recent Loya Jirga process, the Afghan people have 
exercised their right of self-determination. More than 1,500 delegates 
from all 32 provinces and all ethnic backgrounds came together under 
one roof to chart their nation's political future. A new president has 
been selected, a new cabinet has been sworn in, a transitional 
government representative of the Afghan people has been established to 
lead the nation for the next 2 years until a constitutional Loya Jirga 
is held.
    The new Afghan government is still in its early stages, and it 
doesn't yet have the institutions of government to direct, such as 
internal security, tax collection and the like. But it has begun the 
process of working to develop the banking sector, tax laws, and a new 
currency. New trade and commercial investment policies are also being 
put in place, with the aim of building foreign investor confidence. A 
corps of civil servants is being established, with pay under U.N. 
supervision, and ministries are beginning to function. The judicial 
system is being reformed, so that rule of law can take root. A growing 
civil society is emerging, with open political discourse and an 
emerging free press. We're fortunate that their leadership is taking 
seriously the challenge of self-government.
    With self-government must eventually come self-sufficiency--and 
that self-sufficiency must, over time, also extend to security. That is 
why we are working with the new Afghan government to lay the 
foundations for longer-term stability and to reverse the conditions 
that allowed terrorist regimes to take root in the first place. The 
U.S. and others are helping to train a new Afghan National Army--a 
force committed not to one group or faction but to the defense of the 
entire nation, which we hope will allow Afghans to take responsibility 
for their own security rather than relying on foreign forces. Last 
week, the 1st Battalion of more than 300 soldiers graduated, and there 
are an additional 600 Afghan soldiers being trained in two battalions. 
In all, we expect to train 18 battalions--over 10,000 soldiers--by the 
end of 2003. We are also ``training the trainers'' so that the process 
can eventually become self-sustaining. Already some 38 countries have 
offered weapons, equipment, funds or support for this effort.
    We have also helped to avert a humanitarian catastrophe in 
Afghanistan. The U.S. and coalition partners have delivered over 
500,000 metric tons of food since the start of the war--enough to feed 
almost 7 million needy Afghans. Thanks to those efforts, the grim 
predictions of starvation last winter did not come to pass. Today, the 
United States is providing over $450 million in humanitarian assistance 
for the Afghan people.
    The Department of Defense has allotted $10 million to dozens of 
humanitarian projects throughout Afghanistan. U.S. military civil 
affairs teams have dug wells, built hospitals, and repaired roads, 
bridges and irrigation canals. We have rebuilt 49 schools in eight 
different regions. Thanks to those efforts, some 30,000 boys and 
girls--the hope and future of Afghanistan--are back in school. One 
civil affairs team has even introduced Afghan kids to Little League 
baseball. They organized two teams, which have been practicing twice a 
week for the past several weeks using donated baseball supplies. Last 
Friday, they held Afghanistan's first Little League game.
    It must be emphasized that coalition partners are making important 
contributions. De-mining teams from Norway, Britain, Poland and Jordan 
have helped clear land mines from hundreds of thousands of square 
meters of terrain, although there are still an enormous number of land 
mines in that country. Jordan built a hospital in Mazar-e Sharif that 
has now treated more than 92,000 patients, including 22,000 children. 
Spain and Korea have also built hospitals, and Japan has pledged $500 
million to rehabilitate Afghanistan. Russia has cleared out and rebuilt 
the Salang Tunnel, the main artery linking Kabul with the North, 
allowing transportation of thousands of tons of food, medicine and 
supplies.
    With the cooperation of over 90 countries, some 2,400 individuals 
around the world have been detained and interviewed, and over 500 enemy 
combatants are currently under DOD control. They are being 
interrogated, and are yielding information that is helping to prevent 
further violence and bloodshed.
    For example, with the help of our Pakistani allies, we captured a 
senior al Qaeda leader, Abu Zubaydah, who in turn provided information 
that led to the capture of others such as Jose Padilla--an American al 
Qaeda operative.
    Al Qaeda forces left behind valuable intelligence information--
computer hard drives, diskettes, laptops, videos, notebooks with 
information--that has given us insight into their capabilities, how 
they operate, and in some cases actionable intelligence about planned 
terrorist operations. For example, videotapes found in an al Qaeda safe 
house in Afghanistan revealed detailed plans of a plot to strike U.S. 
targets in Singapore. Working with Singapore authorities, that al Qaeda 
cell was broken up and their planned attack disrupted.
    These successes must not lull us into complacency. For every 
terrorist plot we discover and every terrorist cell we disrupt, there 
are dozens of others in the works. Al Qaeda operates not only in 
Afghanistan, but in more than 60 countries including the U.S. 
Undoubtedly, coalition efforts have made recruitment harder, planning 
harder, and moving between countries harder. But they have trained 
literally thousands of terrorists who are now at large across the 
globe. These ``sleeper'' cells undoubtedly have plans for further 
attacks. They had raised a good deal of money, and they still have 
financial backers giving them money.
    Moreover, al Qaeda is not the only global terrorist network. 
Terrorist networks have growing relationships with terrorist states 
that harbor and finance them--and may one day share weapons of mass 
destruction with them. What this means is that Afghanistan is only the 
first stage in a long, difficult, and dangerous war on terrorism.
    Our goal in Afghanistan is to ensure that that country does not, 
again, become a terrorist training ground. That work is, of course, by 
no means complete. Taliban and al Qaeda fugitives are still at large--
some are in Afghanistan, others fled across the borders waiting for the 
opportunity to return. They continue to pose a threat. In recent weeks, 
coalition forces have come under attack again in Kandahar and Oruzgan, 
and Pakistani forces have engaged al Qaeda in a number of firefights, 
reminders of the dangers that continue to exist.
    Moreover, there are still ethnic tensions within Afghanistan, and 
Afghanistan is still highly dependent on foreign assistance--both 
financial aid and humanitarian relief. The country lacks agricultural 
self-sufficiency, there are periodic outbreaks of cholera and 
dysentery, and a high infant mortality rate due to poor hygiene and 
inadequate medical services.
    These are real challenges. But two things should be clear: One, 
Afghanistan is clearly a much better place to live today than it was a 
year ago. Two, the United States and its international partners are 
making a maximum effort to assist Afghanistan's new government in 
economic, humanitarian, security, and other fields.
    Afghan leaders coming to Washington all attest that the security 
picture in the country is sound. The Taliban have so far failed to 
mount their often-predicted spring offensive. Despite numerous threats, 
the Loya Jirga convened with no serious security incidents. Conflicts 
among regional commanders have been dampened--often by discreet U.S. 
influence exerted by our personnel. The security situation, while not 
ideal, is significantly improved from what we found on our arrival 9 
months ago, when the Taliban controlled and oppressed 90 percent of the 
country.
    The best measure of progress is the flow of people. Before the war 
began, thousands upon thousands of refugees and internally displaced 
persons had fled their homes to escape Taliban repression. Since 
January, hundreds of thousands of Afghan refugees and internally 
displaced persons have returned to their homes. The Afghan people are 
voting with their feet. They're coming back to their homes. That is a 
ringing vote of confidence in the progress that's being made in 
Afghanistan.
    With the removal of the Taliban regime, and the efforts to break up 
large pockets of al Qaeda as they tried to regroup, coalition efforts 
in Afghanistan are now focused mostly on smaller operations--cave-by-
cave searches, sweeps for arms, intelligence, and smaller pockets of 
terrorists as they have dispersed. Indeed, the humanitarian effort I 
have described has been of invaluable assistance to us in these 
operations.
    By making clear from the beginning that this was not a war against 
Islam, by keeping our footprint modest and partnering with Afghan 
forces that opposed the Taliban and al Qaeda, and by demonstrating our 
concern for the welfare of the Afghan people through the delivery of 
humanitarian relief from the first days of the war, we showed the 
Afghan people that we were coming as a force of liberation, not a force 
of occupation.
    In fact, out of 32 provinces in Afghanistan, our forces have 
experienced harassment attacks in only a few provinces--in the former 
Taliban strongholds of southern and eastern Afghanistan. In most of the 
country coalition forces have been welcomed as liberators.
    That, in turn, has paid dividends in the hunt for Taliban and al 
Qaeda. For example, we have been finding additional caches of weapons 
several times a week, not because we're clever or stumbled on them, but 
because local Afghans have come to us and told us where those caches 
are located. They are leading U.S. Special Forces and military 
personnel to those caches, so that they can be gathered up and either 
destroyed or provided to the new Afghan National Army. This too is a 
vote of confidence in coalition efforts.
    Understandably, as our military mission has changed and evolved, 
some forces are now rotating out of Afghanistan, including from the 
U.K. and Canada--even as they continue to play a critical role 
elsewhere in the world. This should not be taken as a sign that the 
effort in Afghanistan is wrapping up. To the contrary, in recent weeks:

        <bullet> Turkey has increased its Afghan presence, sending over 
        1,300 troops to Kabul to assume leadership of the International 
        Security Assistance Force.
        <bullet> Norway, Denmark and the Netherlands will soon deploy 
        F-16 fighters to Kyrgyzstan for air operations over 
        Afghanistan.
        <bullet> Romania has deployed an infantry battalion to 
        Afghanistan and has offered an infantry mountain company, a 
        nuclear, biological and chemical response company and four MiG-
        21 fighters, and Slovakia will soon deploy an engineering unit.
        <bullet> Special Operation forces from Canada, Germany, 
        Australia and other nations continue to work with U.S. Special 
        Forces teams on the ground, combing through the caves, 
        searching for Taliban and al Qaeda fugitives, gathering 
        critical intelligence information.

    Moreover, our hunt for terrorist networks is not limited to 
Afghanistan. At this moment, planes and ships from Australia, Bahrain, 
Canada, France, Germany, Greece, Italy, Japan, the Netherlands, Spain, 
the U.K. and others patrol the seas and skies in distant corners of the 
globe, conducting aerial surveillance, leadership interdiction and 
maritime interception operations. France and Italy have both deployed 
their carrier battle groups to support Operation Enduring Freedom. 
Germany has taken a leadership role with surface naval forces operating 
around the Horn of Africa. Intelligence and law enforcement agencies 
from dozens of countries are helping to seize terrorist assets, freeze 
their bank accounts, close front companies, and disrupt terrorist cells 
as they plan future attacks. Significant arrests have been made on many 
continents, from Europe to Southeast Asia.
    The war on terrorism is a global campaign against a global 
adversary. We learned on September 11 that in a world of international 
finance, communications, and transportation, even relatively isolated 
individuals or organizations can have global reach--and the ability to 
cause unprecedented destruction on innocent civilians.
    The challenge for us is to find a way to live in that 21st century 
world as free people. Let there be no doubt: we can do so. But it 
requires new ways of thinking, new ways of fighting, and new strategies 
for defending our people and our way of life.
    In the war on terror, an enormous advantage accrues to the 
attacker. A terrorist can strike at any place, at any time, using any 
conceivable technique. It is physically impossible to defend our people 
in every place, at every time, against every conceivable technique. So 
the only way to deal with that threat is to take the war to the 
terrorists--to go after them where they are, and kill them, capture 
them or otherwise disrupt them. As the President has said, ``the first 
and best way to secure America's homeland is to attack the enemy where 
he hides and plans.'' This is what we have done, and are doing.
    The war on terrorism began in Afghanistan, to be sure, but it will 
not end there. It will not end until terrorist networks have been 
rooted out, wherever they exist. It will not end until the state 
sponsors of terror are made to understand that aiding, abetting and 
harboring terrorists has deadly consequences for those that try it. It 
will not end until those developing nuclear, chemical and biological 
weapons end their threat to innocent men, women and children.
    It will not end until our people--and the people of the world's 
free nations--can once again live in peace and free from fear.
    Mr. Chairman, I will be happy to take your questions.
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      

    Chairman Levin. Thank you, Mr. Secretary.
    General Franks.

  STATEMENT OF GEN. TOMMY R. FRANKS, USA, COMMANDER IN CHIEF, 
                 UNITED STATES CENTRAL COMMAND

    General Franks. Mr. Chairman, Senator Warner, and members 
of the committee: I am honored to be here today with Secretary 
Rumsfeld. I would ask that my statement be entered into the 
record and I will provide brief verbal remarks.
    Chairman Levin. It will be made part of the record.
    General Franks. I am honored to be here before the 
committee today. I have in fact looked forward to this session 
as an opportunity to highlight the extraordinary achievements 
by more than 71,000 U.S. and coalition troops currently under 
my command. In fact, that coalition is carrying the fight to 
the enemy as described by the Secretary. Their courage, 
tenacity, and professionalism inspire me every day and are 
certainly a source of great pride to the American people.
    When I last appeared before the committee on February 7 of 
this year, I told you that our successes represented but first 
steps in what would certainly be a long campaign, and that 
remains the case. Our focus was on removing the Taliban from 
power and destroying the al Qaeda network within Afghanistan. 
Now the Taliban has, in fact, been destroyed in Afghanistan, 
and we continue to locate and engage remaining pockets of 
terrorists and their supporters to improve security and 
stability of the emerging Afghan nation.
    Over the past 6 months, Mr. Chairman, the coalition has 
grown steadily from 50 nations to, as the Secretary said, 70 
nations today. 40 of our coalition partners are currently 
engaged in and around Afghanistan in support of our operations 
and 24 nations have forces located inside Afghanistan as we 
speak.
    Successes up to this point are attributable to the will of 
this country and to each of the coalition members--a will which 
I believe has been grossly underestimated by the terrorist 
organizations which threaten us still. The Taliban, as I 
mentioned, is gone. Al Qaeda's senior leadership is in 
disarray. Many of their planners, travel facilitators, and 
logisticians are now dead or captured. Their training 
facilities in Afghanistan were destroyed. Command and control 
capabilities were disrupted and their remaining leaders are, as 
the Secretary said, on the run.
    However, al Qaeda has not lost its will to conceive, to 
plan, and to execute terrorist operations worldwide. It is the 
relentless pressure provided by our military, the militaries of 
the coalition, and financial and diplomatic efforts over the 
past 10 months that have prevented al Qaeda from sustaining its 
pre-September 11 capacity.
    In the month of March, U.S. and coalition, as well as 
Afghan military forces, conducted the largest combat operation 
to date in Afghanistan. That was Operation Anaconda. It 
resulted in the elimination of the Shahi-Khot and Chumarra 
Valleys as sanctuaries for concentrations of al Qaeda. 
Operation Anaconda was a major success. A significant enemy 
pocket was destroyed, and notice was served by that operation 
that terrorists would have no safe harbor in Afghanistan.
    Our efforts are now aimed at an operation we call Mountain 
Lion. More than 300 weapon and ammunition caches have been 
located and destroyed since January 1 this year during that 
operation. An exceptionally encouraging trend is that over the 
past 2 months, 159 of those caches were identified to us by 
local Afghan people in the country.
    As we led up to June's Loya Jirga, as described by the 
Secretary, we made the decision to put a combined joint task 
force, which we call CJTF-180, forward in Afghanistan commanded 
by a three-star, a lieutenant general. This task force gives us 
a single joint command responsible to me and to the Secretary 
for all military functions in the country. It establishes a 
full-time senior presence. That commander on the ground 
developed very close personal and professional relationships 
with Afghan military and political leaders, as well as senior 
members of the Afghan transitional authority.
    As the Secretary mentioned, we are now training the Afghan 
National Army. On the 23rd of this month, the first battalion 
of our 300 graduated soldiers. It was multi-ethnic. It was the 
first battalion of its type in that country and, interestingly, 
it was flanked on either side by two additional battalions 
currently in training. For the first time in decades, the 
beginnings of a professional, representative military force are 
striving to form themselves to serve the people of Afghanistan.
    Another vital factor contributing to stability within 
Afghanistan has been and remains the International Security 
Assistance Force. This force, initially headed by the United 
Kingdom and now by Turkey, served to provide an environment 
within Kabul wherein the Loya Jirga process could not only take 
root, but could provide for the first elections held inside 
Afghanistan in a long time. The contributions of this 
International Security Assistance Force have been--and they 
will continue to be--important to the Afghan people during the 
current period of transition.
    With the establishment of the most secure environment 
Afghanistan has seen in more than 20 years, we were able to 
effectively begin civil-military operations. Since March our 
combined military task force that works with civil affairs 
operations has deployed teams throughout Afghanistan and worked 
with literally hundreds of non-governmental organizations as 
they do the work, as they provide the humanitarian materials, 
help provide the education system, repair agricultural 
infrastructure, and provide water to the people. They have 
identified 89 major humanitarian projects, 43 of which have 
been completed.
    As the Secretary says, what we have seen is that more than 
600,000 internally displaced persons and more than 1.3 million 
refugees have returned to their homes. People vote with their 
feet.
    While the return of this many Afghans to their homes will 
certainly stress the infrastructure as it has been destroyed in 
that country over the last 20-plus years, it represents 
something else. It represents the desire of the people of that 
country to reclaim their heritage and build for the future.
    Now, we intend to capitalize on the successes that I have 
described up to this point. In order to do that, our efforts 
are going to remain focused on the eradication of the terrorist 
networks that exist within Afghanistan, the charter given to us 
by the Secretary and by our President.
    The reason that we continue to do that is because one part 
of our effort is designed to be sure that we do not permit an 
environment to be created where terrorism can be reintroduced 
into Afghanistan. With that in mind, U.S. and coalition forces 
have screened more than 7,500 people detained inside 
Afghanistan. More than 3,500 interrogations have been conducted 
on 2,200 individuals.
    The Secretary mentioned the number of detainees that we 
currently hold. I would also mention that those detainees 
represent 44 different nations. 16,000 documents were screened. 
12,000 of those were added to our database. Recruitment methods 
for al Qaeda were identified. Suspected members were taken care 
of as described by the Secretary. Weapons caches throughout 
Afghanistan were located.
    Now, having said that and having described our success 
given the list that I just described, we recognize that the 
Afghan battlefield remains a very complex and a very dangerous 
place. In some areas, small numbers of remaining enemy troops 
have blended in with sympathetic segments of the civilian 
population. Tribal and ethnic and cultural conflicts, driven in 
some cases by traditional rivalries going back a long time, 
continue to lead to factional clashes, and these incidents 
threaten stability and provide challenges to our coalition 
forces who are doing the hard work.
    Distinguishing between friend and foe remains a very 
difficult task in such a complex environment. We will continue 
to refine our tactics, our techniques, our procedures, and our 
approaches as we move forward. As I said, we have a lot of 
awfully hard work left to do to finish the enemy in 
Afghanistan.
    As I close, I would like to make clear that we all 
recognize that we have a great deal of work left to do. While 
U.S. and coalition forces have done a lot in the past 10 
months, the potential for terrorist attacks and for setbacks 
inside Afghanistan remains very real. Afghanistan is rising 
from oppression of the Taliban into an independent, democratic 
nation. I am optimistic about that future, but I am also 
pragmatic.
    I am very proud of each and every one of the men and women 
who serve this country and the coalition countries represented 
in our efforts. They serve selflessly and tirelessly in the 
execution of the mission regardless of the uniform of their 
service or the nation from which they come. As we speak today, 
they are hard at work inside Afghanistan. Inside that dangerous 
environment, they are performing remarkably.
    Mr. Chairman, I thank Congress and the American people for 
the tremendous support that you have given our soldiers, 
sailors, airmen, marines, and the coalition I have described. 
Thank you.
    [The prepared statement of General Franks follows:]
            Prepared Statement by Gen. Tommy R. Franks, USA
    Mr. Chairman, Senator Warner, and members of the committee, I am 
honored to appear before you today. I have looked forward to this 
session as an opportunity to highlight the extraordinary achievements 
of the 71,000 U.S. and coalition troops I am privileged to command. The 
servicemen and women of Central Command and the coalition are carrying 
the fight to the enemy. Their record of courage, tenacity, and 
professionalism inspires me every day, and is a source of great pride 
for the American people.
    I would like to begin by recognizing the coalition nations whose 
contributions of forces, equipment, and economic support to the Central 
Region signal worldwide determination to eradicate terrorism. Of 
course, our success to date would not have been possible without the 
determination and will of the Afghan people who are beginning to 
experience the blessings of democracy and freedom.
    When I last appeared before the committee on February 7, 2002, I 
told you our successes to date represented the first steps in what 
would be a long campaign to defeat terrorism. Our focus was on removing 
the Taliban from power and destroying the al Qaeda network within 
Afghanistan. Now that the Taliban has been destroyed, we continue to 
locate and engage remaining pockets of terrorists and their supporters 
to improve the security and stability of the emerging Afghan nation.
    Over the past 6 months, the coalition has grown steadily from 50 
nations in February to 70 today; 37 coalition nations are represented 
at our headquarters in Tampa and in the Central Region, and 15 nations 
have forces in Afghanistan.
    Operational success to this point is directly attributable to the 
will of our country and each coalition member--a will which I believe 
has been grossly underestimated by the terrorist organizations which 
threaten us. The Taliban has been removed from power. Al Qaeda senior 
leadership is in disarray. Many of their planners, travel facilitators, 
and logisticians are now dead or captured. Their training facilities in 
Afghanistan have been destroyed, command and control capabilities have 
been disrupted, and their remaining leaders are on the run. However, al 
Qaeda has not lost its will to conceive, plan and execute terrorist 
operations world-wide. It is the relentless pressure of military, 
financial, and diplomatic efforts over the last 10 months that have 
prevented the al Qaeda from sustaining its pre-September 11 capacity.
    Our coalition partners will remain key to our operations. Their 
contributions have included ground, air, naval, and special operations 
forces along with logistics support, humanitarian assistance, and 
basing. We are continuing to cycle these forces in and out as coalition 
countries remain committed to our efforts. For example, a Romanian 
infantry battalion recently replaced the Canadian light infantry and 
began combat operations a little over a week ago.
    Since February, U.S. and coalition air forces have flown more than 
36,000 sorties in support of Operation Enduring Freedom. Twenty-one 
thousand of these sorties were flown over Afghanistan with more than 
6,000 being strike sorties. Coalition air forces have provided fighter 
and attack aircraft to support ground operations, tanker and 
surveillance aircraft, and vital inter- and intra-theater airlift.
    Neighboring countries, Kyrgyzstan and Uzbekistan, have provided 
critical basing for coalition aircraft. Uzbekistan continues to 
facilitate the safe flow of humanitarian assistance to the Afghan 
people across the Friendship Bridge, while Kyrgyzstan hosts a coalition 
air hub and supports the use of its road and rail infrastructure for 
humanitarian assistance shipments into Afghanistan. This is testament 
to the relationships and military-to-military contacts we have built 
over the years, but more so a testament to the will of these countries 
to eradicate terrorism.
    It doesn't end there. Naval forces from the United States and 11 
coalition countries continue to support ground operations and conduct 
leadership interdiction operations. We have queried more than 16,000 
vessels and boarded approximately 200 since November 2001. France alone 
has deployed fully one-quarter of its fleet in direct support of 
Operation Enduring Freedom. Terrorists cannot hide. We will find them 
regardless of the methods or environments they use to spread and 
support their networks. We continue to use every legal means to 
eliminate their operations.
    Other examples of invaluable coalition contributions include Norway 
providing 21 hardened vehicles valued at $2.1 million for our special 
operations forces; the Czech Republic deploying a consequence 
management team to Kuwait; and Spain sending helicopters to Kyrgyzstan. 
Germany is leading the training of Afghan police forces and Italy is 
engaged in rebuilding the judiciary.
    Coalition forces have also provided equipment and personnel to 
clear mines in Afghanistan. British, Jordanian, Norwegian, and Polish 
engineers have accomplished the dangerous work of methodically clearing 
in excess of 1.7 million square meters of terrain. Among the many 
countries that stand with us, Pakistan deserves special mention because 
its cooperation and support have been critical to our success. U.S. and 
coalition aircraft have been granted use of Pakistani airspace and 
authority for the movement of logistics by sea and land routes. 
Pakistan Army operations in the Northwest Frontier Provinces, in 
coordination with coalition operations along the Afghan border, have 
maintained the pressure on al Qaeda. These operations have not been 
without cost to the people of Pakistan. While the Pakistan Army has 
killed and captured hundreds of former Taliban and al Qaeda fighters, 
they have had a number of their own troops killed by terrorist forces. 
Pakistan and its leadership continue to evidence exceptional resolve.
    Two recent examples of successful combined operations, resulting in 
the detention of four suspected al Qaeda members, exemplify the success 
of forces acting together. On July 13, and 17, as the result of 
intercepts received by navy vessels and aircraft from Canada, France, 
Italy and the Netherlands, two boats were targeted, intercepted, and 
boarded in the Gulf of Oman. On each boat, two men matching 
descriptions contained in our terrorist database were captured and 
transported to our detainee facility in Bagram.
    In the month of March, U.S., coalition, and Afghan military forces 
conducted the largest combat operation in Afghanistan to date--
Operation Anaconda. It resulted in the elimination of the Shahi-Khot 
and Chumarra Valleys as sanctuaries for concentrations of al Qaeda and 
Taliban. Operation Anaconda was a major success; a significant enemy 
pocket was destroyed, and notice was served to terrorists that there 
would be no safe harbor in Afghanistan.
    United States and coalition conventional and special operations 
forces are currently conducting Operation Mountain Lion. More than 300 
weapon and ammunition caches have been located and destroyed since 
January 1, 2002. An exceptionally encouraging trend is that 159 of 
these caches were identified to coalition forces by local Afghans in 
just the past 60 days. Our operations demonstrate to terrorists and 
terrorist sympathizers that they have nowhere to hide. We will continue 
Operation Mountain Lion to root out remaining terrorists as long as it 
takes.
    As we led up to the June Loya Jirga, the XVIII Airborne Corps was 
designated Combined Joint Task Force 180 (CJTF-180) and was deployed to 
Afghanistan. This task force gives us a single joint command 
responsible for military functions in the country, and establishes 
full-time, senior command presence forward on the ground. Through 
routine and frequent contact, the commander has developed close 
professional relationships with Afghan military and political leaders 
and senior members of the Afghan Transitional Authority.
    We are now also training the Afghan National Army and Border 
Security Forces. On July 23, the first U.S.-trained, multi-ethnic 
Afghan battalion stood proudly on the graduation parade field flanked 
on either side by two more battalions currently in training, one being 
trained by our French Partners. For the first time in decades, we see 
the beginnings of a professional, representative military force ready 
to serve the people of Afghanistan.
    While this in itself represents a remarkable achievement, building 
the Afghan National Army will require a long-term commitment, focusing 
on the establishment of the Central Kabul Corps over the next 2 years. 
In concert with the central government, we are developing a master plan 
to map the way ahead for a trained, supportable national army, 
responsive to the central government and capable of securing Afghan 
borders and stabilizing the interior.
    Another vital factor contributing to the stability of Afghanistan 
is the International Security Assistance Force (ISAF) in Kabul. This 
force, initially led by the United Kingdom, and now by Turkey, served 
as guarantor of an environment in which the Loya Jirga was safely 
conducted. This historic event occurred without significant incident, 
and on June 19, the first ``election'' in Afghanistan since 1963 was 
concluded. The contributions of ISAF have been, and will continue to 
be, important to the Afghan people during the current period of 
transition.
    Choosing Hamid Karzai as President and confirming his selection of 
cabinet ministers, the Loya Jirga was comprised of women, nomads, 
internally displaced persons, refugees, Islamic clerics, professionals, 
and all major ethnic and tribal groups. Selecting the transitional 
government, however, was only a first step. Afghanistan will require 
continuing robust international assistance to build an enhanced 
security environment in which the Afghan government can mature.
    With the establishment of the most secure environment Afghanistan 
has experienced in more than 20 years, we are now able to effectively 
conduct civil-military operations and provide humanitarian assistance 
across most of the country. Since March, our Combined Joint Civil-
Military Operations Task Force (CJCMOTF) has deployed teams throughout 
Afghanistan and has coordinated with literally hundreds of governmental 
agencies and non-governmental organizations to deliver humanitarian 
materials, help revive the education system, repair agricultural 
infrastructure, and provide potable drinking water. We have identified 
89 humanitarian projects, including reconstruction of 49 schools, 15 
medical facilities, and 12 drinking-water wells. To date, 43 of these 
projects have been completed at a cost of $4.5 million. Many of these 
efforts have helped facilitate the return of 614,000 internally 
displaced persons and 1.3 million refugees to their homes. As Secretary 
Rumsfeld has said on numerous occasions, ``people vote with their 
feet.'' While the return of so many Afghans to their homes will 
certainly stress existing infrastructure, it represents the desire of 
the people to reclaim their heritage and build for the future. The 
coalition continues to help. Jordanian, Korean and Spanish field 
hospitals have treated more than 100,000 Afghan civilians, the majority 
of whom have been women and children. Such efforts give the Afghan 
people hope, and help provide an environment in which that hope can 
flourish.
    We intend to capitalize upon achievements to date. Focusing our 
efforts on completing the eradication of terrorist groups is the key to 
preventing their return. The key to eradication of the enemy is the 
exploitation of captured persons and documents in Afghanistan, at 
Guantanamo Bay, and within the U.S. To date, such efforts have led to 
the arrests of individuals in Algeria, Indonesia, Jordan, Pakistan, 
Kenya, France, Singapore, Somalia, and the United Kingdom. Intelligence 
derived from these arrests has been useful in preventing terrorist 
operations in Afghanistan, Pakistan, France, Turkey, Yemen, and Saudi 
Arabia.
    The scale of our human intelligence effort has been extraordinary. 
Let me cite a few examples.

        <bullet> U.S. and coalition forces have screened more than 
        7,500 detainees in Afghanistan.
        <bullet> More than 3,500 interrogations have been conducted on 
        2,200 individuals.
        <bullet> These interrogations have led to the detention at 
        Guantanamo Bay of 500-plus terrorists from 44 different 
        countries.
        <bullet> 16,000 documents have been screened and 12,000 added 
        to a database.
        <bullet> Recruitment methods for al Qaeda have been documented.
        <bullet> Suspected al Qaeda members have been positively 
        identified.
        <bullet> Weapons caches throughout Afghanistan have been 
        located.
        <bullet> Plots to blow up U.S. air bases in Turkey, Saudi 
        Arabia, and Pakistan, and the U.S. Embassy in Yemen have been 
        disrupted.
        <bullet> Methods of al Qaeda financing have been detected.

    While we remain optimistic given coalition successes, the 
Afghanistan battlefield remains dangerous and complex. In some areas, 
small numbers of remaining enemy have blended in with sympathetic 
segments of the civilian population. Tribal, ethnic and cultural 
conflicts, driven in some cases by traditional rivalries, lead to 
factional clashes, and these incidents threaten stability and present 
challenges to coalition forces. Distinguishing between friend and foe 
remains a difficult task. We will continue to refine our tactics, 
techniques, and procedures to address the Identification Friend or Foe 
(IFF) problem.
    As in past wars, combat operations are imperfect, even in this age 
of technology and precision. Distinguishing between friend and foe is 
but one example of this fact. War entails risk to friendly forces and 
civilians who are located in or near an area of conflict. During 
Operation Enduring Freedom, we have taken extensive measures in an 
effort to ensure the accuracy and precision of our fires. Nevertheless, 
we have seen military and civilian casualties. We have investigated a 
number of reports of ``friendly fire.'' In each case, commanders at 
every level have worked to determine the facts, locations, and sequence 
of the events associated with the report. When casualties are found to 
have occurred, we have applied lessons learned to improve our 
techniques and procedures. When civilians have been killed or injured, 
we have worked with local leaders to express regret for the loss of 
life and to inform them about our mission. The incident near Deh Rawod 
on the first of July provides an example of our approach to reports of 
civilian casualties. We know civilians were killed and injured in this 
operation based upon preliminary inquiry conducted immediately 
following the incident. We also know that aircraft in the area reported 
ground fire during the operation. Based upon these facts, an 
investigation was initiated on July 14, and is ongoing to build a more 
complete understanding of the facts and circumstances surrounding the 
incident. When that investigation is complete, we will apply any 
lessons learned. In the meantime, a coalition team has been positioned 
in Deh Rawod in coordination with local government officials. This team 
provides an opportunity to increase local understanding of our 
operations and enhance the willingness of NGOs to begin work in the 
area.
    In my testimony in February, I described several emerging 
observations that give us insight to ongoing and future military 
operations. Following are several of the more important of these 
observations:

        <bullet> Strategic airlift remains key current and future 
        military operations. We are on a glidepath to expand our 
        strategic airlift capabilities, and must remain committed to 
        the task.
        <bullet> The use of precision-guided munitions (PGMs) continues 
        to be a key force multiplier, increasing the likelihood of 
        successful target engagement, reducing the number of aircraft 
        sorties required to destroy a target, limiting collateral 
        damage, and enabling the commander on the ground to more 
        effectively engage targets. Forces in Afghanistan have expended 
        more than 12,000 PGMs, approximately 50 percent of the total 
        munitions expended. The committee's continuing support of these 
        programs is appreciated.
        <bullet> Anti-personnel and anti-tank mines continue to pose a 
        significant threat to U.S. and coalition forces and the Afghan 
        people, and must be cleared. We estimate that more than 3 
        million mines are spread throughout Afghanistan. Service 
        efforts to improve our mine clearing capability remain 
        important to current and future readiness.
        <bullet> An area in which modern warfare has forever been 
        transformed is that of intelligence, surveillance, and 
        reconnaissance (ISR). Platforms such as Predator and Global 
        Hawk have provided real-time intelligence, enhanced situational 
        awareness, and facilitated command and control at all levels. 
        These assets have proven the value of unmanned aerial systems 
        and we must continue to build upon this growing capability.

    In closing, I want to make clear that our work in Afghanistan is 
not finished. While U.S. and coalition forces have accomplished much 
over the past 10 months, the potential for terrorist acts and setbacks 
remains very real. Afghanistan is rising from the oppression of the 
Taliban into an independent, democratic nation. I am optimistic about 
the future, but much work remains to be done.
    September 11 changed America forever. The terrorist attacks on the 
World Trade Center, Pennsylvania, and the Pentagon united us and our 
coalition partners in a mission to eliminate global terrorism. Central 
Command remains committed to that mission.
    I am very proud of each and every one of the men and women who 
continue to serve selflessly and tirelessly in the execution of our 
mission regardless of the uniform of service they wear or the nation 
from which they come. I thank Congress and the American people for the 
tremendous support you have given them.

    Chairman Levin. Thank you so much, General.
    We will have one round of 6-minute questioning. There are 
so many of us here today that we had better limit it to that so 
we will have time to go into our closed session. We will 
proceed on the early bird basis as usual.
    General Franks, let me start with you. You noted in your 
prepared statement that the building of the Afghan National 
Army will require a long-term commitment. I understand the goal 
is to train a 60,000-man force. At the current rate, I believe 
that that would take almost 8 years to meet that goal. Are 
those figures correct, and do you have an assessment as to how 
long U.S. and coalition forces will be required to remain in 
Afghanistan?
    General Franks. Mr. Chairman, the way we are approaching 
that right now, I believe that we will probably by the end of 
December of this year produce 3,000 to 4,000 trained members of 
the Afghan National Army. By about this time next summer, we 
expect that number to be in the vicinity of 8,000. By the end 
of 2003, I believe somewhere around 13,000 in the Afghan 
National Army.
    Now, with respect to how long we will continue to conduct 
that training effort is certainly a decision for the Secretary 
and at the policy level. My suspicion is that we will begin to 
look at approaches to provide that training which may give 
relief to our uniformed people, who are conducting that 
training now, a policy decision to be made in the future.
    Chairman Levin. Thank you.
    Secretary Rumsfeld, U.N. Secretary General Kofi Annan has 
recommended the expansion of the International Security 
Assistance Force outside of Kabul. I think he has made that 
recommendation before. He says that it would make a huge 
contribution to the consolidation of peace. Would you support 
the limited expansion of that International Security Assistance 
Force? Would you be willing to urge other nations to provide 
the troops to make that happen, and would you be willing for 
U.S. troops to participate in that force as a way to attract 
other nations to contribute troops to it?
    Secretary Rumsfeld. My view, and the view of the 
administration all along, has been that the International 
Security Assistance Force is a good thing, and to the extent 
countries are interested in expanding it, as the Secretary 
General of the United Nations has indicated he favors, would 
certainly be a useful thing.
    The problem is that no countries are stepping forward to do 
that. We have had a good deal of difficulty, first of all, 
recruiting the original group of countries to serve in the 
International Security Assistance Force. Then as those 
countries have rotated out, including the U.K. now, we have had 
to help recruit Turkey to come in and take the leadership. 
Turkey leaves at the end of this year and we are going to have 
to recruit a new successor for that.
    Our task, as we saw it, is best characterized by General 
Franks' efforts, to go after the al Qaeda and the Taliban and 
our support of the ISAF with logistics, intelligence, and 
communications and quick reaction support, if necessary. As 
General Franks also indicated, our task is to help train the 
Afghanistan National Army and raise money for it.
    We feel that our plate is pretty full and it would be an 
inappropriate use of our forces to employ them as additional 
International Security Assistance Force troops. We feel that 
trying to stop terrorists from committing additional terrorist 
acts is our first priority; our second priority is to support 
the existing ISAF; and our third priority is to train an Afghan 
National Army.
    If people step forward, terrific.
    Chairman Levin. If people step forward?
    Secretary Rumsfeld. If other countries want to step forward 
and volunteer their forces to expand the ISAF. The problem is 
the only people that have been recommending it have been people 
who do not have troops.
    Chairman Levin. General, let me ask you this question about 
the July 1 incident, the so-called wedding incident. What can 
you tell us about the circumstances surrounding that incident, 
in which up to 54 Afghan civilians were killed? Very 
specifically, can you tell us whether or not the investigation, 
which I gather is ongoing, has corroborated a claim that the 
aircraft were fired on from the ground?
    General Franks. Mr. Chairman, I have looked at the gun 
tapes from those aircraft. The Secretary has looked at a part 
of those gun tapes. What I would say at this point is that the 
initial assessment I asked our ground commander over there, 
General McNeil, who told us that we should do an investigation 
and determine as best we can, all the facts and circumstances 
surrounding that, along with the context within which that 
event took place.
    That investigation is, in fact, under way right now. 
Statements are being taken as a part of that investigation. I 
will say that there were points of intelligence that led us to 
the area. When we put our forces into the area, and as I think 
the Secretary has said on a previous occasion, we had them not 
only in the air, but we had people on the ground observing 
these operations as we were conducting a sweep through this 
area.
    Now, there is no question that there was ground to air 
fire. There is no question, Mr. Chairman. Now, I have read much 
about whether or not this is air defense or whether this is 
celebratory fire from the wedding. Sir, the purpose of the 
investigation is to make those determinations. So, sir, that is 
where we stand right now on that incident.
    Chairman Levin. Thank you.
    Just to conclude that, on the tapes that you saw, was there 
evidence on those tapes of ground fire against those planes?
    General Franks. Sir, there was evidence on the tapes of 
ground fire, yes.
    Chairman Levin. Thank you.
    Senator Warner.
    Senator Warner. Thank you.
    General, reading your testimony back, you say: ``In 
closing, I want to make clear that our work in Afghanistan is 
not yet finished.'' Describe to us as best you can 
``finished.'' When, in your judgment, will you be finished in 
your mission?
    General Franks. Senator Warner, we entered into this with 
what I believe was a blessing. When the President of the United 
States and the Secretary of Defense described a mission that 
says remove the Taliban from effective control of the country 
of Afghanistan, it is a discreet mission and I am satisfied 
with that.
    The second part of that mission was to destroy the al Qaeda 
network as well as the tentacle pieces of that network, such as 
the Islamic Movement of Uzbekistan that existed within 
Afghanistan, which if linked together represented a global 
threat. The Secretary and I have described that we have work 
left to do in that regard. In my view, there are no large 
pockets such as the Tora Bora pocket or the Anaconda pocket in 
place in Afghanistan right now.
    Sir, I am not sure how long it will take us to work our way 
through each and every piece of the geography of this terribly 
compartmented country to assure ourselves, my bosses and me, 
that the work has been completed.
    Sir, the third part of our effort there is to provide as 
best we can for the creation of a secure and stable environment 
within which a democratic government can mature in the country 
of Afghanistan. There are a lot of different approaches, a lot 
of different possibilities to that, Senator Warner.
    But the military piece of it that I have in my mission is 
to prevent the reintroduction of terrorism into Afghanistan 
such as we found it post-September 11 of last year.
    You asked me a question, sir, that was very short. I have 
given you a long answer. I do not know how long it will take us 
to work through each of the pieces of that very military 
mission. I believe the force structure we have in place today 
gives us an opportunity to do the work which the President and 
the Secretary have asked our military to do. So, we are just 
continuing with that until we see ourselves able to put a check 
beside each component of the mission.
    Senator Warner. Mr. Secretary, do you want to add to that 
definition of ``finished''?
    Secretary Rumsfeld. Yes, sir, just to add a couple of 
thoughts. I think the way to think about the task to achieve 
what General Franks indicated is the goal, in that it requires 
that we look at security at several different levels. There is 
the security of the people that were elected by the Loya Jirga. 
It is important that the government survive and do its job. 
There is security in the major cities and the ability of 
humanitarian workers to provide for the needs of people. There 
is the problem of border security. They need border guards. 
There is the problem of police; they need police.
    There is the task we mentioned of dealing with the al Qaeda 
and the Taliban to see that they do not come back and attempt 
to reassert themselves. There are potential conflicts between 
factions within the country. There are drug lords and people 
involved in drug trafficking. There is also crime, normal 
crime.
    The goal, needless to say, is to have the Afghan government 
assume all of these responsibilities. My suspicion is that they 
will do so at a different pace. Clearly they do not have the 
ability to go after the al Qaeda and the Taliban at the present 
time without the cooperation of the coalition forces. But they 
do have the beginnings of some capability to start dealing with 
certain other aspects of it. The answer to the question is how 
fast can the civil side step up and take over some of those 
responsibilities and how soon the national army can begin to 
take over some of their responsibilities.
    Senator Warner. You have been very candid in describing 
those tasks and in saying that you are having difficulty 
recruiting someone to take over the responsibility, say when 
the Turks finish their term. All of that indicates to this 
Senator that we best tell the American people that we are going 
to be there for a long time.
    Secretary Rumsfeld. My goal is to have the Afghan 
government be successful and systematically, incrementally 
begin to develop the kinds of institutions of government that 
they need to take over these responsibilities. It is a 
difficult task, but we have a lot of coalition countries trying 
to help. I think that the work is well under way.
    Senator Warner. As mentioned by the General, one of the 
missions was to destoy al Qaeda the network. There have been 
reports that al Qaeda has begun to reconstitute itself, that it 
has found safe havens in adjoining nations, and that new 
leadership is somehow coming to the forefront. What can you 
tell us on that? Candidly, if you cannot, we will wait until 
the closed session, Mr. Secretary.
    Secretary Rumsfeld. I think I would prefer to do it in 
closed session.
    Senator Warner. All right. Thank you very much.
    I think it is important the record reflect that you give us 
the latest on bin Laden. I think we know the answer, but the 
record should contain it. Mr. Secretary?
    Secretary Rumsfeld. You want me to once again acknowledge 
the reality that we do not know where he is or if he is alive. 
He is either alive and in Afghanistan or someplace else, or he 
is dead. He clearly is not active and engaged to the extent 
that he was previously. If he is alive and if he is 
functioning, he is functioning in very difficult circumstances 
where life is harder for them, the senior people, in terms of 
movement, in terms of communication, in terms of raising money, 
and in terms of training terrorists. That is a good thing.
    Senator Warner. Do you anticipate that we will see efforts 
to begin to get more security beyond Kabul, which is now the 
central focus? How soon do we hope to move out with other 
forces into those areas to obtain the security and to achieve 
the very goals which you enumerated, Mr. Secretary?
    Secretary Rumsfeld. Senator Warner, I would characterize 
the country at the present time as being reasonably secure. It 
is uneven, but for the most part, except for a few incidents 
from time to time, most of the country is reasonably secure. It 
is secure because coalition forces are in a variety of 
locations. Special Forces are embedded into the regional 
leaders' forces. We have forces in Bagram and in Kandahar.
    The one portion is the southeast area which tends to have 
the most incidents, because there is not a regional leader that 
has a good grip on things at the present time. I think we just 
have to live with that for a period and continue to work on 
that problem.
    Senator Warner. My time is up, unless the General wants to 
fill out any questions.
    General Franks. I might just add to what the Secretary 
said. I checked this morning just before the hearing. As we 
speak today, we have our people, coalition and American people, 
in more than 40 locations inside Afghanistan doing the work 
that the Secretary described. So we are out and about.
    Chairman Levin. Thank you. Thank you, Senator Warner.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman, and thanks, 
Secretary and General, for your extraordinary leadership, and 
thanks to the American men and women who are serving in uniform 
under your command who have performed brilliantly. I think it 
is important to restate what a lot of us felt, which after 
September 11, when this response was being planned, there were 
naysayers who were reminding us that the Afghanis had 
slaughtered the British in an earlier generation and defeated 
the mighty Soviet Union and that we were getting in over our 
heads.
    But thanks to great leadership by the two of you and, with 
all respect, even greater effort by those on the ground, 
together with the terrifying force of our high technology 
weapons, we achieved an extraordinary victory over the Taliban 
and did disrupt al Qaeda. I think as we go on to the next 
phase, we should not lose sight of that great victory and what 
it suggests about the dominance of the American military in a 
world that remains dangerous.
    General Franks, I did want to ask you about one of the 
operations you referred to, Tora Bora, because from within the 
United States and outside Europe and even in Afghanistan there 
have been criticisms of that operation, some of them stating 
that we allegedly used more Afghani fighters than we should 
have and not enough U.S. troops on the ground.
    There have been some criticisms from, I gather, reported in 
the press and from Afghan commanders, who said U.S. forces were 
not being aggressive enough on the ground to defeat the 
guerrillas. I wanted to ask you if you would respond to those 
on the record.
    General Franks. Senator Lieberman, I would be pleased to. 
Let me first say thanks to you and other members of the 
committee who have visited our people in Afghanistan. I believe 
your visit was back in January when you had an opportunity to 
see our people first-hand.
    In Tora Bora, in early December 2001, the United States of 
America at that time had about 1,300 Americans in country in 17 
different locations. Kandahar was at that time still not fully 
under control. We had our Marine forces operating out of Camp 
Rhino, which was our initial point of entry into Afghanistan. 
We were very mindful--I guess I will take credit or blame for 
this. I was very mindful of the Soviet experience of more than 
10 years, having introduced 620,000 troops into Afghanistan, 
more than 15,000 of them being killed, more than 55,000 of them 
being wounded.
    We characterized this effort in Afghanistan as a complex 
and unconventional effort from the very day we started. As of 
that time in early December, we also kept in mind that the 
country of Afghanistan, ultimately, must belong to the Afghan 
people. It was Afghans who wanted to attack in the Tora Bora 
area. We had Special Forces troopers with those Afghans, to be 
sure.
    We had linkage with the Pakistanis, who some would say, 
although not much reported at that time, had in the vicinity of 
100,000 troops on the western Pakistani border along a great 
many of the likely points of exfiltration, from Afghanistan 
into Pakistan.
    Did the enemy get out of Tora Bora? Senator, yes, to be 
sure. As we looked at the plan--and I looked at it before the 
operation, obviously, and I have looked at it since the 
operation--to see what did the plan say or do within the 
context that I just described to you that should have been done 
perhaps differently.
    The plan called for an approach up two parallel valleys 
with blocking forces at the ends of those valleys. The 
relationships that we had at that time with the Afghan forces 
on the ground were in their beginning state. Based on that 
information, we determined we would not try to stop the Afghans 
who wanted to move into Tora Bora, where we had done a great 
deal of operational fires or kinetic work, as you would recall, 
since February 7, when we began the operation.
    As the Afghan forces moved to contact, they encountered al 
Qaeda and residual Taliban elements. I have seen speculation as 
to the number of enemy forces in Tora Bora that range from a 
few hundred to a few thousand. I believe that we do not know 
what the total size of that enemy force in that area was. I 
believe that some of those forces to be sure did move into 
Pakistan, and the reason I know that, Senator, is because 
almost 300 of them were captured by the Pakistanis along that 
border that I described a minute ago.
    Senator Lieberman. General, do we know how many of the 
enemy we killed at Tora Bora?
    General Franks. Senator, we really do not know how many we 
killed at Tora Bora. You will recall perhaps a similar question 
on Anaconda or how many did we kill. The pounding that we put 
into that area, the numbers of caves and compound complexes 
that were closed in that fight over the duration of it, make it 
virtually impossible to know how many were killed. The 
assessment that I have read, and I believe it, is in the 
hundreds.
    The elevations that our people and the Afghans themselves 
were working in ranged from 5,000 up to 13,000 feet. So this 
was not a fight or armored vehicles and so forth. I am 
satisfied with the way this operation was conducted--no, I will 
not say that. I am satisfied with the decision process that 
permitted the Afghans to go to work in the Tora Bora area.
    Senator Lieberman. Thank you.
    My time is up. Perhaps in the closed session I would ask 
you, since Tora Bora was in the nature of a first battle and 
adaptations and adjustments are always made after first 
battles, what lessons we learned from it for successive 
actions.
    General Franks. Thank you, Senator.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. I know we have a 
lot of members. I will try not to use all my time.
    In concern to the budget I thought it had two glaring 
deficiencies, one of which I would like to bring up now that 
has already been touched on. The chairman talked about the 
distant future on end strength. We have called up 80,000 Guard 
and Reserves. We put stop-losses on those that are there right 
now.
    I think those of us on this side of the table can tell you 
that there is a serious problem with our Guard and Reserve 
components, because we measure that by letters that come in. 
These people are loyal. They want to fight and they want to be 
there. But by the very nature of their job they cannot be fully 
deployed all the time.
    Now as you look into the future, there is going to be a 
time when the stop-loss is lifted, when the Reserves and the 
Guard go home. General Franks, how do you plan to continue the 
war effort when that time comes?
    General Franks. Senator Inhofe, thanks for visiting a 
couple of months ago, by the way.
    I think probably the Secretary is in a much better position 
to answer than I am. I will give you a short combatant 
commander view as a receiver of forces provided by the Services 
for our efforts in Afghanistan and, in fact, across my area of 
responsibility. We have a great many Guardsmen, Reservists, all 
Services, doing an absolutely remarkable job.
    Probably the comment that I could make is that it makes a 
great deal of difference to us to have that pool from which to 
draw, because one of the things it does for us, Senator, is it 
permits us to cycle our people through so that we do not put 
everyone in an overseas circumstance for the duration. That, 
sir, is the best I can give you from a combatant view.
    Senator Inhofe. Before Secretary Rumsfeld responds, I can 
remember back during Bosnia and Kosovo when the 21st TACOM--
they have changed the name of it now--said that if there was 
another war effort, they would be totally dependent upon Guard 
and Reserve. Of course, this is exactly what has happened. That 
is why I have a great concern that it is something we need to 
address.
    Mr. Secretary, any comments about that?
    Secretary Rumsfeld. Yes, sir, Senator. You are right, we 
have 85,000 Reserve and Guard personnel in the present call-up. 
We have some 20,000-plus stop-loss. We are currently over our 
previously authorized end strength, in the plus 2 percent 
level. We have a significant effort going on in each of the 
Services to look at how they can increase their tooth to tail 
ratio--reduce the tail and increase the tooth.
    It is time to do that. We are capable of doing a much more 
efficient job and it is important to do that. To an extent if 
we cannot get what we need by making those efficiencies, then 
obviously we will come in for more end strength if we need it. 
But at the moment, we do not even need to. I am told the 
emergency allows us to go up, in all Services, I think all 
Services except the Marines are currently above that prior 
authorized level.
    I will say this. The reason for having the Guard and 
Reserve is because we considered the total force concept. Using 
them is not bad. It is the way the thing was designed. It is 
working very well.
    Now, are there folks that are inconvenienced? Yes. On the 
other hand, there are a great many of those people who are 
volunteers. I do not know what the fraction is, but it is not a 
trivial portion of the total number of Guard and Reserve who 
are serving on a volunteer basis as opposed to a mandatory 
basis.
    Senator Inhofe. That is reassuring. I think we hear from a 
lot of them that are called up. As I say, they want to fight, 
but they cannot handle the length and the number of the 
deployments.
    I want to bring up something on mobility. I put that in two 
categories: one on our refueling capacity and another on lift. 
I was, as you were good enough to point out, General Franks, on 
the U.S.S. Kennedy when they were doing operations up in 
Afghanistan, where F-18s were taking off and coming back. They 
not only required refueling capability, but multi refueling 
capability on those particular exercises.
    I know that we have a shortage of KC-135s, and I think they 
were using KC-10s at that time up there. But I would like you 
to tell us how were you affected adversely, General Franks, in 
Afghanistan by the lack of KC-135 refueling capability?
    General Franks. Sir, probably the best answer I can give 
you is maybe by way of example. We like to use our global reach 
and global power capability. In order to do that, we have to 
position tanking capability in numerous different places. When 
you do that, you fragment the numbers that you have, which if 
all together in one piece of geography might be absolutely 
ample in order to do a major war, small scale, or something 
else.
    In the particular case of this fight halfway around the 
world and the use of global assets--B-2s and so forth--we find 
that it did not kill us in Afghanistan because we were able to 
have air power coming from our carrier decks, which were close 
enough to be able to have one tanker up in orbit over 
Afghanistan and be able to refuel multiple attack aircraft from 
it.
    Had the circumstance been different, then 135s or KC-10 
refuelers would have been a problem. Sir, I cannot give you the 
numbers and I cannot quantify beyond that.
    Senator Inhofe. Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Secretary Rumsfeld. I might just say, if I may, that the 
place where the strain or the inconvenience would show up, to 
use your word, would not be in Central Command. It would be in 
the other commands. To the extent you have these high demand, 
low density assets and capabilities, it is in the other 
CINCdoms that you end up with something less than they might 
prefer.
    Senator Inhofe. I understand that. But if something happens 
there, then there is a problem.
    Secretary Rumsfeld. You are quite right.
    Chairman Levin. ``CINCdom''? Okay.
    Secretary Rumsfeld. I did say that, didn't I? [Laughter.]
    Chairman Levin. Senator Cleland.
    Senator Cleland. Thank you very much, Mr. Chairman.
    Mr. Secretary, General, Colonel, welcome. We appreciate 
your service to our country and especially the leadership you 
provide to our young men and women out there who are doing a 
fantastic job.
    Mr. Chairman, I would like unanimous consent to enter into 
the record an article in Army Times titled ``What We Learned 
from Afghanistan,'' and an article in Defense News titled 
``U.S. Army, Navy Mull Lessons Learned in Afghanistan War.''
    Chairman Levin. They will be made part of the record.
    [The information referred to follows:]
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Cleland. Thank you very much.
    Mr. Secretary, for me, Operation Enduring Freedom has 
become Operation Enduring Frustration. I can remember the 
aftermath of September 11, the feeling on Capitol Hill, the 
sense of outrage, the sense of focus, and the sense of purpose. 
For me, having served in the military, that clarity of purpose, 
that clarity of commitment, enhanced our military capacity to 
do the job.
    For instance, we passed a congressional resolution that 
gave the President the ability to use all necessary force and 
it specifically mentioned September 11. In other words, we gave 
you the authority to go after those who came after us. For me 
that is still mission number one. I think it is fine to nation-
build or liberate Afghanistan, but the frustration continues 
because we still have not killed or captured Osama bin Laden 
and his terrorist cadre.
    Do you happen to know where he is?
    Secretary Rumsfeld. I responded to that when Senator Warner 
asked it and the answer is obviously the United States of 
America does not know where he is. We do not know if he is dead 
or alive. We do know that he is having a great deal of 
difficulty functioning. He may be dead, he may be seriously 
wounded. He may be in Afghanistan, or he may be somewhere else.
    But wherever he is, if he is, you can be certain he is 
having one dickens of a time operating his apparatus. Now, is 
he critical? Well, he is important, but there are plenty of 
people, 6, 8, 10, 12 people probably, who could take over the 
al Qaeda network. They know where the bank accounts are. They 
know the names of the people who are trained. They know the 
sleeper cells that exist around the world.
    So the task is not a manhunt for Osama bin Laden, as your 
question suggests. The task is to find the terrorists wherever 
they are, bin Laden plus all the others, and deal with them and 
the countries that are providing safe haven to them. That we 
are trying to do.
    Senator Cleland. Well, that is my question. If we do not 
know where he is, how can we go after him?
    Second, is he not in western Pakistan, basically in a 
sanctuary there, an area where even the Pakistani troops are 
not welcome? Are we not vulnerable then to another attack or 
his continued organization of attack against us? One of the 
things I learned in Vietnam was if the terrorist does not lose, 
he wins. This is why I am so committed personally to making 
sure that his end is in sight. It troubles me and I am 
frustrated that his end is not in sight or is the end of this 
terrorist cadre in sight. That for me is mission number one for 
our government and mission number one for our military.
    Second, I am frustrated by the fact that in the biggest 
operation of the war, Operation Anaconda, apparently, according 
to the Army Times, the third brigade of the 101st Airborne-Air 
Assault was told not to deploy with their 105-millimeter 
howitzers that they would normally take into battle. In other 
words, here we are sending a brigade into the biggest battle of 
the war without their artillery support.
    Is that normal? Is that something we are going to do? I am 
especially bothered and frustrated because you cancelled the 
Army's latest artillery piece, the Crusader. Is that a new way 
of deploying the Army, without artillery support?
    Secretary Rumsfeld. I would like to have a chance to answer 
those questions. First, if we thought he was in western 
Pakistan, the Pakistani government, the army, and the folks 
that are working in that area, I believe, would go find them. 
We do not know that he is there. That is pure press 
speculation. People are saying that.
    Yes, he might be anywhere. But do we know where he is? Do 
we have coordinates? No. Are we trying hard? Is intelligence 
working on it? You bet it is. So simply because something like 
that is in the press does not mean that he is in western 
Pakistan, although he may be.
    You said mission number one ought to be the al Qaeda and 
the Taliban. That is exactly what we are doing, and we are 
doing it all across the globe. People are getting arrested 
every day. Arms caches are being discovered every day. People 
are being interrogated, and people are being detained. It seems 
to me that the United States Armed Forces were designed to deal 
with armies, navies, and air forces. Doing a single manhunt is 
a different type of thing. The intelligence community is 
working hard on it. General Franks is working hard on it. 
People across the globe are working hard on it.
    You can be frustrated if you want. I am not. I think that 
we have a serious effort going on and serious work is being 
done. The pressure that is being put on those terrorist 
networks is important and it is causing them difficulty in all 
the things they have to do, like raising money and recruiting 
and retaining people. Does that mean there will not be another 
terrorist attack? No, there may very well be. Terrorists can 
attack at any time, any place, using any technique.
    I would like General Franks to talk about the howitzers. He 
is an artilleryman.
    General Franks. Sir, I would be glad to talk about the 
howitzers and the 101st, as well as the overall structure 
inside Afghanistan. Actually, I have not read the Army Times 
article, but I will respond to the question that you asked.
    The elevations in question in Operation Anaconda were at 
the low end, just below 8,000 feet, and at the high end, above 
12,000 feet. An M199 howitzer weighs 4,520 pounds. The maximum 
ordnance for a 119 howitzer, Senator, how high it goes, is 
8,000 meters. That puts it at 24,000 feet, whereas the ordnance 
for a mortar is less than one-half of that. That affects the 
literally hundreds of aircraft close air support sorties that 
are available to the combatants on the ground during Operation 
Anaconda.
    Senator, a 60-millimeter mortar weighs 47 pounds. An 81-
millimeter mortar weighs 89 pounds. A 120-millimeter mortar 
weighs in the vicinity of 400 pounds. A total of 26 of those 
systems were available for use during Operation Anaconda.
    I have spoken to the brigade commander. I have spoken to 
the division commander. I have spoken to the land component 
commander both before and after Operation Anaconda, and I, sir, 
find no justification for the comment that you made with 
respect to the cannons coming with the 101st Airborne Division 
Air Assault.
    Senator Cleland. I am getting this out of the Center for 
Army Lessons Learned briefing obtained by the Army Times, where 
Colonel Mike Hemster, the Center's Director, said it would be 
``a legitimate conclusion to assume that had there been a 
battery of howitzers on the Anaconda battlefield, the guns 
could have shut down al Qaeda mortars that inflicted most of 
the roughly 38 U.S. casualties on the first day of battle.''
    I was just interested in how we were deploying our forces 
here, especially since the Secretary has cancelled the latest 
artillery piece by the Army. Then I find that we are sending a 
brigade into battle here without its normal artillery 
component. I just wondered if this was a new order of battle or 
if it was something special.
    General Franks. Sir, the Secretary may want to respond 
more. Sir, from your military experience as well as I know from 
mine that each and every deployment and each and every mission 
that we undertake is going to consider all that is necessary 
the mission to be done, the enemy that we are going to fight, 
the terrain in which we are going to fight, and the lift assets 
available and what to do with it.
    In this particular case, with respect to the Center for 
Army Lessons Learned, I simply do not agree with the 
observation, sir.
    Senator Cleland. My time is up, Mr. Chairman.
    Chairman Levin. Thank you, Senator Cleland.
    Senator Roberts.
    Senator Roberts. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for a very comprehensive statement 
in regards to our mission in Afghanistan. I hope all of our 
colleagues read your full statement. There have been some sour 
notes in what has been a chorus of support up to this point as 
to the conduct of the war.
    I listed from your statement seven positive 
accomplishments, ranging from the 70 nation cooperation, which 
is certainly unique and unprecedented, to intel and 
transformation lessons learned. I want to also thank General 
Franks and would likely draw the attention my colleagues in the 
Senate to page 11 of your statement, where you listed four 
suggestions imperative, I think, to our military success in 
regards to Operation Enduring Freedom in Afghanistan, new 
threats, transformation, and what we need to do. You listed 
four and I thank you for that.
    Now, let me say that Senator Inhofe gave me a segue. It is 
not atypical of Senators to jump from one pasture to another, 
so I am going to jump from one country away.
    Winston Churchill in his comment on dictators, and I think 
it applies to Saddam Hussein: ``Dictators ride to and fro on 
tigers; they dare not dismount, and the tigers are getting 
hungry.'' I have met with some Iraqi dissidents and I could 
feel the hunger of the tiger in their desire to take their 
country back from that tyrant.
    We have had a lot of discussion in the press recently on 
the potential war against Iraq. Should we have that kind of a 
conflict in the immediate future, in the spring, or wherever--
and I know that decision has not been made--that would cause 
some concern in regards to the mission that we would not be 
able to complete?
    Churchill also said, ``It is better to jaw-jaw than to war-
war.'' So this question would be for the Secretary: Do you see 
any opportunity to safeguard the Middle East and the civilized 
world in reference to Saddam Hussein by jaw-jaw containment 
rather than war-war?
    Secretary Rumsfeld. I guess that is a question really that 
is best posed to the President, the Secretary of State, and 
Congress. But there is no question that the problems in that 
part of the world need to be addressed and have been addressed 
from a diplomatic and economic standpoint. We must address the 
sanctions that the U.N. has had in place, the enormous number 
of countries that have worked on the other problems in the 
Middle East apart from the specific one that you mentioned, and 
the worldwide efforts against proliferation.
    But over time, the economic sanctions weaken and the 
diplomatic effort seems to get a little tired. The progress 
that he has been able to make in providing support to the 
terrorist states all across the globe is serious. I guess there 
is room for all types of efforts--political, economic, 
diplomatic, and military.
    Senator Roberts. Should the decision be made to take 
military action, do you feel you have the authority to ``go to 
war'' against Iraq based on terrorism connections or the U.N. 
resolution or Public Law 102-1, the Gulf War, without any 
further approval of Congress?
    Secretary Rumsfeld. Those are issues for the President and 
I would not have a comment on them.
    Senator Roberts. In fact, on lessons learned, the U.S. 
military is conducting a significant experiment exercise called 
Millennium Challenge 2002. Do you see any opportunity to bring 
forward some of the capability demonstrated in that exercise 
and that challenge to put it to use in either Afghanistan or a 
possible military conflict in regards to Iraq?
    Secretary Rumsfeld. Senator, I would not want to talk about 
a possibility of a conflict in Iraq. This is an Afghan hearing. 
But with respect to Millennium Challenge that the Joint Forces 
Command is conducting, I was down there earlier this week. 
There is no question that the exercises and experiments that 
they are undertaking are valuable, interesting, and will have 
applicability to all things that we do in any area of 
responsibility across the globe. I am very encouraged by what 
they are doing.
    Senator Roberts. General Franks, there is a recent article 
that stated friendly fire still plagues the U.S. military. We 
talked about that before. Would you comment on this continuing 
problem and also the interoperability of our own equipment?
    General Franks. Senator, I think by and large that the 
interoperability of our equipment has been good. I think that 
the lessons that we have learned in Afghanistan will cause us 
to think hard about how we distribute pieces of equipment. In 
an unconventional sort of conflict, we wind up using people to 
do things that may be their third or fourth or fifth priority 
function in terms of the way they are equipped. So I think we 
will take that kind of lesson to heart.
    In terms of friendly fire, I will say that any time there 
is a friendly fire incident, whether it has to do with one of 
our military youngsters or whether it has to do with a 
civilian, it is not only a sad thing, it is something that we 
want to avoid, something that we want to find either 
technological solutions, training solutions or tactics, 
technique, or procedure sorts of modifications, that enable us 
to not have repeat performances.
    This committee knows--and sir, you certainly know--that we 
have never had the perfect circumstance for a war. We find 
Afghanistan no different. We have had loss of life because of 
friendly fire incidents in Afghanistan and I regret that. I 
will say that I do have great confidence in not only the young 
people, that being the sergeants and the young captains and so 
forth on the ground doing the work, I also have confidence in 
their leadership.
    I have confidence in the flag officers, the generals, and 
the colonels who look at every report of these sorts of 
incidents and try to figure out how can we avoid a repeat. Sir, 
that is the best answer I can give you.
    Senator Roberts. Mr. Chairman, my time has expired. I just 
want to add one thing.
    Mr. Secretary, in regard to Scott Speicher, the Navy pilot 
we left behind in the Gulf War, I wrote in February of this 
year requesting that Scott's status be changed from missing in 
action. First he was killed in action and then we or the 
Department had him changed to missing in action upon a request. 
My request now is to prisoner of war status. I want to thank 
Assistant Secretary Wolfowitz for the continuing dialogue in 
that regard. But we have not had an answer and we just need 
some assurance that the decision on the status will be made 
soon. Of course, if it is a decision we do not want, do not 
send it up. But we hope the decision will be reached and I 
wanted to mention that to you.
    Thank you, Mr. Chairman.
    Secretary Rumsfeld. Thank you, Senator.
    Senator Lieberman [presiding]. Thank you, Senator Roberts.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Secretary Rumsfeld and General Franks, let me commend you 
for your leadership and your determination over these many 
months. Also, I think it is fitting that you asked Colonel 
Mulholland to join you. He is here today representing many 
younger special operators. I think he would be the first to 
admit they carried the ball for us. They did a magnificent job. 
Thank you, Colonel and General.
    Let me follow up a bit the line of questioning that Senator 
Cleland opened up. First an informational question: Did the 
101st have 105s in country ready to operate in Anaconda?
    General Franks. No, sir, they did not have 105s. At that 
time, we had no cannon artillery in Afghanistan.
    Senator Reed. So with the availability of 105s, the 
decision to employ or use or have them available was made many 
weeks or days before Operation Anaconda, correct? They simply 
did not have the pieces in country, is that correct?
    General Franks. Sir, they did not have the pieces in 
country. When our land component commander decided to bring the 
101st brigade over, he performed the analysis of the terrain 
where that brigade was going to be used and determined that it 
was not necessary to bring the cannons with them.
    Senator Reed. Now, the absence of field artillery places 
much more emphasis and importance on close air support. In your 
observations at Tora Bora, Anaconda, and throughout the course 
of the operations, do you think there has to be additional work 
to harmonize the doctrine of the Air Force, the Navy, and the 
Army with respect to close air support? Is there a common 
doctrine? Is there misunderstanding? Does this operation 
represent not just the absence of field artillery, but genuine 
misunderstandings about what close air support means and what 
it will provide?
    General Franks. Senator, that is a fair question. I do not 
think so. I believe that we would never say in the middle of a 
battle or of a war, ``Gosh, everything is just right and there 
is no lesson to be learned.'' We have learned training lessons 
about this. We have learned how to better advantage training 
opportunities, where for example we will have both the Naval 
and Air Force aviation employed at the same time. We have 
learned things about how we can better harmonize our technology 
to be sure that we do not have one form of airplane used by one 
Service that is not able to acquire and attack based on laser 
work that works with another sort of airframe.
    So, of course, we have learned these kinds of lessons. But, 
Senator, doctrinally, I believe that it is recognized that 
United States Navy, Air Force, and Marine Corps aircraft 
provide close air support. So, we have learned the lessons. My 
view is that the lessons we have learned have not been 
catastrophic, but the application of those lessons will make us 
better in the future.
    Senator Reed. Thank you, General.
    Mr. Secretary, you indicated in your remarks that we have 
American personnel in the headquarters of every warlord, or 
something to that effect.
    Secretary Rumsfeld. A lot of them.
    Senator Reed. What happens if these warlords are responsive 
to us but not responsive to Karzai or vice versa? Do you have 
any advice?
    Secretary Rumsfeld. It is a complicated problem and it is 
one I will discuss at greater length in the closed session. But 
the short answer is that the Afghan regional leaders have 
armies, they are in charge of them, and they pay those people.
    Our Special Forces are embedded in most of those units. 
They are young folks and they do a great job in guiding and 
offering advice, but they are in charge of those armies. When 
there is any kind of a difficulty where two regional leaders 
seem to be having a dust-up, then we have tough choices to 
make, not just in terms of participating in their dust-up, 
because that is between them, but in seeing if it can be 
stopped and, if it cannot be stopped, how our folks avoid 
getting in the middle of it.
    Senator Reed. Thank you, Mr. Secretary.
    Mr. Secretary, we are trying to create a national army, 
which I presume means at some point these warlord armies are 
disbanded. Would you comment upon that process of building a 
national army and the future demobilizing of these private 
armies?
    Secretary Rumsfeld. There again is an issue that is going 
to play out over a period of time. It is unlikely that the 
regional leaders are going to disband their armies if there is 
not something that is providing security in those regions, or 
not something that they feel they have a voice in. It is going 
to be a difficult task for the central government's leadership 
to fashion a set of relationships--political relationships, 
financial relationships, military relationships--over a period 
of time. As the Afghan army and the central government's border 
patrol and police forces evolve and develop to the extent that 
the interaction between the center and the regions evolves 
properly, one might hope that that would happen. But it is not 
written how long it will take or whether it will be even 
symmetrical in how it plays out.
    Senator Reed. Thank you, Mr. Secretary.
    Thank you, General.
    Chairman Levin. Thank you very much, Senator Reed.
    Senator Bunning.
    Senator Bunning. Thank you, Mr. Chairman.
    Thank you both for coming. I appreciate it. I have been 
greatly disturbed by press reports of potential operational 
plans in Iraq. I strongly urge you, Mr. Secretary, in 
conjunction with the FBI, to do your best to find those who are 
leaking classified material to the press and send them to jail 
for a long time. I think it is vital to our national security. 
There is none of us up here that know anything about the plans, 
so it is coming from within. I suggest that you make a very 
strong effort to find out where it is coming from and treat it 
thusly.
    Secretary Rumsfeld. Senator, I am doing everything that is 
legally proper to do.
    Senator Bunning. Well, do whatever it takes.
    Secretary Rumsfeld, there have been reports of al Qaeda 
members active in the disputed region of Kashmir. Have you made 
any progress in rooting those terrorists out? Has Pakistan been 
cooperating with your efforts?
    Secretary Rumsfeld. Senator, the reports about al Qaeda in 
Kashmir are ambiguous.
    Senator Bunning. Ambiguous, not true?
    Secretary Rumsfeld. They are ambiguous. That is to say, 
there is not real clarity as to whether they are there or not. 
If so, how many or where? First of all, the phrase ``al Qaeda'' 
is a definitional issue to some extent. The scraps of 
information that we get are suggestive but not conclusive.
    Second, I personally believe that the answer to the second 
part of your question is that the Pakistani government, if they 
believed and knew there were al Qaeda in Kashmir, would go do 
something about it. They have told me that and I believe them.
    Senator Bunning. My follow-up question was that if 
President Musharraf's government did know would they pursue. 
They would?
    Secretary Rumsfeld. I believe so. Do you not, General?
    General Franks. Senator Bunning, I would add that I do 
agree with what the Secretary said. I agree with it because, 
just as Secretary Rumsfeld has spent considerable time with 
President Musharraf, I have spent time with him. What he has 
proven over time by having already given us--and I am not sure, 
sir, what the number is, but literally hundreds of prisoners 
from a great many nations--leads me to believe that, yes, he 
would do that.
    Senator Bunning. I am going to follow up on Senator Reed 
for a second, because I have a letter from General Myers 
telling me that part of the reason artillery was not taken into 
Afghanistan was ``the ability of U.S. air assets to deliver 
precision munitions at any time.'' We both know that air power, 
while it can be very awesome and do wonderful things, it cannot 
do everything. It cannot deliver munitions at any time for the 
simple reason that it is subject to on-station time, the number 
of aircraft available, weather, anti-aircraft threats, and 
sometimes even altitude. Do you agree that air power cannot be 
all things to all people? Why do you think General Myers said 
this to me?
    General Franks. Sir, I do not know. I know him very well 
and I think that he very well recognizes that the mortar, for 
example, as I talked about it a minute ago----
    Senator Bunning. I was told that by others before.
    General Franks.----is a very capable all-weather, day and 
night system. I will say on behalf of air power--I am an air 
power advocate and I am a believer in air power--I think it 
needs to be coupled with a capability on the ground that gives 
you an all-weather capability.
    I cannot talk specifically to what Dick meant when he sent 
you the note. But I do know that he very much believes in the 
use of systems like the mortar and so forth to give that 24-
hour all-weather capability.
    Senator Bunning. Well, my concern obviously was for the 
safety of those doing the operation, and I know your concern as 
the commander over there would be just the same. But depending 
on air power and its reliability when, in fact, it could 
possibly not be there when you need it seems to me to be 
questionable at best and risky.
    General Franks. Sir, for sure, but thanks to this 
committee, we have equipped those Army forces with a 
magnificent mortar in the 120-millimeter mortar. It is a very 
capable system. I am an artilleryman by upbringing and so I am 
not anti-artillery. But I recognize things. For example, you 
can put four 120-millimeter mortars and the ammunition that you 
want for a given fight in one helicopter, a CH-47, whereas if 
you do that with these lightweight howitzers it is one howitzer 
per helicopter.
    So it is hard for me to make a comparison that one would 
like to be drawn to that says there is something terribly wrong 
with not having had cannons.
    Senator Bunning. The biggest problem, General, is that 
sometimes the helicopter cannot fly at certain altitudes and, 
therefore, you cannot use it.
    General Franks. Sir, that is absolutely correct without a 
doubt. We inserted the people for these operations based on a 
pretty thorough plan using helicopters. On the same type 
helicopters that we used to insert the people, we also inserted 
the equipment at those altitudes.
    Senator Bunning. My time has expired. I want to thank you 
both for being here.
    Chairman Levin. Thank you, Senator Bunning.
    Senator Carnahan.
    Senator Carnahan. Thank you, Mr. Chairman. I would also 
like to thank our witnesses today for their outstanding service 
to our country during these troubling times.
    General Franks, I understand that the Iranians were at 
first very cooperative in our operation within Afghanistan and 
now we are hearing reports of their efforts to undercut on the 
ongoing U.S. mission there. Could you discuss the nature of our 
relationship with the Iranian forces that are deployed in 
Afghanistan?
    General Franks. Senator, the Secretary will give a much 
better answer than I, but let me give an operational level sort 
of an answer. As we have worked Afghanistan, we have found two 
large problems. One is this inclination for tribals and ethnic 
backgrounds within the country to contest one another. The 
other has been the interests of nations around Afghanistan in 
terms of wanting to influence what is going on on the inside of 
Afghanistan.
    My appreciation with respect to several countries--Iran is 
one of them--is that they have not been entirely helpful in 
everything that we have tried to do in Afghanistan. I would 
turn to the Secretary.
    Senator Carnahan. Have the Iranian contacts with the 
warlords in any way compromised the Central Command's 
relationship with friendly Afghan forces?
    General Franks. Ma'am, it is hard to know. For example, one 
regional leader in the west, obviously being very close to 
Iran, has a great deal of traffic back and forth between Iran 
and Afghanistan and has had relationships with the Iranians for 
a long time. The specifics of whether or not that has 
complicated our efforts to stabilize and to kill and capture 
the Taliban and al Qaeda in that part of the country, that has 
not been an effect, a direct operational effect, that I have 
seen.
    Senator Carnahan. Mr. Secretary, with the assistance of the 
Russians, Iran has made substantial progress toward 
constructing a nuclear reactor and reports indicate that it 
could be completed as early as 18 months from now. I know the 
administration shares my concerns certainly as to what the 
impact of this reactor might have on regional security as well 
as national security, and I was wondering if you would comment 
as to your views about the threat that this reactor poses and 
how the administration plans to handle this issue.
    Secretary Rumsfeld. Senator, I think that your concern and 
the administration's concern is very well placed. Iran is 
probably unquestionably burning off, wasting, more natural gas 
and the energy that it would provide than the entire nuclear 
system that they are building would provide them. They are not 
short of gas or oil. They do not need the nuclear facility for 
anything that is legitimate by way of energy in their country. 
It is a concern to us that the Russians have been and are 
continuing to provide that assistance.
    With respect to your first question, the United States and 
most coalition countries are trying to do things that will 
strengthen the central government of Afghanistan. Therefore, 
our work is to help build a national army and to see that the 
assistance that comes in from abroad is funneled through that 
government so that they have some leverage and begin to work 
with the regional leaders in a way that is advantageous to the 
population as a whole.
    To the extent that Iran deals separately with regional 
forces, obviously, it is unhelpful to the central government. 
To the extent that al Qaeda remnants are able to move back and 
forth across the Iranian borders and find safe haven in Iran, 
it is notably unhelpful to the global war on terrorism.
    You are quite right, there was speculation about the degree 
of their assistance early on. But I think if one wanted to net 
it out, it would be hard to say that they have been a 
constructive force with respect to the global war on terrorism. 
They are sending assistance, weapons, money, and people into 
Damascus and Lebanon, for fostering and fomenting terrorist 
acts. They are far from clean.
    Senator Carnahan. General Franks, the U.S. Transportation 
Commander, General John Handy, was quoted in the paper the 
other day describing projected shortfalls in aircraft 
capability as the war on terrorism continues to tax our fleet 
of C-17s, C-130s, C-141s, and C-5s. Would you describe what you 
think is the importance of our airlift and how it has played in 
rapidly deploying our combat forces there? Also, could you 
comment on the DOD's airlift needs?
    General Franks. I included in my written statement what I 
think would be taken as an agreement with General John Handy 
with respect to strategic lift. If you look at Afghanistan, you 
are talking about a landlocked country. So whatever we are 
moving in and out of Afghanistan, at least for the first 
several months until we were able to start using land lines of 
communication, we did by air.
    Transportation Command has done an incredible job with the 
assets available to them. I think John Handy's view is that the 
number of airframes needs to be increased. I agree with that 
view. In terms of the way it is prioritized, I cannot talk to 
how many that means in a given year. But I think we all 
recognize that for our work in the future strategic lift is 
going to be absolutely critical to us.
    Senator Carnahan. Thank you. My time has expired.
    Chairman Levin. Thank you, Senator Carnahan.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    Mr. Secretary and General Franks, thank you for your 
service, your very fine service. This is a great and free 
country. It is appropriate that the leaders of our war effort 
come before the committee and answer tough questions, 
complaints, and second-guessing, and from that we learn.
    My observation is that our military is taking extraordinary 
steps to learn. It is creative and innovative, perhaps more 
than any military in history. It is transforming itself in 
remarkable ways, and for that I salute you. I have no doubt 
that the next conflict will be better than this one, but it was 
a tremendous improvement over the last one and it continues to 
improve. I think all of us have to recognize that and salute 
you for it.
    We had complaints before this war began, fears expressed 
that I was just thinking about recently: oh, we are not going 
to be able to win this war; the Russians had failed; we were 
going to fail; we cannot succeed in this far-off place; we 
cannot get enough friendly nations to help us move our material 
and personnel in; if we attack, it will really make the 
terrorists mad and they will really bomb us even more than they 
are today; that the Arab street would go up in arms; that the 
Afghan people were not going to like American troops coming 
there, would not accept our effort, and would not be friendly 
to us; and that Arab nations would all in a unanimous effort 
oppose what we have done.
    So facing a lot of difficulties and a lot of challenges, 
you have negotiated those with great skill, I believe, 
diplomatically, militarily, politically. We have made more 
progress than we have a right to expect at this time. I just 
want to say on behalf of myself, along with others in this 
country who agree with me, that we have done very well. We 
thank you for it, and we have achieved tremendous military 
success.
    This Taliban government, that we had the capability of 
defeating, has been defeated. It no longer exists. Yes, we have 
not captured bin Laden, but I do not think anybody could make 
it a policy of the United States to guarantee we could capture 
one person anywhere in the world. If you give me a head start 
in Alabama, you will have a hard time finding me, I will just 
tell you.
    So I am not disappointed. I would be disappointed if he 
were still orchestrating and pulling the strings behind his 
terrorist network. I think we have to be pleased with what has 
happened in Pakistan. They have taken a stand on the right 
side. The Philippines have made tremendous progress against 
terrorism, killing the leader of that group and making real 
progress there. We have gotten greater help from the Europeans 
from intelligence. Other Arab nations have helped us with 
intelligence and insight into this terrorist network. I believe 
we have done a lot of good.
    Mr. Secretary, I know you have been criticized for not 
moving far enough in nation-building, as some would like to 
call it. My understanding is first of all we have about 5,000 
troops in Afghanistan. Is that correct?
    Secretary Rumsfeld. A little more.
    Senator Sessions. A little more. We have 7,000 in Kosovo 
with no prospect of getting a lot more of those home very 
rapidly. I think you have been exactly correct to do everything 
within reason to not allow our presence to expand unnecessarily 
and to allow ourselves to be committed unnecessarily to our 
military forces to do things we cannot achieve.
    Are you satisfied where you are in that effort in terms of 
striking the right balance between helping rebuild this country 
without turning our military into a police force in every 
village, hamlet, and farm in Afghanistan?
    Secretary Rumsfeld. Senator Sessions, first thank you very 
much. You are right. You have posed the tension that exists as 
to how to manage a difficult and delicate situation.
    In thinking about some of the earlier questions as to how 
we got to where we are, it seems to me there were several 
things that took place. First, was that the nature of the 
Taliban was so repressive and egregious that the people of 
Afghanistan felt liberated.
    Second, a lot of Afghan people did not like the foreigners, 
the al Qaeda, coming in there and taking over major portions of 
their country.
    Third, you are right; the decision to have a relatively 
limited footprint, unlike the Soviets and other countries might 
have, and avoid being seen as a foreign occupying country, 
particularly in a place like Afghanistan, was terribly 
important.
    Next, we made a determined effort to avoid collateral 
damage. For a country that has been bombed like it was during 
the civil wars and Soviet occupation, and all the people that 
were killed, and all the carnage, and the damage to vineyards, 
buildings, institutions, and religious idols, the fact that we 
have been so careful was respected.
    General Franks from the very first day started humanitarian 
assistance, and it seems to me that has helped as well.
    The one area where we are really uneven is in countering 
lies and disinformation by the Taliban, the al Qaeda, and the 
forces that oppose us. We have not done a brilliant job there. 
Their training manuals organize them to do it. They are 
skillful at it. They are on the ground and were able to 
constantly try to make it look like it was an anti-Afghan 
effort, or an anti-Islam effort, or a foreign occupying effort.
    We were constantly trying to correct that. Every time they 
would do it, they would have free run of the media for a period 
of time before we could get ourselves organized to try to 
counter it.
    But your question is right on the mark. That was the 
tension all along, how to do that. I appreciate your comment.
    Senator Sessions. Well, thank you for that.
    General Franks, just a brief question with regard to 
airlift and precision-guided munitions. You made reference to 
that in your statement. This budget has increased funding 
substantially for both of those. It is something that is very 
critical, as well as to unmanned aerial vehicles. Are we where 
we need to be? I frankly think that we could find more if you 
have to have it. Where are we in terms of your satisfaction 
level with the increase in airlift, unmanned vehicles, and 
precision-guided munitions?
    General Franks. Sir, thank you for the question. There has 
never been a combatant commander without an appetite. I am one 
with an appetite for the sorts of systems you talk about. I 
think that what we see with precision-guided munitions right 
now instructs us a lot for the future of warfare. I think what 
we have seen with unmanned aerial systems and the way we have 
seen them used in Afghanistan, while imperfect to be sure, has 
taught us about what we want to do.
    I think we have seen that the requirement to move a number 
of people and tons a long ways by air taught us something about 
our strategic mobility. So my appetite for those systems as a 
combatant is insatiable. But I am also pragmatic enough to 
recognize that there will be only so much resource and that 
some prioritization will have to be done there. So if I just 
keep my humble position, then more is better. But I recognize 
that a sense of prioritization will have to be done within the 
various military Services and within the secretariat.
    Senator Sessions. On those three things, I think they 
should be prioritized and we should not skimp on those.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    Mr. Secretary and General, I want to join with others in 
saluting both of you for your extraordinary efforts and your 
successes in the last 2\1/2\ months. You accomplished more in 
about a 10-week period late last year than the old Soviet Union 
accomplished in 10 years in Afghanistan. You routed an enemy 
which believed itself to be entrenched and equipped to prevail 
against you, and you initiated a military engagement in about 6 
weeks versus, as I recall, in Operation Desert Storm which took 
about 6 months a decade before.
    From all accounts and those who have more expertise in this 
realm than I, your prosecution of the war was if not 
transformational, at least it involved a lot of breakthrough 
innovation. I assume this will be studied for many years to 
come, especially the combination of precision targeting and the 
delivery of overwhelming force to maximize lethality against 
the enemy and minimization of the casualties to our own forces, 
our allies, and even the civilians in these enemy-occupied 
territories. This is really exceptional and again enormous to 
your credit.
    It seems to me that one lesson of all of this, going back 
to the beginning on September 11, is that even with this 
overwhelming superiority militarily, we as a country do not 
enjoy invincibility. We can retaliate, we have proven with 
devastating punishment against an enemy attack, but the damage 
and the death and the destruction that attack can cause against 
us causing an unprecedented menu of options that our enemies 
have available. These blows raise some obvious questions like: 
can we afford to wait to retaliate in future situations?
    I believe it is that question which caused the President to 
raise at West Point the possibility of preemption. I guess in 
my view, its appeal is matched only by its peril. If it is 
employed, it seems to me it is going to have profound 
implications for our country and for other countries around the 
world, friends and foes alike, and for the future of military 
conflict in this world.
    So I would ask each of you in turn, Mr. Secretary and 
General, how do you apply the experiences of the al Qaeda 
attack on this country and the subsequent Afghan war to the 
groups and governments which pose these prospective threats to 
us today?
    Secretary Rumsfeld. Senator, your question is central. It 
is one that not just Congress or the United States, but the 
world, is considering. It is elevated because of several 
things. Most importantly, it is the proliferation of weapons of 
mass destruction. The 21st century is a period where our margin 
for error is modest, where we put at risk not by weapons of 
mass destruction hundreds, or thousands, but hundreds of 
thousands, or potentially millions of people.
    If one looks at what happened, Afghanistan did not attack 
the United States. Afghanistan behaved in a way that harbored 
the al Qaeda, who did attack the United States. As tragic as it 
was, it was not with weapons of mass destruction that time. The 
United States made a conscious decision to engage in what 
people call preemption, preventative action, or anticipatory 
self-defense. I think of it as self-defense. We went after 
Afghanistan, which had not attacked us, but we went there to 
eliminate the Taliban as a governing body. We also eliminated 
the ability of the al Qaeda to use that country as a base for 
their terrorist network.
    We did it because we knew we could not simply sit here and 
allow them to continue to train thousands of additional 
terrorists who will without question get their hands on weapons 
of mass destruction in the period ahead. It is written. It is 
not ``if,'' it is ``when.'' There is just too much of it around 
the world, too many terrorist states that are engaged in 
weapons programs, involved with chemical weapons, biological 
weapons, and aggressively pursuing nuclear weapons.
    Therefore, what you have raised is exactly what this 
country and the world has to consider, because we are in a 21st 
century security environment and it is notably different than 
the 20th century.
    Senator Dayton. General?
    General Franks. Senator, the only answer I can give is just 
the notion that says to take the fight to the enemy. The 
operational concept is maintain initiative by taking the fight 
to the enemy.
    Senator Dayton. Mr. Secretary, given with what you said, 
that we are likely to live the rest of our lives in the 
foreseeable future in a world where, given the proliferation of 
both the technology as well as the scientific and technological 
know-how to put that into effect, there will be groups or 
governments who do or may have these capabilities who are 
inimical to our interests, who may perceive us as enemies, what 
are the triggers? What are the tripwires that we use? Do we go 
in preemptively every time we have identified such? How do we 
frame that debate and deliberation?
    Secretary Rumsfeld. Senator, it seems to me that is 
something that this body and other nations and academic 
institutions need to consider. What one has to do is to balance 
the advantages, as General Franks suggested, of anticipatory 
self-defense or preventative action, against the disadvantages 
of not doing it. One has to weigh those. There are a number of 
factors that have to come into play.
    Obviously, there are countries like the United Kingdom that 
have weapons of mass destruction. Democracies do not tend to 
attack other people. They do not tend to go after their 
neighbors. They do not tend to sponsor terrorist states. So if 
one wants to look at one differentiation and a way to do a 
quick triage, democracies that have weapons of mass destruction 
tend not to be threats.
    There are other countries that, depending on their degree 
of intimacy with terrorist networks, obviously elevate 
themselves as problems. My guess is that our society and the 
world will end up reading and listening to what the dictators 
and the repressive regimes around the world say about what they 
think those weapons ought to be used for, what they think of 
their neighbors, and how they condemn the alleged illegitimacy 
of their neighbors, and the things that they tell to their 
people.
    We have a wonderful way of turning a blind eye to what 
these people are saying. If we sat down and looked at what they 
are doing to their own people--starvation, repression, 
butchery, use of chemicals--and if you look at the 
aggressiveness of their programs, which is another measuring 
item, how close are they to having these weapons and how close 
are they to using those weapons? You would have to agree that 
these are tough calls.
    But if you look at what they are doing to their people and 
then look at what they are saying they want to do to other 
nations in the world, pretty soon people have to nod and say, 
``Well, they are nominating themselves, they are not being 
nominated.''
    Senator Dayton. My time has expired. Thank you, Mr. 
Chairman.
    Chairman Levin. Thank you, Senator Dayton.
    Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    First of all, I would like to start off, Mr. Secretary, by 
saying you are doing a great job. I can recall during your 
confirmation process there were a few naysayers out there, but 
I think you have proven them wrong, and your leadership of our 
Armed Forces during some very timely, some very trying times, 
is very much appreciated, and particularly by myself. I just 
wanted to express that to you in a public manner today.
    Secretary Rumsfeld. Thank you very much.
    Senator Allard. I think that your efforts to take a serious 
look at our legacy systems is appropriate. I continue to hear 
people expound upon wanting to stay with some of the older 
legacy systems. I have always felt that we need to work to 
modernize our forces. That is going to be the strength of our 
country and I think that your efforts in trying to modernize 
those forces is going to make a difference 10 or 20 years from 
now.
    I just have heard the comment from some individuals that 
maybe we should have had more people on the ground; if we had 
had more people on the ground, maybe Osama bin Laden would not 
have escaped. But I do think that fewer people on the ground 
and higher technology saved American lives. If I were to make a 
tradeoff there, I will take the American life any day. So that 
is where I am coming from and I just wanted to say those things 
to you, Mr. Secretary.
    My question is to you, General Franks. You have been there. 
You have talked with people on the ground. I would like to have 
your honest assessment of how our space-based assets have 
helped during Operation Enduring Freedom. I would also like to 
have you discuss where we may need improvements in the future 
as far as our space-based assets are concerned.
    General Franks. Senator, I will tell you that the pieces of 
this operation, which have been successful, would not have been 
so without space-based assets. It is simply a fact. I will give 
you only one example, but I could give you many. We could talk 
about command and control of unmanned aerial systems. We can 
talk about intelligence, surveillance, and reconnaissance 
capability. We could discuss this, sir, in closed session. But 
I will use a different example.
    I will use the example of what we have referred to as 
offset command and control for many years in our Armed Forces. 
But until this particular effort in Afghanistan, we actually 
have never seen it. What I mean is the business of having 
combatant command and control located in Tampa, Florida, with a 
war fight or in control of a war fight that is going on in 
Afghanistan.
    Is that a perfect circumstance? Of course not. The one 
thing that this committee recognizes is the ability to reach 
out and touch people and explain to them. That care is a part 
of the military work and so we miss that. On the other hand, 
space-basing has given us the ability through huge pipes to be 
more situationally aware thousands of miles away from this 
battlefield, I would posit, than we have ever been before when 
we were on the battlefield.
    Senator Allard. Could you comment about the role of 
commercial space-based products and do you see an increase of 
their role in the future?
    General Franks. Senator, I would have to give you something 
for the record, to be very honest with you. I see a great many 
space-based products from the commercial sector, but I do not 
have an informed or mature view of it.
    Senator Allard. I understand that we had to rely on 
commercial space imaging, for example, to help us some during 
this process. When you respond in your written response, I 
would appreciate it if you would make some comments in that 
direction.
    General Franks. I will do that, sir.
    [The information referred to follows:]

    Space-based commercial imagery products have played and will 
continue to play an increasingly important role in intelligence 
monitoring and operational planning.
    The National Imagery and Mapping Agency (NIMA), in concert with 
government contractors, has developed collection and production 
processes to incorporate commercial imagery into our intelligence-
gathering efforts. NIMA's Central Imagery Tasking Office validates 
CENTCOM's commercial imagery requirements, works with vendors to 
accomplish collection, purchases appropriate licenses, and makes the 
imagery available to U.S. Government organizations via NIMA's web-based 
Commercial Satellite Imagery Library.
    At CENTCOM, geospatial information analysts use the imagery data to 
create a variety of geospatial products (such as image maps, map 
revisions, precise geo-location graphics, and situational awareness 
tools) at the unclassified level. The data can also be incorporated 
with classified products. However, the availability of unclassified 
commercial imagery products is extremely useful for collaboration with 
coalition partners and non-governmental organizations, because 
classified national imagery products are generally not releasable to 
them.
    National intelligence agencies, Service intelligence centers, 
CENTCOM, and our Service topographic units routinely use commercial 
multi-spectral imagery to evaluate the battlefield. Examples include: 
the identification of drop zones, landing zones, areas of limitation, 
and trafficability of hostile forces. As commercial hyper-spectral 
imaging capabilities become more robust, we will be able to accomplish 
these tasks with more accuracy. Hyperspectral imagery also holds great 
potential for the development of enemy activity signatures, perhaps 
most significantly the identification of chemical and biological 
weapons activity.
    Another important role for commercial imagery products lies in the 
arena of public affairs. When we release statements concerning enemy 
activity supported by evidence from commercial imagery sources, any 
charges of DOD manipulation of the imagery are thwarted because the 
same imagery is available to the public.
    Since the beginning of Operation Enduring Freedom, commercial 
imagery has been used to update 1:50,000- and 1:100,000-scale 
topographic maps, which are essential combat planning tools for forces 
on the ground in Afghanistan. I have incorporated commercial imagery 
into many of our operational planning tools, and used it routinely in 
briefings to coalition partners. Commercial imagery products have been 
especially useful in debriefings of detainees.
    Although commercial imagery has great utility in support of 
military operations, it cannot be used as a substitute for existing and 
future national imagery sources. National systems will remain vital to 
our intelligence efforts, especially in the CENTCOM area of 
responsibility.

    Senator Allard. I appreciate that very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Allard.
    Senator Landrieu.
    Senator Landrieu. Thank you, Mr. Chairman.
    I know the time is getting late, but I appreciate, Mr. 
Secretary, seeing you and having you here. General Franks, 
thank you for your extraordinary service.
    I have a statement I would like to submit, Mr. Chairman, 
for the record. I ask unanimous consent.
    [The prepared statement of Senator Landrieu follows:]
             Prepared Statement by Senator Mary L. Landrieu
    Thank you Mr. Chairman:
    I would like to thank you for calling this hearing. I would also 
like to take this opportunity to welcome and thank Secretary Rumsfeld 
and General Franks for the outstanding commitment they and every 
uniformed man and woman, here and across the globe, continue to bring 
to the war on terrorism.
    The prosecution of this war, under your watchful eyes, has now 
moved into an even more difficult phase. Our mettle and resolve as a 
united nation is now under its most stringent test--will we be able to 
continue winning the war on terrorism without the ``popularity vote'' 
of the evening news? Will our troops still be in the forefront of the 
minds and hearts of Americans? I say the answer to that is ``YES.''
    Mr. Secretary and General Franks, now more than ever before, as the 
American public and the world settle in to the idea that we will be 
fighting this war for months, even years, you must continue to provide 
the leadership and the guidance by which our defense priorities are set 
for our two most important goals: Eradicating terrorism--not 
unilaterally, but with the support and participation of our allies and 
friends--and, fostering the growth and stability of freedom and 
democracy for citizens in those countries who have been gripped with 
terror for so many years.
    As we move into planning for the next phase of this war, it is 
clear we must be thoughtful, systematic, determined, and have ``right'' 
on our side. Only then can we feel justified in taking the necessary 
steps to eradicate terrorists. We look forward to the day when 
terrorist groups are few or none, and do not receive support from any 
governmental body, in any country. There will soon be nowhere for 
terrorists to hide and no training grounds for their particular kind of 
evil.
    The war in Afghanistan is proving to be a catalyst for change in 
our military. We are successfully transitioning from our legacy force 
and concentration on multiple major theater wars to a lighter, leaner 
force, which is able to take on any asymmetry of war which may arise. 
Most importantly--and I cannot emphasize this enough--we need to be 
able to successfully stabilize previously destabilized regions and 
begin the long process of helping to rebuild these nations through 
careful planning, persistence, and innovation. This is the only means 
we have to ensure our long term success in keeping terrorists from 
regaining control over the societies we have set free. The women and 
children in these countries must have the freedom to study, to walk 
along the streets, to receive healthcare, to play, to worship--and all 
without fear of being killed for the simplest of life's liberties.
    This committee relies on your visits to us and our visits to these 
regions to provide the firsthand updates we must have to ensure all the 
needed resources are available to our troops. We take this 
responsibility to heart each and every day and our thoughts and prayers 
continue to be with our men and women in uniform and with their 
families.
    They have our respect, our admiration, our support, and that of the 
American public to continue winning this war by defeating those who 
would take away our freedoms, our very way of life, and who would leave 
a legacy of conflict, fear, and oppression for our children.
    Once again, I thank you both for your dedication, guidance, and 
leadership of our troops now, and through the duration of the war on 
terrorism.

    Senator Landrieu. Let me emphasize, though, one part of the 
statement and it will lead into the two questions that I have 
for you gentlemen.
    One part of the statement says--and Senator Lieberman 
really honed in on this in terms of his line of questioning and 
comments--that there is no question that we have been 
extraordinarily successful in our military operations. There is 
not a critic that I know of in the world in terms of that. We 
might have made a small mistake here or there, but, overall, it 
has been an extraordinarily successful operation because of our 
superior technology, our organizational skills, and our just 
overall capacity.
    But I think the challenge that lays before us is after 
winning the war how to establish and stand up the peace so that 
we are not continuing to fight the same wars, so that we are 
not accomplishing great things on one battlefield only to lay 
the seeds of, unfortunately, another battlefield in the future.
    So my statement says something about the challenge before 
us to be able to successfully stabilize previously unstable 
regions and to begin the long process of rebuilding these 
nations through careful planning, persistence, and innovation. 
There does seem to be some disagreement about what we call it, 
but I am not sure there is any real disagreement about the need 
for and the necessity to finish a job we have started. 
Finishing has to do with eliminating the operations of a 
terrorist organization and eliminating its possible rebirth. 
That is a greater challenge and it is harder to put our hands 
around.
    Given that, how are we explaining our plan to President 
Karzai, who has asked for additional help and support outside 
of the region that we have defined? How do we explain to our 
partners and allies, who have asked for support outside, what 
we have determined we should do? What do we say to them after 
the agreements that have been signed about helping to stand up 
the peace? What is our explanation to why we quasi-considered, 
but not accepted, their invitation to expand our operations to 
prevent another war or prevent the seeds of discontent from 
sprouting up again? Mr. Secretary?
    Secretary Rumsfeld. It is a question, Senator, that is 
critical. Our country and the world needs to help find an 
answer to it. Afghanistan is a country in which the 
institutions of government have been destroyed for a couple of 
decades. It is without a lot of the normal things that one 
would have like: an army, border patrol, police, courts, and 
all of those ministries that need to do things.
    For it to be able to assume responsibility for its own 
security so that people return, economic activity can go 
forward, and humanitarian assistance can be provided, it will 
require a period of time. What we have said is that we want to 
do everything humanly possible to help the central government, 
and we are trying to see that every type of assistance comes 
through that government so that it becomes stronger.
    We are helping to train the Afghan army. We are helping to 
ask the world for money to come in and help provide border 
patrols and help provide police training. We are the ones who 
helped encourage the countries to volunteer for the 
International Security Assistance Force, recruited Turkey to 
become the successor leader, and now trying to recruit other 
countries to succeed Turkey in December.
    When we deal with President Karzai, he knows that. He 
understands that. When we talk about priorities as to what we 
ought to be doing, and he agrees with us that our first job is 
to stop the al Qaeda and the Taliban from retaking the country.
    Senator Landrieu. But in all fairness, Mr. Secretary--and I 
agree that we have done an extraordinary amount of work and 
that we most certainly cannot do it all--the long-term success 
would be rebuilding that country and helping them. But is it 
not true that he has asked us for this assistance and to go 
outside of Kabul and to stand up the multinational force with 
some more assets of our own?
    Secretary Rumsfeld. There is no question that President 
Karzai would like that. There is no question that we would like 
that. The question is, what ought we to do with what resources 
we have and how can we be most helpful? I think if President 
Karzai were here, he would agree with us that what we are doing 
in supporting the ISAF, in training the Afghan National Army, 
in going after the al Qaeda and Taliban, and by having our 
Armed Forces with most of the regional political leaders' and 
warlords' units to provide security around the country is a 
higher priority than having additional ISAF, notwithstanding 
the fact we would like to see that happen.
    Senator Landrieu. I appreciate that. I just think that in 
this whole debate, which is complementary or fits the debate 
about Iraq and what we need to do in Iraq, I agree with you the 
threat is real. This country has no good intentions. It is of 
great interest and should be to every American about what is 
going on in Iraq and what our measures are to deal with it.
    But I am going to have difficulty trying to explain to at 
least my constituents in Louisiana why we would be looking like 
we are somewhat hesitant in Afghanistan when the job seems more 
doable than what we are facing or potentially facing in Iraq. 
It is not a clear message.
    So while I am thinking, knowing, and believing the threat 
is real and being one of the Senators willing to do something, 
we would have to come across with a little more direct words 
matching effort to go there.
    I am going to submit my last question, which has to do with 
our commitment to stand up civil affairs, which is a very 
important component, General Franks, to what you are doing. 
Again, we are excellent at winning the war. We have the 
capability for it. I think the Army has the capability. I do 
not question the capability of our service men or women in any 
way. It is the political will that I wonder about and if it is 
there to step up to the civil affairs aspect of this so we can 
keep our men and women out of harm's way in the future.
    I will submit my additional questions, Mr. Chairman, for 
the record.
    Chairman Levin. Thank you, Senator Landrieu.
    General Franks. Senator, I might give just a quick response 
on civil affairs. The Secretary mentioned earlier the 
humanitarian assistance since the very first days of this. 
Also, since the very first days of it, we have been using civil 
affairs people and, in fact, have had a flag officer inside 
Afghanistan since, I believe, December as a civil affairs 
commander. When I mentioned the 300-plus nongovernmental 
organizations and the projects, it is actually those civil 
affairs units who are affecting the coordination that is 
bringing all that to pass.
    Senator Landrieu. But for the record, Mr. Chairman, we 
have, I think, approximately 4,000 civil affairs and we have 
158 in the country. Can you clarify those numbers were the 
numbers?
    General Franks. I do not know what the civil affairs 
numbers in the country are right now. I will supply that for 
the record.
    [The information referred to follows:]

    The breakdown of Civil Affairs personnel within the U.S. Military 
is as follows:

U.S. Army Reserve..........................................      3,024
U.S. Army Active...........................................        220
U.S. Marine Corps Reserve..................................        275
                                                            ------------
  Total....................................................      3,519
 

    Of the above numbers, 155 U.S. Army Reserve and 15 U.S. Army Active 
Civil Affairs soldiers are currently deployed to Afghanistan in support 
of Operation Enduring Freedom.

    Secretary Rumsfeld. Mr. Chairman, may I make one comment on 
this subject?
    Chairman Levin. Sure.
    Secretary Rumsfeld. One of the dilemmas is that to the 
extent the United States or any country goes in and substitutes 
its other capabilities for the absence of a capability. One has 
to know that that is a good thing if it is temporary and if it 
stabilizes the situation. It is a bad thing if it creates a 
dependency on the part of that country for those capabilities.
    What we saw was a promise to get out of Bosnia by Christmas 
1996 and we are still there. What we need to do is find how can 
we provide the Afghan government with the kind of support that 
will enable it to develop the strength to provide for its own 
security and that other countries--ISAF, coalition forces, the 
U.S. or anyone else--will not have to be there at all.
    Trying to do that, there is no road map for it. It is not 
science; it is art. We are doing it as well as we know how. My 
impression is that the priorities are right, and my impression 
is that President Karzai would agree with the priorities. But 
that is not to say he would not like more help. He would.
    You are quite right, we have to get other countries to step 
up and deliver on their pledges of money and support.
    Chairman Levin. Senator McCain.
    Senator McCain. Thank you.
    I thank both witnesses for their patience. It has been a 
long afternoon. I add my voice to the chorus of appreciation 
for the great job you are doing for the country.
    I have been listening carefully to the questions and the 
answers and, I am reminded of my old, dear friend Morris Udall, 
who once said everything that can possibly be said on this 
subject has been said, only not everyone has said it; the issue 
has been pretty well covered. But I do have several comments.
    First of all, Mr. Secretary, since the issue of Iraq and 
leaking was brought up, I am entertained because you have been 
around this town a long time. The fact is that I am reminded a 
bit of Claude Rains' protestations about what was going on in 
Rick's Casino. The fact is there are competing proposals within 
the administration and certain people are using or attempting 
to gain advantage by leaking information.
    We have had leaks on everything short of the use of 
tactical nuclear weapons. When it is resolved within the 
administration, Mr. Secretary, as to what the strategy will be 
for the regime change in Iraq, which the President has been 
steadfast and I strongly support that has to be done, then I 
think you will find the leaks will stop. But it is a game that 
was played when you first came here nearly 30 years ago and it 
will probably be played 30 years from now.
    As far as Tora Bora is concerned, we all know we needed 
more boots on the ground, but we learn lessons. We learn 
lessons and the following operations have been much more 
successful.
    But the main thing I want to comment on is the situation as 
regard to Afghanistan. Many of us remember 1989 when the Soviet 
Union, with our help to the freedom fighters and resisters, was 
driven out of Afghanistan. We, rightfully perhaps, given the 
challenges at the time, turned our back. Chaos ensued and the 
Taliban came to power.
    It is very clear the lessons of history. You said, ``It is 
not art, it is science,'' but we all can learn from history, 
Mr. Secretary. When we turned our back on Afghanistan, the 
people preferred a totalitarian government to chaos. Right now 
outside of Kabul, we are bordering to some degree on chaos. You 
mentioned yourself that there are warlords who are fighting 
against one another and we do not know whose side to intervene 
on.
    The fact is we need to expand the peacekeeping force. We 
cannot expect any other country to do it. Yes, we were supposed 
to be out of Bosnia by Christmas, but we have a reason to 
remain in Bosnia. We need to expand our peacekeeping forces or 
we will repeat the lesson of 1989. The assassination of the 
vice president clearly indicates that. The need to provide U.S. 
troops as security forces for the president within his own 
capital clearly indicates that.
    You will be making a serious mistake if you say, ``Well, we 
expect other countries to step up.'' We are the world's 
superpower. We have to step up.
    Finally, I want to discuss with you just briefly this whole 
issue of aircraft leasing. I will not go into a diatribe about 
it except to say that the American people right now are very 
upset at major corporations cooking the books. You are about to 
cook the books on this lease arrangement for either 737s, 100 
of them, or 4 VIP 767s. I have two questions.
    One, where was the four VIP 767 aircraft on your priority 
list? I cannot find it anywhere. Second of all, would you agree 
that it is necessary to get authorization from this committee 
before entering into any lease purchase agreement of any either 
737s or 767s?
    I thank you for your patience and I thank you for being 
here to give us your very enlightening answers to many very 
important questions.
    Secretary Rumsfeld. May I make just three quick responses?
    Senator McCain. You can do anything, Mr. Secretary.
    Secretary Rumsfeld. On the leak issue, I do not doubt for a 
minute that there are differing views about what one ought to 
do. I can tell you one thing: the relationship between the 
senior civilian leadership in the Department, between the 
Chairman and Vice Chairman of the Joint Chiefs and the Central 
Command, General Franks, is working well. The discussions that 
take place and the process that has been established have been 
working as well as I have ever seen.
    To the extent there are people down at lower levels who do 
not agree with one level or another----
    Senator McCain. Or other branches of the government.
    Secretary Rumsfeld. Whatever. You are quite right, I came 
here in 1957, and it has always been so.
    Second, I do not agree that the situation in Afghanistan 
outside of Kabul is bordering on chaos. I think it is 
reasonably secure, but it is less secure and worse in the 
southeastern part of the country. The one location where there 
is an ISAF, Kabul, the vice president was assassinated. So it 
is an untidy place, but it is a lot tidier than it used to be.
    I agree with you; there simply must be more capability, 
from wherever, to assist the Karzai government in security, 
theirs and elsewhere.
    Last, on the lease arrangement, you are quite right; some 
of the specifics that you referred to were not in the 
President's budget. I do not know the answer technically as to 
what authority the Department has or does not have with respect 
to lease arrangements. I know that in the private sector, one 
always looks at the lease-buy alternative and makes a judgment 
with it as to what is the most effective.
    I am told that the Air Force has the responsibility for 
reviewing these things and is doing so.
    Senator McCain. Could you answer the final question that I 
asked? Do you believe that before entering into a lease-
purchase agreement or leasing agreement that you should get 
authorization from this committee?
    Secretary Rumsfeld. That is what I do not know the answer 
to. That is a technical question. I would have to go back and 
check.
    Senator McCain. What is technical about it? This is the 
authorizing committee, Mr. Secretary. You have been around long 
enough to know whether it should be approved of by this 
committee or not, or should it be done unilaterally? I do not 
think it is a technical question. I think it is a very 
important question about the authority and responsibility of 
the Senate Armed Services Committee.
    Secretary Rumsfeld. I guess I answered it as well as I can. 
I would have to go back to see what is in the authorization 
language, what is in the appropriation language, and how the 
conferences came out. I just do not know the answer. You may 
not think it is technical, but it is.
    Senator McCain. Thank you, Mr. Chairman.
    Secretary Rumsfeld. But if I answer it wrong, then I have 
to go back and correct the record, and I simply do not know 
what authority the Air Force currently has with respect to it.

    In accordance with section 8159 of the Department of Defense 
Appropriations Act, 2002, the Air Force may enter into a lease for up 
to 100 commercially configured, general-purpose, Boeing 767 aircraft, 
30 days after submitting a report to the congressional defense 
committees concerning the proposed lease.

    Senator McCain. Thank you, Mr. Chairman.
    Chairman Levin. I just would make a quick comment before we 
close this meeting. A number of us have raised the question 
about whether or not we should be doing more to assist the 
Afghan government to assure that there will not be a return to 
chaos in the rest of the country outside of Kabul. I must say I 
agree with Senator McCain and others who have raised the point 
that we must lead in this area.
    U.N. Secretary General Kofi Annan has said that a limited 
expansion of the International Security Assistance Force to 
areas outside of Kabul would make a huge contribution to the 
consolidation of peace. I would hope that the administration 
would consider that additional support.
    Mr. Secretary, you have said a number of times that the 
allocation of the forces that we have there represents the top 
priorities and that you believe that President Karzai would 
agree if he were here. I think that is correct. The question is 
whether any additional resources should be offered, 
particularly if it might result in other countries coming 
through with pledges and with forces so that we could heed that 
advice of Secretary General Annan and get some forces, like the 
International Security Assistance Force, to the areas outside 
of Kabul. I would hope that this administration would consider 
that. That is a huge issue and I think we do not want to win 
this war and then lose the peace in the sense of seeing a 
return to chaos. I do not think anybody would want that to 
happen.
    Your last comment is that more capability is needed ``from 
wherever,'' to use your word, to assist the Karzai government. 
``Wherever'' may need to include some contribution from us if 
it is going to include contribution from other places. I just 
hope that that remains a possibility in the thinking of the 
administration, because the stakes are so huge here.
    We will recess now, unless you want to add a comment. We 
want to thank you again for your presence, for your tremendous 
energy, for what you have done to really make it possible for 
us to have the successes we have had in Afghanistan.
    We will now resume promptly in closed session in room 222 
of the Russell Building. Thank you both.
    [Questions for the record with answers supplied follow:]
             Question Submitted by Senator Mary L. Landrieu
                                  iraq
    1. Senator Landrieu. Secretary Rumsfeld, at this morning's Foreign 
Relations Committee hearing on U.S. policy towards Iraq, Anthony 
Cordesman--who also testified at a hearing of the Emerging Threats and 
Capabilities Subcommittee that I chaired earlier this year on Iraq--
stated that he believed that the U.S. should not give up on containment 
of Iraq until ``nation-building'' is a bipartisan term. What he was 
highlighting was the fact that after every major military operation, 
there is almost inevitably some peace operation that follows. If we are 
not willing to commit more U.S. troops to support multinational peace 
operations in Afghanistan--measures Chairman Karzai has requested--how 
can we even think that we would persuade our allies and Iraqis that we 
would be serious about ensuring peace and stability in Iraq after we 
have removed Saddam Hussein?
    Secretary Rumsfeld. The President has not made a final decision 
regarding military options on Iraq. That said, if the U.S. coalition 
partners move against Iraq, our strategy will have a post-Saddam 
component, which would seek to establish a broadly-based representative 
government. Such a government in Iraq would generate confidence that it 
will be committed to meeting the needs of the Iraqi people. Any 
presumed U.S. or coalition role in the post-Saddam period must 
necessarily be conditioned by the fact that we seek no permanent 
territorial presence there. However, that should not cause anyone to 
think that we will shrink from urgent post-Saddam responsibilities 
there. The post-Saddam situation is difficult to predict, but, before 
departing, the U.S. will work to ensure that the new government 
renounces weapons of mass destruction, poses no threat to its own 
people or to its neighbors, and does not engage in any activities that 
pose a threat to international stability. Our intention is to stay as 
long as necessary, but not a minute longer.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond
                roles of non-governmental organizations
    2. Senator Thurmond. Secretary Rumsfeld, historically, the United 
States has relied on non-governmental organizations (NGOs) to provide 
the bulk of humanitarian aid and support for rebuilding the nation's 
infrastructure. What support are the NGOs providing to Afghanistan and 
how are their efforts coordinated into the U.S. plans for Afghanistan?
    Secretary Rumsfeld. There are currently over 300 NGOs in 
Afghanistan. U.S. Government Agencies (U.S. Agency for International 
Development, U.S. Department of Agriculture, the Department of Defense, 
and the Center for Disease Control) are working with over 30 of these 
NGOs to provide services in the areas of food, water, shelter, health, 
agriculture, education, reconstruction, work programs, and demining. Of 
the approximately $513 million the U.S. Government has spent for aid to 
Afghanistan in fiscal year 2002 approximately $135 million has been 
given to NGOs. U.S. civil affairs soldiers in Afghanistan have spent 
about $8 million on humanitaritian assistance activities, mostly 
involving schools, hospitals, and water projects. A number of these 
projects have been developed in direct coordination with NGOs.

                     coordinating coalition forces
    3. Senator Thurmond. Secretary Rumsfeld, our experience in Bosnia 
and Kosova highlighted problems in coordinating the efforts of the 
coalition forces. The war against terrorism has forged a coalition of 
more than 60 nations that has complicated the coordination effort. What 
are the most significant issues in coordinating the efforts of the 
coalition in its fight against the terrorists and how is the Department 
addressing these problems?
    Secretary Rumsfeld. The United States has benefited greatly from 
having more than 60 countries involved in the military portion of the 
war on terrorism. These benefits have been political as well as 
military in nature. Our coalition partners have provided indispensable 
assistance ranging from direct military action to logistical and 
humanitarian support. We would not have been as successful as we have 
been  to date without such a robust coalition. Coalition support and 
assistance has allowed U.S. forces to concentrate their efforts and 
reduced the financial costs of the war to the U.S. Government.
    Some of the most challenging issues associated with the coalition 
stem from the fact that initially coalition partners offered more 
forces for the war in Afghanistan than the U.S. Central Command was 
able to use. Our inability to use all forces offered immediately did 
create concerns for some coalition partners. The passage of time and 
the phased inclusion of more coalition forces in the war on terrorism 
have contributed to alleviating these concerns. Also, CENTCOM's 
inclusion of the coalition senior national representatives in the day-
to-day planning process at Tampa has demonstrated the importance that 
we place on the coalition.

                 long-term plans for basing u.s. forces
    4. Senator Thurmond. Secretary Rumsfeld, what are the Department's 
long range plans for stationing U.S. forces in Afghanistan and the 
nations that currently provide basing rights?
    Secretary Rumsfeld. Currently, the United States plans to maintain 
a military presence in Afghanistan to complete Operation Enduring 
Freedom and to train the Afghan  National Army. However, even after 
these missions are completed, the United States plan to continue 
providing Afghanistan with long-term military assistance and 
educational opportunities through our Foreign Military Financing (FMF) 
and  International Military Education and Training (IMET) programs. 
These program activities will be administered through our Office of 
Military Cooperation (OMC) in the American embassy in Kabul. Beyond 
these steps, any decisions on a future United States military presence 
in Afghanistan will have to take into account any requirement for an 
actual force presence (as opposed to base access rights or other 
arrangements), the success of the Afghan National Army training 
program, and the wishes of the Afghan Government. The Department has 
not made any decisions on a future military presence in Afghanistan.
    In addition to considering a future United States force presence in 
Afghanistan, the Department believes that we must also maintain our 
cooperation with countries in the Central Asian region. Although we do 
not envision permanent U.S. bases in these states, we do intend to 
increase long-term security cooperation and to pursue future access to 
Central Asia.

                    combat roles of coalition forces
    5. Senator Thurmond. General Franks, because of its parochialism, 
the U.S. media provides almost daily accounts of U.S. military 
operations in Afghanistan. What combat operations are our coalition 
partners conducting in Afghanistan and how do they compare with ours?
    General Franks. Today, our coalition partners are conducting the 
same demanding combat operations as our U.S. forces on the ground in 
Afghanistan. These missions include: [Deleted.]

                            quality of life
    6. Senator Thurmond. General Franks, based on the Department's 
experience in the deployment of forces to Bosnia and Kosovo (where we 
built facilities for our forces that rivaled what our forces have in 
Germany), what are your plans for housing and caring for our forces in 
Afghanistan?
    General Franks. I strive to provide the best possible facilities 
for American forces serving in Afghanistan. We established a baseline 
to ensure quality of life was consistent across the CENTCOM AOR. We 
develop our camps consistent with our mission, resources, and long-term 
objectives.
    We recently published a guide for contingency and long-term base 
camp facilities. The CENTCOM Contingency and Long-Term Base Camp 
Facilities Standards establish facilities consistent with the base 
camp's mission. The Services and component commanders use the guide for 
planning and forecasting construction requirements. Master planning 
provides an integrated strategy for construction and maintenance of 
required facilities at the best possible cost. The level of detail of 
the Base Camp Master Plan depends on the maturity of the location, the 
speed at which the operational need for a base camp develops, and the 
expected length of stay.
    The CENTCOM Contingency and Long Term Base Camp Facilities 
Standards provide consistent standards and expectations across Service 
components for infrastructure development, security, sustainment, 
survivability (essential for the quality of life), safety, and 
affordable working and living environments. The components are required 
to adhere to the publication to ensure adequate facilities are provided 
for personnel deployed in contingency and long-term operations within 
the CENTCOM AOR.

                        training the afghan army
    7. Senator Thurmond. General Franks, recently, the United States 
completed the training of the first Afghan army battalion. I understand 
that the French are training a second battalion. How will the training 
of the Afghan military be accomplished and to what standards are you 
training these forces?
    General Franks. The training of the Afghan military will be 
accomplished in a deliberate manner in order to facilitate a stable 
environment in Afghanistan. The Commander of the Combined Joint Task 
Force 180 (CJTF-180) is leading the CENTCOM training effort. CJTF-180 
has the mission to assist the Afghan government in organizing, 
training, and equipping the Afghan National Army (ANA).
    Our approach to the training of the Afghan military is to 
strengthen the center first while working to cement relationships with 
the regional leaders. We are focused on building a military capability 
for Afghans to handle their own security in a way that is closely 
integrated with other internal security institutions and reconstruction 
efforts in Afghanistan. We believe the key to the successful 
establishment of the ANA is to focus the effort on ``Afghan 
Supportable'' standards, using weapons and equipment already in 
Afghanistan as much as possible in order to complement donors' 
contributions in funds, resources, and training support.
    Based on the Secretary of Defense's approval of the ``Quick Start'' 
plan in May 2002, 1st Battalion, 3rd Special Forces Group (FOB-31), has 
developed a standard program of instruction (POI) for an infantry 
battalion. ANA battalions will begin training with individual skills 
then progress to squad, platoon, and company level operations. The ANA 
battalion staff will receive training separately to enable them to 
integrate into platoon and company level operations. The 10-week course 
gives the ANA battalions a minimal level of proficiency on which to 
build. Each iteration will be broken down into three phases: the first 
phase will focus on inprocessing, basic infantry skills, and basic 
rifle marksmanship; the second phase will focus on specialty infantry 
training consisting of mortar, demolition, recoilless rifle, machine 
gun, medical, communication, and combat support training; the third and 
final phase will focus on platoon and company collective tasks 
culminating in a battalion level coordinated Field Training Exercise 
(FTX) integrating all three line companies, the battalion heavy weapons 
company, and battalion support assets.
    We continue to work through the many challenges to this start-up 
effort. This process will require a long-term commitment on the part of 
the United States, the United Nations, and the coalition.

                         support of u.s. forces
    8. Senator Thurmond. General Franks, the tragic effects of 
collateral damage have provided fodder for the media and led to press 
accounts that the United States forces are losing the support of the 
Afghan people. What is your assessment of the relationship between the 
Afghan civilian population and our forces? How does that compare with 
the relationship between our allies and the Afghan people?
    General Franks. While these incidents are regrettable, there has 
been no noticeable effect on the support of the Afghan people. The 
Afghan view of the U.S. is that we helped them dismantle the oppressive 
Taliban regime and we are in Afghanistan to assist them in rebuilding 
their nation. Most Afghans believe that the U.S. is the primary source 
of humanitarian assistance throughout the country, even though this is 
not necessarily true.
    In the near-term, the Afghan people view the U.S. and coalition 
forces as critical to the establishment of the necessary infrastructure 
to allow Afghanistan to become a viable country. Sustaining this 
positive attitude will be tied directly to the progress in our 
developmental efforts because the Afghans have very high expectations 
in this area. If there is not a noticeable improvement in quality of 
life and the supporting infrastructure, we may encounter a decrease in 
the acceptance of U.S. and coalition presence by the Afghan populace.
    These isolated occurrences of collateral damage have not materially 
effected the overall support of the Afghan people for our operations. 
Our efforts are still perceived to be essential for the development of 
a viable Afghan nation and a better life.

                            lessons learned
    9. Senator Thurmond. General Franks, as you rotate forces through 
Afghanistan, how do you ensure that the lessons learned are passed to 
the incoming units? What in your personal views do you consider the 
most important lesson learned at the unit level?
    General Franks. Joint and Service-oriented Lessons Learned. There 
are a number of means by which CENTCOM and its component commands are 
able to ensure that lessons learned are transferred as units deploy and 
redeploy to and from the CENTCOM AOR. Web databases like the Joint 
Lessons Learned Program (JLLP), Center for Army Lessons Learned (CALL), 
Naval Lessons Learned System (NLLS), and the Air Force Center for 
Knowledge Sharing Lessons Learned (AFCKSLL) all provide valuable 
information to units as they prepare to deploy to Afghanistan while 
fine-tuning joint Large Force Exercises (LFEs) and Service inter-
deployment training and readiness matrices.
    CENTCOM AOR Indoctrination Training. In addition, CENTCOM 
headquarters and its component commands have a formal indoctrination 
(INDOC) process that officers and enlisted are required to complete 
prior to deployment and/or immediately upon arrival in the CENTCOM AOR. 
These INDOCs are continually updated through real-world lessons 
learned. Rules-of-engagement, operating areas and procedures, command 
and control procedures, public affairs and safety are addressed.
    U.S. Army Transfer Of Authority (TOA)/U.S. Navy ``In-Chop'' 
Process. The TOA/In-Chop processes are another means of passing lessons 
learned from one tactical/operational commander to another prior to 
transferring responsibility within the CENTCOM AOR. In addition to the 
formal administrative transfer of equipment, the out-going commander 
provides a TOA/passdown briefing to the in-coming commander.
    Unit-level Lessons Learned. Clearly, we have the best-trained 
military personnel in the world and the Services should be proud of 
that fact. Still, Operation Enduring Freedom has taught us a few 
things. I would say that one of our greatest lessons learned is the 
need to incorporate high altitude operations into our unit-level 
training and to continue to refine our tactics in this area. 
Specifically, with the majority of our forces operating at altitudes 
well above 6,000 feet Mean Sea Level (MSL), we are learning just how 
hard it is to operate in the high-altitude environment. This is 
compounded by the fact that the majority of our Large Force Exercise 
(LFE) military training areas within the U.S. are at altitudes below 
2,000 feet MSL. Our troops have had to adapt to their environment and 
have done an outstanding job in developing innovative ways to maintain 
combat effectiveness in the harsh environment of Afghanistan. In 
addition, I would add that we need to aggressively incorporate new 
technologies and systems into unit-level training exercises in order to 
improve the weapons, equipment, and command and control systems our 
soldiers use in combat.

    10. Senator Thurmond. General Franks, are the Services 
incorporating lessons learned in their professional development 
courses?
    General Franks. I hesitate to speak on behalf of the Services. I 
will say that all the Services have a means by which to archive lessons 
learned for incorporation into their Service professional development 
courses. Service databases like: the Center for Army Lessons Learned 
(CALL), Naval Lessons Learned System (NLLS), and the Air Force Center 
for Knowledge Sharing Lessons Learned (AFCKSLL) all provide valuable 
information that could be incorporated into Service advancement courses 
and professional development programs.
                                 ______
                                 
                Questions Submitted by Senator Bob Smith
               the people's republic of china and taiwan
    11. Senator Smith. Secretary Rumsfeld, I'm going to veer off the 
hearing subject, because I believe developments in Asia are critical, 
and it's not often enough you're before us and we can bring matters 
directly to your attention.
    Specifically, I have concerns about the renewal of military-to-
military contacts with the People's Republic of China (PRC). It was 
evident to us in the past that the Chinese were benefiting from these 
exchanges far more than we were, and that the past administration let 
PRC officers garner militarily useful information helpful to them in 
their ongoing preparations for the invasion of Taiwan--a visit to FedEx 
in Memphis where they learned about bar-coding comes to mind.
    I'm already disturbed to learn that this administration classified 
its latest military-to-military report for no apparent reason. Can you 
explain to me why this issue shouldn't be in the public domain, and can 
you tell me why we should restart these exchanges, when it's self-
evident they will never be either reciprocal or transparent?
    Secretary Rumsfeld. Our military contacts with the PRC are an 
element of our overall China policy and reflect the President's 
realistic view of the PRC. The administration continues, moreover, to 
adhere strictly to the provisions of Section 1201, P.L. 106-65, the 
National Defense Authorization Act for Fiscal Year 2000 which prohibits 
the disclosure of certain  categories of information that could enhance 
China's military capability. No exchanges similar to the People's 
Liberation Army visit to the Federal Express center in Memphis are 
planned or ongoing. The Department of Defense will continue to conduct 
a case-by-case review of all military contacts with China to ensure 
compliance with the President's policy and legislative guidelines.
    Second, in an effort to prepare a more substantive and 
comprehensive report, the 2001 Annual Report on the Current State of 
Military-to-Military Exchanges with the People's Liberation Army drew 
upon classified materials for the first time. The use of these 
materials required the entire report to be classified. Your staff can 
access the classified report, which is stored in Room S-407 in the 
Capitol.

    12. Senator Smith. Secretary Rumsfeld, we have still not delivered 
AMRAAMs promised to Taiwan, despite recent news that China conducted 
two tests of the Russian-made AA-12 Adder medium range air-to-air 
missile. Why not?
    Secretary Rumsfeld. The Department of Defense is firmly committed 
to implementing the obligations of the Taiwan Relations Act, and to 
providing Taiwan with all necessary defense articles and services. U.S. 
policy on providing AMRAAM is that we will not be the first country to 
introduce these weapons into the region. In light of reported Chinese 
acquisition of the AA-12, the State Department, in cooperation with 
DOD, is in the process of reviewing this policy.

    13. Senator Smith. Secretary Rumsfeld, since President Bush 
endorsed, during his campaign, the Taiwan Security Enhancement Act, why 
would DOD not embrace the House language in the defense authorization 
bill on training Taiwanese officers? Why can't we engage with Chinese 
democrats in Taiwan, as opposed to the dictators in Beijing? I know the 
State Department already has its talking points out opposed to this 
House provision on Taiwan, before the DOD even makes up its mind--but I 
hope you come down on the right side of this issue, consistent with 
President Bush's campaign commitment.
    Secretary Rumsfeld. While we welcome Congress' support for the U.S. 
commitments under the Taiwan Relations Act and for the President's 
commitment to the defense of Taiwan, we believe that the objectives of 
Section 1202 are best achieved by preserving the traditional statutory 
role of the Secretary to exercise authority, direction, and control 
over the Department of Defense to conduct such activities as are 
appropriate to support those commitments, including his authority to 
preserve the confidentiality of such activities.

                          personnel rotations
    14. Senator Smith. General Franks, I have recently read articles 
and reports addressing a concern about the military personnel system 
and the manner in which the people--the service men and women who are 
truly responsible for accomplishing transformation--are rotated in and 
out of jobs and billets too quickly. That personnel cycling does not 
allow the individuals the time necessary to become a master of their 
assigned duty, let alone a true expert before moving on to ``check the 
box'' somewhere else. While I have been impressed with the results of 
our forces to date, I would like to know how personnel rotations affect 
your operations at your staff headquarters?
    General Franks. Rotation as a matter of policy has had very little, 
if any, affect on operations in the headquarters. Let me address the 
issue from two perspectives, permanent party and temporary duty, since 
they are managed very differently.
    From a permanent party perspective I believe our soldiers, sailors, 
airmen, and marines enjoy tremendous stability and clearly have an 
opportunity to not only develop professionally but contribute 
significantly in a joint environment. For officers, Goldwater-Nichols 
requires specific minimum tour length. In general, our officers will 
serve a minimum of 3 years on the staff. Typically, the only time we 
reassign an officer short of 3 years in the headquarters is to take 
command of a unit or attend a service Professional Military Education 
school--both great opportunities. While not governed by law, the same 
is generally true for our enlisted members. In fact, many of them seek, 
and are granted, authority to stay a fourth year.
    As for individual augmentees, those assigned in a temporary duty 
capacity, Service policies today rotate them somewhere between 90 days 
and 1 year. Again, as a matter of policy I have not seen any 
significant negative impacts as a result of these rotations. When we 
ask for augmentation, we are normally looking for specific skill sets--
we expect these folks to show up already possessing the requisite 
skills and be ready to go immediately to work. Almost without 
exception, that's the case.
    There are some challenges with regard to our mission in our theater 
of operations--specifically with respect to our more technical career 
fields. Shorter rotations tend to give our technical folks less time to 
become familiar with deployed systems and have much opportunity to 
subsequently use that familiarity to contribute. We're working with the 
Services now to address these issues.

    15. Senator Smith. General Franks, additionally, how do full unit 
rotations, like the one recently completed by the 101st Airborne out of 
Afghanistan, affect the stability and proficiency on their assigned 
areas of responsibilities? What are the benefits of having a unit in 
place for only 6 months at a time when I am sure it takes much longer 
to learn the nuances of combat operations and the local culture and 
such things--both tangible and intangible--that make the units truly 
effective and even more efficient?
    General Franks. This question is better answered by the Department 
of the Army. As a general comment regarding the effect of operations in 
Afghanistan on the readiness of our Armed Forces, it is my opinion that 
the operations we have conducted in Afghanistan have strengthened the 
overall combat readiness of our troops by giving them a taste of what 
real-world combat operations are all about. The fear, anxiety, boredom, 
physical pain, and sense of accomplishment that combat offers a soldier 
cannot be fully simulated during a training exercise.
    Still, this qualitative information is not easily transferred to an 
analytically based, post-deployment Training and Readiness Report. 
Normally, a unit is at its combat training and readiness peak when it 
deploys. During the course of any deployment, some mission areas will 
not be performed as often as others. Those missions and skill sets 
performed often will result in razor-sharp combat readiness in those 
areas. Obviously, those skill sets and missions not performed as often 
due to the nature of the deployment will need to be refreshed following 
redeployment.

    [Whereupon, at 5:20 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
